APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Third Circuit, Ass’n of N.J. Rifle &
Pistol Clubs Inc. v. Attorney Gen. N.J.,
No. 19-3142 (Sept. 1, 2020) ......................... App-1
Appendix B
Order, United States Court of Appeals for
the Third Circuit, Ass’n of N.J. Rifle &
Pistol Clubs Inc. v. Attorney Gen. N.J.,
No. 19-3142 (Nov. 25, 2020) ...................... App-53
Appendix C
Memorandum & Order, United States
District Court for the District of New
Jersey, Ass’n of N.J. Rifle & Pistol Clubs
Inc. v. Grewal, No. 3:18-cv-10507 (July
29, 2019)..................................................... App-55
Appendix D
Amended Opinion, United States Court of
Appeals for the Third Circuit, Ass’n of
N.J. Rifle & Pistol Clubs Inc. v. Attorney
Gen. N.J., No. 18-3170 (Dec. 6, 2018) ....... App-63
Appendix E
Memorandum & Order, United States
District Court for the District of New
Jersey, Ass’n of N.J. Rifle & Pistol Clubs
Inc. v. Grewal, No. 3:18-cv-10507 (Sept.
28, 2018)................................................... App-118

ii
Appendix F
Order, United States Court of Appeals for
the Third Circuit, Ass’n of N.J. Rifle &
Pistol Clubs Inc. v. Attorney Gen. N.J.,
No. 18-3170 (Jan. 9, 2019)....................... App-159
Appendix G
Relevant Statutory Provisions ................ App-161
N.J. Stat. Ann. § 2C:39-1(w)(4), (y) .. App-161
N.J. Stat. Ann. § 2C:39-3(j)............... App-161
N.J. Stat. Ann. § 2C:39-5(b), (f) ........ App-162
N.J. Stat. Ann. § 2C:39-19 ................ App-162
N.J. Stat. Ann. § 2C:39-20(a)............ App-163

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 19-3142
________________
ASSOCIATION OF NEW JERSEY RIFLE AND PISTOL
CLUBS INC.; BLAKE ELLMAN; ALEXANDER DEMBOWSKI,
v.

Appellants,

ATTORNEY GENERAL NEW JERSEY; SUPERINTENDENT
NEW JERSEY STATE POLICE; THOMAS WILLIVER, in
his official capacity as Chief of Police of the Chester
Police Department; JAMES B. O’CONNOR, in his official
capacity as Chief of Police of the Lyndhurst
Police Department,
Appellees.
________________
Argued: June 16, 2020
Filed: Sept. 1, 2020
________________
Before: JORDAN, MATEY and ROTH,
Circuit Judges.
________________
OPINION
________________
JORDAN, Circuit Judge.
We are asked to determine whether a New Jersey
statute that makes it illegal to possess large capacity

App-2
magazines (“LCMs”)—defined as magazines capable
of holding more than ten rounds of ammunition—
violates the Second Amendment, the Fifth
Amendment’s Takings Clause, or the Fourteenth
Amendment’s Equal Protection Clause. But we cannot
answer that question, since it has already been
answered. A prior panel of our court reviewed that
statute, known as Assembly Bill No. 2761 and codified
at N.J. Stat. Ann. § 2C:39-1 (“the Act”), on appeal from
an earlier order of the District Court denying a
preliminary injunction. It upheld the District Court’s
order and, in doing so, went beyond simply answering
the question of the plaintiffs’ likelihood of success on
the merits. It directly addressed the merits of the
constitutionality of the Act, holding that the Act did
not violate the Second, Fifth, or Fourteenth
Amendments.
On remand, the District Court ruled on summary
judgment that it was bound by that earlier decision
and so upheld the constitutionality of the Act. The
plaintiffs have now appealed again, arguing that the
District Court erred in treating the prior panel’s
opinion as binding and arguing again that the Act is
unconstitutional. Because they are wrong on the first
point, we do not reach the second. We will affirm.
I.

Background

In 2018, New Jersey enacted Assembly Bill
No. 2761, a law making it illegal to possess a magazine
capable of holding more than ten rounds of
ammunition. N.J. Stat. Ann. § 2C:39-1(y), 2C:39-3(j).
Prior to that, it had been illegal in New Jersey to
possess magazines capable of holding more than 15

App-3
rounds of ammunition. Owners of LCMs had several
options for complying with the new Act:
Specifically, the legislation g[ave] LCM
owners until December 10, 2018 to (1) modify
their LCMs “to accept ten rounds or less,” id.
at 2C:39-19(b); (2) render firearms with
LCMs or the LCM itself inoperable, id.;
(3) register firearms with LCMs that c[ould
not] be “modified to accommodate ten or less
rounds,” id. at 2C:39-20(a); (4) transfer the
firearm or LCM to an individual or entity
entitled to own or possess it, id. at 2C:3919(a); or (5) surrender the firearm or LCM to
law enforcement, id. at 2C:39-19(c).
Ass’n of N.J. Rifle & Pistol Clubs, Inc. v. Attorney Gen.
of N.J., 910 F.3d 106, 111 (3d Cir. 2018) (“Prior Panel
Opinion”) (footnote omitted). The statute exempts
active military members and active and retired law
enforcement officers. N.J. Stat. Ann. § 2C:39-3(g),
2C:39-17.
On the day the bill was signed into law, the
plaintiffs filed this action, 1 naming certain state and
local law enforcement officials as defendants. (For
ease of reference, we refer to the defendants
The plaintiffs are the Association of New Jersey Rifle and
Pistol Clubs, Inc. (“ANJRPC”), Blake Ellman, and Alexander
Dembowski. ANJRPC is “an eighty-year old membership
organization, representing tens of thousands of members, many
of whom possess large capacity magazines for self-defense.” Ass’n
of N.J. Rifle & Pistol Clubs, Inc. v. Grewal, No. 3:18-cv-10507
(PGS) (LHG), 2018 WL 4688345, at *2 (D.N.J. Sept. 28, 2018).
Ellman and Dembowski are members of ANJRPC who possess
LCMs. Id. The plaintiffs’ standing is not in question.
1

App-4
collectively as “the State.”) The complaint alleges that
the Act violates the Second Amendment, the Fifth
Amendment’s Takings Clause, and the Fourteenth
Amendment’s Equal Protection Clause. Prior Panel
Opinion, 910 F.3d at 111. With their complaint, the
plaintiffs also filed a motion for a preliminary
injunction. Ass’n of N.J. Rifle & Pistol Clubs, Inc. v.
Grewal, No. 3:18-cv-10507 (PGS) (LHG), 2018 WL
4688345, at *1 (D.N.J. Sept. 28, 2018) (“Preliminary
Injunction Opinion”).
The District Court held a three-day hearing on the
motion, during which the parties presented conflicting
expert testimony on the use of LCMs in mass
shootings, including the number of casualties involved
and whether the Act would save lives during a mass
shooting by forcing the shooter to pause and reload
ammunition, thus allowing individuals time to escape
or subdue the shooter. Id. at *4-8. The Court also
heard testimony on whether LCMs are used in selfdefense. Id. To distinguish law enforcement officers
from the general public, the State offered expert
testimony that both active and retired police officers
who possess firearms are required to pass a
qualification course bi-annually, using a weapon
equipped with a 15-round magazine. Id. at *5.
Ultimately, the District Court denied the preliminary
injunction, remarking that “the expert testimony
[wa]s of little help in its analysis.” Id. at *8.
In rejecting the plaintiffs’ contention that the Act
violated the Second Amendment, the District Court
applied the two-step analytical approach we set out in
United States v. Marzzarella, 614 F.3d 85, 89 (3d Cir.
2010). Preliminary Injunction Opinion, 2018 WL

App-5
4688345, at *9. Marzzarella requires a court to ask
first whether the challenged law imposes a burden on
conduct falling within the scope of the Second
Amendment’s guarantee of the right to bear arms. If
it does, the second step is to evaluate that law under
some form of heightened scrutiny. 2 614 F.3d at 89. The
level of scrutiny to be applied is determined by
whether the law burdens the core of the Second
Amendment guarantee. Id. The “core … [of] the
Second Amendment protects the right of law-abiding
citizens to possess non-dangerous weapons for selfdefense in the home.” Id. at 92. See also District of
Columbia v. Heller, 554 U.S. 570, 635 (2008)
(explaining that the Second Amendment “elevates
above all other interests the right of law-abiding,
responsible citizens to use arms in defense of hearth
and home.”). Laws that do burden that core receive
strict scrutiny, whereas those that do not burden it
There are three levels of scrutiny: rational basis review,
intermediate scrutiny, and strict scrutiny. In Binderup v.
Attorney General, 836 F.3d 336 (3d Cir. 2016) (en banc), we
explained the three levels of scrutiny by saying:
2

Depending on the importance of the rights involved
and the nature of the burden on them, a law’s purpose
may need to be only legitimate and the means to
achieve it rational (called rational basis scrutiny); the
purpose may need to be important and the means to
achieve it substantially related (called intermediate
scrutiny); or the purpose may need to be compelling
and the means to achieve it narrowly tailored, that is,
the least restrictive (called strict scrutiny). The latter
two tests we refer to collectively as heightened scrutiny
to distinguish them from the easily met rational basis
test.
836 F.3d at 341.

App-6
receive intermediate scrutiny. Marzzarella, 614 F.3d
at 89, 96-97.
The District Court concluded that the New Jersey
Act imposes a burden on the Second Amendment
because magazines, including LCMs, are integral
components of guns. Preliminary Injunction Opinion,
2018 WL 4688345, at *9-11. Having answered the
step-one question from Marzzarella, the Court
proceeded to the second step and determined that the
law should be evaluated under intermediate scrutiny
because the core of the Second Amendment right to
keep and bear arms is not burdened by the Act. As the
Court saw it, the Act “does not prohibit the possession
of the quintessential self-defense weapon, the
handgun,” nor does it “effectively disarm individuals
or substantially affect their ability to defend
themselves.” Id. at *12 (internal quotation marks and
citation omitted).
Then, applying intermediate scrutiny, the District
Court upheld the Act. Id. at *12-13. Intermediate
scrutiny requires the government to prove that the
objective of the government regulation is “significant,
substantial, or important[,]” and that “the fit between
the challenged regulation and the asserted objective
[is] reasonable[.]” Marzzarella, 614 F.3d at 98
(internal quotation marks omitted). “The regulation
need not be the least restrictive means of serving the
interest, but may not burden more [conduct] than is
reasonably necessary.” Id. (citations omitted). The
District Court concluded that New Jersey has a
significant, substantial, and important interest in the
safety of its citizens. Preliminary Injunction Opinion,
2018 WL 4688345, at *12. While the Court did not

App-7
make a definitive finding that the Act will
significantly reduce casualties in a mass shooting by
limiting the number of shots that can be fired from a
single gun, it did decide that there was a reasonable
fit between the Act and its stated object. It said, “the
expert testimony established that there is some delay
associated with reloading, which may provide an
opportunity for potential victims to escape or for a
bystander to intercede and somehow stop a shooter.”
Id. at *12. Finally, the Court concluded that the Act
places a minimal burden on lawful gun owners
because it does not impose a restriction on the number
of magazines an individual may own and instead
limits only the lawful capacity of a single magazine.
Id. at *13.
The District Court also rejected the plaintiffs’
Fifth and Fourteenth Amendment claims. It
concluded that there had been no taking of property in
violation of the Fifth Amendment because the Act
allows for gun owners to permanently modify their
magazines to accept ten rounds, and, if those
magazines or guns cannot be modified, they can be
kept as long as the owner registers them. Id. at *16.
As to the plaintiffs’ argument that the Act violates the
Fourteenth Amendment’s Equal Protection clause
because it treats active and retired law enforcement
officers differently than other individuals, the District
Court concluded that law enforcement officers are not
similarly situated to other New Jersey citizens for a
number of reasons. 3 Officers are required to pass gun
3 The plaintiffs did not argue that the Act’s exemption for active
military personnel violates the Equal Protection Clause but did
argue that there was disparate treatment between retired police

App-8
safety requalification tests, which are not required of
other individuals; officers have “an unusual ethos of
public service … and are expected to act in the public’s
interest[;]” and “retired police officers face special
threats that private citizens do not[.]” Id. at *14
(internal quotation marks and citations omitted).
Dissatisfied with the denial of their motion for a
preliminary injunction, the plaintiffs appealed, but a
divided panel of our Court affirmed. Prior Panel
Opinion, 910 F.3d at 110. The panel announced its
holding in these straightforward words: “Today we
address whether [the Act] violates the Second
Amendment, the Fifth Amendment’s Takings Clause,
and the Fourteenth Amendment’s Equal Protection
Clause. We conclude that it does not.” Id. While the
panel explained that its task was to “decide whether
Plaintiffs have a reasonable probability of showing
that the Act violates [these constitutional rights,]” id.
at 115, it nevertheless immediately went beyond that
task, reached the merits, and determined that the Act
withstands the plaintiffs’ constitutional challenge.
Addressing the Second Amendment claim, the
panel applied the analytical approach from
Marzzarella, as had the District Court. Id. at 116-24.
First, it assumed without deciding that LCMs are
“typically possessed by law-abiding citizens for lawful
purposes and that they are entitled to Second
Amendment protection.” Id. at 117. It then turned to
the second step of Marzzarella and determined that
officers and military veterans. The Court rejected that, saying,
“there is no evidence to suggest that military veterans receive
equivalent training [to law enforcement officers].” Preliminary
Injunction Opinion, 2018 WL 4688345, at *14.

App-9
intermediate scrutiny should apply because the Act
does not burden the core Second Amendment
guarantee, for five reasons: (1) it does not categorically
ban a class of firearms but is rather a ban on a subset
of magazines; (2) it is not a prohibition of a class of
arms overwhelmingly chosen by Americans for selfdefense in the home; (3) it does not disarm or
substantially affect Americans’ ability to defend
themselves; (4) New Jersey residents can still possess
and use magazines, just with fewer rounds; and (5) “it
cannot be the case that possession of a firearm in the
home for self-defense is a protected form of possession
under all circumstances. By this rationale, any type of
firearm possessed in the home would be protected
merely because it could be used for self-defense.” Id. at
117-18 (citations and internal quotation marks
omitted).
The panel also agreed with the District Court that
the Act survives intermediate scrutiny. It recognized
New Jersey’s significant, substantial, and important
interest in protecting its citizens’ safety. Id. at 119.
And, the panel said, the Act reasonably fits the State’s
interest because, by reducing the number of shots that
can be fired from one gun, victims will be able to flee,
bystanders to intervene, and numerous injuries will be
avoided in a mass shooting incident. Id. at 119. The
panel further decided that the Act did not burden more
conduct than is reasonably necessary because it
imposes no limit on the number of firearms,
magazines, or ammunition an individual may possess,
and there is no record evidence that LCMs are “wellsuited or safe for self-defense.” Id. at 122. The panel
also rejected the plaintiffs’ Fifth Amendment and

App-10
Equal Protection Clause claims, for the same reasons
as did the District Court. Id. at 124-26.
In ruling for the State, the panel’s decision was in
line with the decisions of at least four other circuits
that have decided that laws regulating LCMs are
constitutional. See Kolbe v. Hogan, 849 F.3d 114 (4th
Cir. 2017) (en banc) (affirming grant of summary
judgment upholding Maryland’s ten round limit); N.Y.
State Rifle & Pistol Ass’n v. Cuomo, 804 F.3d 242 (2d
Cir. 2015) (upholding, on review from summary
judgment, New York and Connecticut’s laws imposing
a ten round limit); Friedman v. City of Highland Park,
Illinois, 784 F.3d 406 (7th Cir. 2015) (affirming grant
of summary judgment upholding City of Highland
Park’s ten round limit); Heller v. District of Columbia,
670 F.3d 1244 (D.C. Cir. 2011) (“Heller II”) (affirming
grant of summary judgment upholding D.C.’s ten
round limit). 4
The decision was not, however, unanimous. The
dissenting member of the panel said that, in two ways,
the majority treated the Second Amendment
differently from other parts of the Bill of Rights: first,
the majority weighed the merits of the case in order to
pick a tier of scrutiny, and second, the majority, while
purporting to use intermediate scrutiny, actually
Since the prior panel opinion was issued, the First Circuit has
also concluded that Massachusetts’s ten round limit is
constitutional. See Worman v. Healey, 922 F.3d 26 (1st Cir. 2019)
(affirming grant of summary judgment upholding Massachusetts
ten round limit). The Ninth Circuit, however, has very recently
held that California’s ban on LCMs of more than ten rounds is
unconstitutional under either strict scrutiny or intermediate
scrutiny. Duncan v. Becerra, --- F.3d ---, No. , 2020 WL 4730668,
at *25 (9th Cir. Aug. 14, 2020).
4

App-11
applied rational basis review. Id. at 126 (Bibas, J.,
dissenting). Among other things, the dissent was
concerned that the majority failed to demand actual
proof to justify the State’s regulation, as heightened
scrutiny demands in other contexts, and that the
majority had likewise failed to put the burden of proof
on the State to demonstrate that the regulation was
sufficiently tailored. Id.
When the case was remanded to the District
Court, the parties promptly filed cross-motions for
summary judgment, and the State’s motion won.
Although the Court recognized that different
standards apply at the summary judgment stage than
at the preliminary injunction stage, it said that it was
granting summary judgment because “the Third
Circuit has issued a precedential decision that
resolves all legal issues in this case and there remains
no genuine disputes of material fact.” (App. at 8.) The
District Court noted that the prior panel opinion said
the Act does not violate the Second, Fifth, or
Fourteenth Amendments, so there was “binding Third
Circuit precedent that the New Jersey law is
constitutional[.]” (App. at 8-9.)
This timely appeal followed.
II. Discussion 5
“It is the tradition of this court that the holding of
a panel in a precedential opinion is binding on
5 The District Court had jurisdiction under 28 U.S.C. § 1331,
and we have jurisdiction under 28 U.S.C. § 1291. “It is well
established that we employ a plenary standard in reviewing
orders entered on motions for summary judgment, applying the
same standard as the district court.” Blunt v. Lower Merion Sch.
Dist., 767 F.3d 247, 265 (3d Cir. 2014).

App-12
subsequent panels.” (3d Cir. I.O.P 9.1.) The plaintiffs
argue, however, that we are not under that restriction
here, for two reasons. First, they contend the outcome
can differ here because this appeal arises in a different
procedural posture than did the earlier one, with
different standards and different inferences in play.
Second, they say that the prior panel decision was
clearly wrong and should be disregarded, to prevent
manifest injustice. Neither argument succeeds.
True enough, the standards for obtaining a
preliminary injunction and summary judgment are
different. Under the well-known standard for
obtaining a preliminary injunction, the moving party
must show “both a likelihood of success on the merits
and a probability of irreparable harm. Additionally,
the district court should consider the effect of the
issuance of a preliminary injunction on other
interested persons and the public interest.” Bradley v.
Pittsburgh Bd. of Educ., 910 F.2d 1172, 1175 (3d Cir.
1990) (citations omitted). On summary judgment, by
contrast, the moving party must establish that “there
is not a genuine dispute with respect to a material fact
and thus the moving party is entitled to judgment as
a matter of law.” Blunt v. Lower Merion Sch. Dist., 767
F.3d 247, 265 (3d Cir. 2014). Our standards of review
are also different. We will affirm a district court’s
order on a preliminary injunction, “unless the court
abused its discretion, committed an obvious error of
law, or made a serious mistake in considering the
proof.” Bradley, 910 F.2d at 1175. On the other hand,
we exercise plenary review over an order on summary
judgment. Blunt, 767 F.3d at 265.

App-13
But despite the differing standards pertaining to
the differing procedural postures, a panel of our Court
reviewing a decision on a preliminary injunction
motion can indeed bind a subsequent panel reviewing
an appeal from an order on summary judgment. As
then-Judge Alito explained in Pitt News v. Pappert,
379 F.3d 96 (3d Cir. 2004),
although a panel entertaining a preliminary
injunction appeal generally decides only
whether the district court abused its
discretion in ruling on the request for relief
and generally does not go into the merits any
farther than is necessary to determine
whether the moving party established a
likelihood of success, a panel is not always
required to take this narrow approach. If a
preliminary injunction appeal presents a
question of law and the facts are established
or of no controlling relevance, the panel may
decide the merits of the claim.
Id. at 105 (internal quotation marks and citations
omitted). Thus, “[i]n the typical situation—where the
prior panel stopped at the question of likelihood of
success—the prior panel’s legal analysis must be
carefully considered, but it is not binding on the later
panel.” Id. “On the other hand, if the first panel does
not stop at the question of likelihood of success and
instead addresses the merits, the later panel, in
accordance with our Court’s traditional practice,
should regard itself as bound by the prior panel
opinion.” 6 Id. “We have recognized, however, that
6 There are sound reasons why a panel reviewing a ruling on a
preliminary injunction should focus on the question of likelihood

App-14
reconsideration is justified in extraordinary
circumstances such as where: (1) there has been an
intervening change in the law; (2) new evidence has
become available; or (3) reconsideration is necessary
to prevent clear error or a manifest injustice.” Council
of Alt. Political Parties v. Hooks, 179 F.3d 64, 69 (3d
Cir. 1999).
Here, the prior panel’s opinion immediately went
beyond the question of likelihood of success and
declared a holding on the merits. Again, it held very
plainly that the Act does not violate the Second
Amendment, the Fifth Amendment’s Takings Clause,
and the Fourteenth Amendment’s Equal Protection
Clause. Prior Panel Opinion, 910 F.3d at 110. In short,
it addressed the ultimate merits of the dispute, as the
plaintiffs rightly admit. 7 (Oral Arg. At 2:02-40,
of success on the merits rather than reaching the merits of the
claim before them. Given the already-mentioned different
standards on a motion for preliminary injunction and motion for
summary judgment and our different standards of review, going
to the merits on a preliminary record, under hurried
circumstances, can lead to premature and less informed
decisions. On review at the preliminary injunction stage, a panel
may conclude that the district court did not abuse its discretion
or commit obvious errors of law or serious mistakes in its findings
of fact. But a subsequent panel reviewing an order on summary
judgment may, in its plenary review of the record, identify errors
the district court committed that, while not obvious or serious,
impact the analysis or outcome of a case. We therefore make it a
general practice to proceed cautiously, to avoid ending a case on
review from a preliminary injunction when the record could be
more developed on summary judgment and we can conduct a
plenary review of that record.
7 See Prior Panel Opinion, 910 F.3d at 122 (“[W]e hold that laws
restricting magazine capacity to ten rounds of ammunition do not
violate the Second Amendment.”); id. at 125 (“In short, the Act

App-15
https://www2.ca3.uscourts.gov/oralargument/audio/
19-3142_AssnNJRiflePistolClubsv.AttyGenNJ.mp3.)
And the panel did so primarily on the basis of facts
that are uncontested. 8
To avoid the conclusion that the law of the case
has been set and a precedent established, 9 the
plaintiffs do not argue that there has been an
intervening change in the law or the discovery of new
evidence, but they do point out an intervening
procedural step in our Court. They note that the State
asked a motions panel of our Court to summarily
affirm the District Court’s grant of summary
judgment on remand but that the motions panel
does not result in a taking.”); id. at 126 (“[R]etired law
enforcement officers are not similarly situated to retired military
personnel and ordinary citizens, and therefore their exemption
from the LCM ban does not violate the Equal Protection
Clause.”).
The case-determinative facts here centered on reloading. The
District Court’s conclusion that the Act survived intermediate
scrutiny relied on its finding that “there is some delay associated
with reloading, which may provide an opportunity for potential
victims to escape or for a bystander to intercede[.]” Preliminary
Injunction Opinion, 2018 WL 4688345, at *12. The prior panel
also relied heavily on that finding. Prior Panel Opinion, 910 F.3d
at 119-20. The plaintiffs’ own witness before the District Court
acknowledged that there would be some pause while a shooter
reloaded. Preliminary Injunction Opinion, 2018 WL 4688345, at
*6-7. And, on appeal, the plaintiffs have presented only legal, not
factual, arguments.
8

9 We have explained that “[u]nder the law of the case doctrine,
once an issue is decided, it will not be relitigated in the same case,
except in unusual circumstances.” Hayman Cash Register Co. v.
Sarokin, 669 F.2d 162, 165 (3d Cir. 1982). Thus, the prior panel’s
opinion is both the law of the case and binding precedent.

App-16
denied that request. According to the plaintiffs, that
means “the motions panel necessarily rejected [the
State’s] argument that the prior merits panel’s denial
of a preliminary injunction binds the outcome of this
appeal.” (Reply Br. at 2.)
Not so. According to our Internal Operating
Procedures, we “may take summary action … if it
clearly appears that no substantial question is
presented or that subsequent precedent or a change in
circumstances warrants such action.” (3d Cir. I.O.P.
10.6 (emphasis added)). Thus, although we may
choose to summarily affirm, a decision of a motions
panel declining to affirm is not the same as a
determination that there is a substantial question left
in the case. It often means nothing more than that the
presentation made by motion has left that particular
motions panel wondering whether there is a
substantial question.
Moreover, we do not afford the same deference to
decisions made by a motions panel that we afford to
opinions by a merits panel. Although “a merits panel
does not lightly overturn a decision made by a motions
panel during the course of the same appeal, we do not
apply the law of the case doctrine as strictly in that
instance as we do when a second merits panel is asked
to reconsider a decision reached by the first merits
panel on an earlier appeal.” Council Tree Commc’ns,
Inc. v. FCC, 503 F.3d 284, 292 (3d Cir. 2007). That is
in part because litigants can seek en banc review and
review by certiorari of merits panel decisions but do
not have similar opportunities with respect to a
motions panel decision. Id. at 291-92. Here, the order
denying the motion for summary affirmance does not

App-17
explain why the motion was being denied. Thus, even
if the decisions of the merits panel and the motions
panel were in conflict (which they are not), the merits
panel is the one owed deference.
The plaintiffs next argue that we need not follow
the prior panel’s decision because it is clearly wrong
and would work a manifest injustice. The burden that
accompanies that contention is heavy. The plaintiffs
must “persuade us not only that our prior decision was
wrong, but that it was clearly wrong[.]” See In re City
of Phila. Litig., 158 F.3d 711, 720-21 (3d Cir. 1998)
(emphasis added). Similarly, a manifest injustice
occurs only when there is “direct, obvious, and
observable error[.]” Manifest Injustice, Black’s Law
Dictionary (11th ed. 2019). “The law of the case will be
disregarded only when the court has a clear conviction
of error[.]” Fogel v. Chestnutt, 668 F.2d 100, 109 (2d
Cir. 1981) (internal quotation marks and citation
omitted). “Mere doubt on our part is not enough to
open the point for full reconsideration.” Id. (internal
quotation marks omitted).
There is certainly room for vigorous debate about
the prior decision. The thorough dissent shows that.
But whether we agree with the majority’s opinion or
not, we cannot say that it is clearly wrong or
manifestly unjust. Even if we ignore that many other
circuit courts have reached the same conclusion as the
prior panel, with respect to very similar laws, there is
evident in the prior panel’s work thoughtful
consideration of the record and the relevant legal
principles. Whether the prior panel ultimately got
things wrong is not the question now. The question is
whether it went so far astray that its decision can be

App-18
called clearly wrong and manifestly unjust. The
answer to that is no. We are therefore bound to respect
the decision rendered by the prior panel, which ends
this appeal. 10
III. Conclusion
For the foregoing reasons, we will affirm the
District Court’s grant of summary judgment in favor
of the State and its denial of the plaintiffs’ crossmotion for summary judgment.

The dissent concludes that the law of the case doctrine does
not bar our consideration of the merits of the parties’ dispute, for
two reasons: first, the prior panel assumed without deciding that
magazines holding more than ten rounds are protected under the
Second Amendment, and, second, the prior panel was imprecise
and interchangeably used the terms “magazines,” “LCMs,” and
“large capacity magazines” to refer to magazines of different
capacities and to magazines and firearms with different
capabilities. In our view, neither of those considerations affects
whether we are bound by the prior panel’s decision. Even though
the prior panel assumed without deciding that magazines
holding more than ten rounds are protected under the Second
Amendment, that assumption did not leave the parties’ rights
unsettled. That assumption was in plaintiffs’ favor, and, under
that assumption, the prior panel clearly held that the Act does
not violate the Second Amendment. That holding settled the
parties’ rights. Similarly, the prior panel’s language describing
magazines, even if not as precise as our dissenting colleague
would like, does not, in our opinion, create anything that we can
call clear error or manifest injustice and thus that would permit
us to disregard the prior panel’s case dispositive holdings and
reach the merits afresh.
10

App-19
MATEY, Circuit Judge, dissenting.
The majority concludes that a prudential
principle bars our consideration of the meaning of the
Constitution. But “[t]he interpretation of the laws is
the proper and peculiar province of the courts,” The
Federalist No. 78, at 525 (Alexander Hamilton) (J.
Cooke ed., 1961), and a judicially created tool for case
management does not, in my opinion, supersede the
expectation that the judiciary will decide cases and
controversies arising under the Constitution. No
doubt, there are rational reasons behind the “law-ofthe-case doctrine.” Allowing courts to repeatedly
consider questions already decided would undermine
the stability and predictability of the law. In contrast,
where issues remain undecided, or the assumptions
underlying those decisions are unclear, then the
opposite conclusion holds. And in such cases, the twin
aims of finality—constancy and certainty—do not
support limiting the judicial power granted in the
Constitution and extended by Congress.
This case, in my view, is an example of the latter
category for two reasons. First, in Association of New
Jersey Rifle and Pistol Clubs, Inc. v. Attorney General
of New Jersey, 910 F.3d 106 (3d Cir. 2018) (“NJ Rifle
I”), 1 the panel did not decide whether all “magazines”
enjoy the guarantee of the Second Amendment under
United States v. Marzzarella, 614 F.3d 85 (3d Cir.
2010); and second, the decision did not define what
constitutes a “large capacity magazine.” Because both
issues are central to the resolution of this case, I would
1 For convenience, I sometimes refer to the NJ Rifle I panel as
“the prior panel.”

App-20
decline to apply the law-of-the-case doctrine and
would consider the issues raised by the appellant.
Doing so, I would reverse the order of the District
Court and remand this matter to permit the State to
provide evidence that N.J. Stat. Ann. § 2C:39-1(y)
(“New Jersey Magazine Act” or “the Act”) is narrowly
tailored to advance the State’s interests.
Finally, given the difficulty applying our existing
framework in cases implicating the Second
Amendment—illustrated by the deeply reasoned, but
still deeply divergent opinions in NJ Rifle I—I believe
we should reconsider our decision in Marzzarella in
favor of a standard that draws on the text, history, and
original meaning of the constitutional guarantee of
“the right of the people to keep and bear Arms.” U.S.
Const. amend. II.
I.

Law-of-the-Case Doctrine

A. Background
Under the law-of-the-case doctrine, “one panel of
an appellate court generally will not reconsider
questions that another panel has decided on a prior
appeal in the same case.” In re City of Phila. Litig., 158
F.3d 711, 717 (3d Cir. 1998). The doctrine does not
appear in statute. Instead, it is a prudential limitation
that “directs courts to refrain from re-deciding issues
that were resolved earlier in the litigation.” Pub. Int.
Rsch. Grp. of N.J., Inc. v. Magnesium Elektron, Inc.,
123 F.3d 111, 116 (3d Cir. 1997). But “[t]he law of the
case doctrine does not limit a federal court’s power;
rather, it directs its exercise of discretion.” Id. It is, in
short, a judicially created self-direction on when to
choose to limit further judicial review. And the
reasoning is simple: declining to reconsider issues in

App-21
the same case “promotes the finality and efficiency of
the judicial process by protecting against the agitation
of settled issues.” Christianson v. Colt Indus.
Operating Corp., 486 U.S. 800, 816 (1988) (internal
quotation marks and citation omitted). So a “settled”
issue is the key and, in this case, I do not find the
rights of the parties settled.
B. The NJ Rifle I Decision
NJ Rifle I concluded that “laws restricting
magazine capacity to ten rounds of ammunition do not
violate the Second Amendment.” NJ Rifle I, 910 F.3d
at 122. That conclusion rests on assumptions about
the scope of the constitutional right to keep and bear
arms, and the technical operation of self-loading
firearms.
1.

NJ Rifle I Did Not Decide That
Magazines Holding More Than Ten
Rounds Are Arms Protected under the
Second Amendment

I start by asking what constitutional question NJ
Rifle I answered. We know the Second Amendment
confers “an individual right to keep and bear arms.”
District of Columbia v. Heller, 554 U.S. 570, 595, 598,
622 (2008). We have also read Heller to require “a twopronged approach to Second Amendment challenges.”
Marzzarella, 614 F.3d at 89. “First, we ask whether
the challenged law imposes a burden on conduct
falling within the scope of the Second Amendment’s
guarantee.” Id. “If it does not, our inquiry is complete.
If it does, we evaluate the law under some form of
means-end scrutiny. If the law passes muster under
that standard, it is constitutional. If it fails, it is
invalid.” Id.

App-22
I do not read NJ Rifle I to have fully applied this
framework. To begin, the majority opinion held that “a
magazine is an arm under the Second Amendment.”
NJ Rifle I, 910 F.3d at 116. But it did not view
“magazines” as the relevant “arm” regulated by New
Jersey in the Act. Quite differently, the opinion
focused on what it viewed as a narrower category of
magazines called “Large Capacity Magazines” or
“LCMs.” Id. at 116-17. And then, the opinion
“assume[d] without deciding that LCMs . . . are
entitled to Second Amendment protection.” Id. at 117
(emphasis added). So are “LCMs” an “arm” under the
Second Amendment? It is doubtful New Jersey thinks
so. Indeed, when pressed at oral argument, the State
declined to characterize NJ Rifle I as holding that
such magazines enjoy constitutional protection. 2 That
waffling is no small matter. It would of course be
significant that some twenty-two million individuals
residing in our Circuit are left to wonder whether they
have, since the Founding, surrendered a fundamental
right. But that unanswered question takes sharper
focus when coupled with a second: what, exactly, is a
“Large Capacity Magazine?”
2.

NJ Rifle I’s
Definitions

Alternating

Technical

Narrowing the issue presented from “magazines”
to a specific kind of magazine appears, in my reading,
to have obscured the reasoning in NJ Rifle I. Consider
a few examples in which the terms “magazines,”
“LCMs,”
and
“large
capacity
magazines”
2 (Oral Arg. Tr. at 28:13, https://www2.ca3.uscourts.gov/
oralargument/audio/19-3142_AssnNJRiflePistolClubsv.AttyGen
NJ.mp3.)

App-23
interchangeably refer to 1) magazines within the New
Jersey Magazine Act because they can hold more than
ten rounds of ammunition, id. at 110; 2) magazines
subject to laws in other states limiting the amount of
rounds of ammunition, id. at 110 n.1; 3) firearms with
“combat-functional ends” capable of “rapidly”
discharging ammunition, id. at 117 n.16; and 4)
magazines used in fully-automatic firearms, id. at 119
(citing NJ Rifle I App. at 1057, 1118-26). Each of these
four concepts is different, yet they blend together
throughout NJ Rifle I. For instance, early on the
decision defines the term “LCM” to be coterminous
with the object regulated by the New Jersey Magazine
Act: magazines for semi-automatic firearms able to
hold more than ten rounds of ammunition. Id. at 110
(citing N.J. Stat. Ann. § 2C:39-1(y)). A few pages later,
the opinion states that “LCMs are used in mass
shootings,” citing portions of the record that describe
a host of different types of firearms—repeaters, semiautomatic, and automatic—and various sizes of
magazines used in both automatic and semi-automatic
firearms. See id. at 119 (citing NJ Rifle I App. at 1057
(defining “LCM firearms” to include “assault weapons”
and “high-capacity semiautomatic firearms” and
stating that those “LCMs” jointly “appear to account
for 22 to 36% of gun crimes in most places”); NJ Rifle
I App. at 1118-26 (describing sixty-one mass shootings
and the weapons used, including repeaters, semiautomatic firearms, and automatic firearms, along
with magazines of varying capacities, ranging from
13-round magazines to 100-round magazines)). So the
reader is left with the impression that the “LCMs”
regulated in New Jersey are the same devices involved
in a host of criminal acts across the country.

App-24
But they are not. Yet blending together this wide
assortment of firearms and regulatory structures is
critical to the prior panel’s conclusion that “[n]ot only
will the LCM ban reduce the number of shots fired and
the resulting harm, it will present opportunities for
victims to flee and bystanders to intervene.” Id. at 119.
I do not see how the current record supports that
inference. At best, the record could be read to suggest
that criminals use a variety of firearms to commit an
array of violent acts some, all, or none of which are
impacted by the New Jersey Magazine Act.
3.

The Cumulative Result

It is the combination of these two unanswered
questions that gives me greatest pause. The collective
effect of declining to confirm that “large capacity
magazines” enjoy constitutional protection while
defining those same magazines to include sizes
greater than the New Jersey Magazine Act allows
leaves me unable to predict how the Second
Amendment will apply in future cases. I do not believe
the constitutional character of a “magazine” rises and
falls on a single extra round of ammunition. Nor do I
imagine the Second Amendment allows any
government to diminish an individual’s rights through
nomenclature. I am, however, confident that new
restrictions on firearms will continue to flourish
throughout our Circuit. Under NJ Rile I, that leaves
District Court judges with the difficult task of
determining whether a magazine is small enough to
satisfy the Second Amendment or large enough to slip
outside its guarantee. And it leaves this Court with
the certainty that we will need to address those
unanswered questions.

App-25
Respectfully, we need not wait. “[T]he law of the
case doctrine bars courts from reconsidering matters
actually decided[;] it does not prohibit courts from
revisiting matters that are ‘avowedly preliminary or
tentative.’” Council of Alt. Pol. Parties v. Hooks, 179
F.3d 64, 69 (3d Cir. 1999) (quoting 18B Charles A.
Wright, Arthur R. Miller & Edward H. Cooper,
Federal Practice and Procedure: Jurisdiction § 4478
(3d ed. 1981)). So we have taken care to “to prevent the
doctrine from being used to prevent a properly raised
argument from being considered even once.” United
Artists Theatre Cir., Inc. v. Township of Warrington,
316 F.3d 392, 398 (3d Cir. 2003) (emphasis in
original). And that is why we have recognized that
“[w]here there is substantial doubt as to whether a
prior panel actually decided an issue, the later panel
should not be foreclosed from considering the issue.”
Id.
Here, there is substantial doubt about whether all
magazines enjoy the guarantee of the Second
Amendment or if, instead, that protection turns on the
number of rounds of ammunition inside. In my
opinion, it is necessary to address that issue to settle
the rights of the parties here. Given that uncertainty,
I would decline to apply the law-of-the-case doctrine,
as I do not believe it applies to these circumstances.
For that reason, I would, and therefore do, consider
the full question presented by the appellants.
II. Application of the Second Amendment
A. The Scope of the Second Amendment
I begin with Heller and the Supreme Court’s
consideration of the text, history, and tradition of

App-26
firearms regulations in the United States to best
understand the meaning of the Second Amendment.
Naturally, the Court began with the “operative
clause” which provides that “the right of the people to
keep and bear Arms, shall not be infringed.” Heller,
554 U.S. at 576, 578-79. The Court observed that
“[t]he 18th-century meaning [of ‘arms’] is no different
from the meaning today.” Id. at 581 (citing 1 S
Johnson, Dictionary of the English Language 106 (4th
ed. 1773) (reprinted 1978) (defining “arms” as
“[w]eapons of offence, or armour of defence”)); 1
Timothy Cunningham, A New and Complete Law
Dictionary (1771) (defining “arms” as “any thing that
a man wears for his defence, or takes into his hands,
or useth in wrath to cast at or strike another.”); see
also N. Webster, American Dictionary of the English
Language (1828) (reprinted 1989) (similar)). With this
foundation, the Court held that “the Second
Amendment extends . . . to all instruments that
constitute bearable arms, even those that were not in
existence at the time of the founding.” Heller, 554 U.S.
at 582. In so holding, the Court rejected the “frivolous”
argument “that only those arms in existence in the
18th century are protected by the Second
Amendment.” Id. An unsurprising observation,
because “[w]e do not interpret constitutional rights
that way. Just as the First Amendment protects
modern forms of communications, e.g., Reno v. Am.
C.L. Union, 521 U.S. 844, 849 (1997), and the Fourth
Amendment applies to modern forms of search, e.g.,
Kyllo v. United States, 533 U.S. 27, 35-36 (2001), the
Second Amendment extends” to modern bearable
arms. Id.

App-27
Next, the Court held that “the most natural
reading of ‘keep Arms’ in the Second Amendment is to
‘have weapons.’” Id. As to “bear,” the Court held that
“[w]hen used with ‘arms’ . . . the term has a meaning
that refers to carrying for a particular purpose—
confrontation.” Id. at 584; see id. (“From our review of
founding-era sources, we conclude that this natural
meaning was also the meaning that ‘bear arms’ had in
the 18th century.”). “Putting all of these textual
elements together,” and drawing on historical context,
the Court held “that they guarantee the individual
right to possess and carry weapons in case of
confrontation.” Id. at 592, 595.
But the Court acknowledged that “[l]ike most
rights, the right secured by the Second Amendment is
not unlimited.” Id. at 626. For example, it did “not
read the Second Amendment to protect the right of
citizens to carry arms for any sort of confrontation, just
as we do not read the First Amendment to protect the
right of citizens to speak for any purpose.” Id. at 595
(emphasis in original). “From Blackstone through the
19th-century cases, commentators and courts
routinely explained that the right was not a right to
keep and carry any weapon whatsoever in any manner
whatsoever and for whatever purpose.” Id. at 626.
Rather, the Court acknowledged the propriety of
“longstanding prohibitions on the possession of
firearms by felons and the mentally ill, or laws
forbidding the carrying of firearms in sensitive places
such as schools and government buildings, or laws
imposing conditions and qualifications on the
commercial sale of arms.” Id. at 626-27. It also
“recognize[d] another important limitation”: that “the
sorts of weapons protected were those ‘in common use

App-28
at the time.’” Id. at 627 (quoting United States v.
Miller, 307 U.S. 174, 179 (1939)). The Court held that
this “limitation is fairly supported by the historical
tradition of prohibiting the carrying of ‘dangerous and
unusual weapons.’” Id. (citation omitted). As a result,
the Court held that “the Second Amendment does not
protect those weapons not typically possessed by lawabiding citizens for lawful purposes, such as shortbarreled shotguns. That accords with the historical
understanding of the scope of the right.” Id. at 625.
With this foundation, the Court turned to the
handgun ban at issue, which prohibited keeping
operable handguns in the home. Id. at 628. Rather
than cabining the standard of review to a balancing of
interests, the Court held that the law was
unconstitutional because it banned an entire class of
firearms commonly owned by citizens for the lawful
purpose of self-defense in the home. Id. at 628-29.
Although Heller focused its holding on the handgun
ban before it, the Court acknowledged that “whatever
else it leaves to future evaluation,” the Second
Amendment “surely elevates above all other interests
the right of law-abiding, responsible citizens to use
arms in defense of hearth and home.” Id. at 635. Heller
makes clear that judicial review of Second
Amendment challenges proceeds from text, history,
and tradition. This is because “[c]onstitutional rights
are enshrined with the scope they were understood to
have when the people adopted them, whether or not
future legislatures or (yes) even future judges think
that scope too broad.” Id. at 634-35. 3
3 Two years later, in McDonald v. City of Chicago, the Supreme
Court reiterated that the right to keep and bear arms is a

App-29
B. Applying
Heller
and
Interpretative Framework

This

Court’s

Since Heller, circuit and district courts have
varied in their approaches to evaluating the Second
Amendment. Most have now settled on some version
of the two-pronged approach we created in
Marzzarella. 4 As noted, we first “ask whether the
challenged law imposes a burden on conduct falling
within the scope of the Second Amendment’s
guarantee,” and, if it does, “we evaluate the law under
some form of means-end scrutiny.” Marzzarella, 614
F.3d at 89. I apply both steps, concluding that the New
Jersey Magazine Act does not satisfy the rigorous
scrutiny required for the fundamental rights of the
Second Amendment.

“fundamental” constitutional right “deeply rooted in this Nation’s
history and tradition.” 561 U.S. 742, 767-68, 778 (2010) (citation
omitted).
See David B. Kopel, Joseph G.S. Greenlee, The Federal
Circuits’ Second Amendment Doctrines, 61 St. Louis U. L. J. 193,
212 n.105 (2017) (citing N.Y. State Rifle & Pistol Ass’n, Inc. v.
Cuomo, 804 F.3d 242, 254 (2d Cir. 2015); United States v. Chester,
628 F.3d 673, 680 (4th Cir. 2010); NRA v. Bureau of Alcohol,
Tobacco, Firearms, and Explosives, 700 F.3d 185, 194 (5th Cir.
2012); United States v. Greeno, 679 F.3d 510, 518 (6th Cir. 2012);
United States v. Chovan, 735 F.3d 1127, 1136-37 (9th Cir. 2013);
United States v. Reese, 627 F.3d 792, 800-01 (10th Cir. 2010)
(“Heller thus suggests a two-pronged approach to Second
Amendment challenges to federal statutes.”) (internal quotations
omitted); GeorgiaCarry.Org, Inc. v. Georgia, 687 F.3d 1244, 1261
n.34 (11th Cir. 2012); Heller v. District of Columbia (Heller II),
670 F.3d 1244, 1252 (D.C. Cir. 2011)).)
4

App-30
1.

Step One: Determining Whether the
Challenged Law Imposes a Burden on
Conduct Falling Within the Second
Amendment

The “threshold inquiry, then, is whether [the Act]
regulates conduct that falls within the scope of the
Second Amendment.” Id. at 89. That analysis turns on
“whether the type of arm at issue is commonly owned,”
id. at 90-91, and “‘typically possessed by law-abiding
citizens for lawful purposes,’ Heller, 554 U.S. at 625.”
NJ Rifle I, 910 F.3d at 116. I conclude the magazines,
including those regulated by the New Jersey
Magazine Act, are protected arms under the Second
Amendment as best understood by history and
tradition.
i.

Defining the Regulated Arms

I begin by defining the kinds of arms controlled by
the New Jersey Magazine Act, which prohibits the
possession of magazines “capable of holding more than
10 rounds of ammunition to be fed continuously and
directly therefrom into a semi-automatic firearm.”
N.J. Stat. Ann. § 2C:39-1(y). 5 As ordinarily
At issue in this appeal are only magazines for semi-automatic
firearms. A “semi-automatic” firearm is “a weapon that fires only
one shot with each pull of the trigger, and which requires no
manual manipulation by the operator to place another round in
the chamber after each round is fired.” Staples v. United States,
511 U.S. 600, 602 n. 1 (1994). This is distinct from an “automatic”
firearm, which “fires repeatedly with a single pull of the trigger.
That is, once its trigger is depressed, the weapon will
automatically continue to fire until its trigger is released or the
ammunition is exhausted.” Id. Individual ownership of automatic
firearms is prohibited in New Jersey. See N.J. Stat. Ann. § 2C:395(a) (making unlawful the possession of “a machine gun or any
5

App-31
understood, a “magazine” is “a device that holds
cartridges or ammunition.” NJ Rifle I, 910 F.3d at 116
(citing Magazine, Merriam-Webster Dictionary,
https://www.merriam-webster.com/dictionary/magazine
(last visited Nov. 21, 2018)). What is more, this
contemporary definition tracks the ordinary
understanding of magazines since at least the 1800s. 6
Having defined what a magazine is, I next consider
whether a magazine is an arm within the Second
Amendment.
As the Supreme Court explained in Heller,
regulation requiring “that firearms in the home be
rendered and kept inoperable at all times” is
unconstitutional as it necessarily makes “it impossible
instrument or device adaptable for use as a machine gun”); N.J.
Stat. Ann. § 2C:39-1(i) (defining “machine gun” as “any firearm,
mechanism or instrument not requiring that the trigger be
pressed for each shot and having a reservoir, belt or other means
of storing and carrying ammunition which can be loaded into the
firearm, mechanism or instrument and fired therefrom”).
Compare Noah Webster, An American Dictionary of the
English Language 510 (1842) (defining “magazine” as “[a] store
of arms, ammunition or provisions; or the building in which such
store is deposited; New Illustrated Edition of Dr. Webster’s
Unabridged Dictionary of All the Words in the English Language
799 (1864) (defining “magazine” as “[t]o store up or accumulate
for future use”); Webster’s Condensed Dictionary 336 (1887)
(expanding the definition of “magazine” to include a “cartridge
chamber of a repeating rifle”); Webster’s Collegiate Dictionary
590 (3d ed. 1917) (defining “magazine” to include “[a] chamber in
a gun for holding cartridges to be fed automatically to the piece”);
Merriam-Webster Unabridged Dictionary (2020) (defining
“magazine” to include “a supply chamber: such as . . . a holder
that is incorporated in or attachable to a gun and that contains
cartridges to be fed into the gun chamber by the operation of the
piece”).
6

App-32
for citizens to use them for the core lawful purpose of
self-defense[.]” Heller, 554 U.S. at 630. From this
holding flows the logical conclusion that the Second
Amendment’s use of the term “arms” should be
ordinarily understood as “operable arms,” meaning
that the Second Amendment likewise guarantees
components required to make a protected firearm
work for self-defense. See Heller, 554 U.S. at 581.
That necessarily includes ammunition and, by
extension, magazines that hold ammunition, as
components of an operable firearm. See Miller, 307
U.S. at 180 (observing that in the context of the
colonial militia system, “[t]he possession of arms also
implied the possession of ammunition, and the
authorities paid quite as much attention to the latter
as to the former”) (quoting The American Colonies In
The 17th Century, Osgood, Vol. 1, ch. XIII). For these
reasons, the best reading of “arms” in the Second
Amendment includes magazines because “[a]
regulation eliminating a person’s ability to obtain or
use ammunition could thereby make it impossible to
use firearms for their core purpose.” Jackson v. City &
Cty. of San Francisco, 746 F.3d 953, 967 (9th Cir.
2014).
ii. History
and
Tradition:
The
Development of Magazine-Operated
Firearms and the Regulations That
Followed
That a magazine is an “arm” does not foreclose
governmental regulation because “the right secured
by the Second Amendment is not unlimited.” Heller,
554 U.S. at 626. So I next consider what, if any,
restrictions on magazines satisfy the history and

App-33
tradition of the Second Amendment. Answering that
question begins with a review of magazines and
magazine-operated firearms to understand: 1) the use
and ownership of these arms over time, 2) traditional
regulations, and 3) common use.
a.

The Development of Repeating
Firearms

“The desire for . . . repeating weapons is almost as
old as the history of firearms, and there were
numerous attempts to achieve this goal, beginning at
least as early as the opening years of the 16th
century.” Harold L. Peterson, Arms and Armor in
Colonial America, 1526-1783, at 215 (1956).
“Successful systems [of repeating arms] definitely had
developed by 1640, and within the next twenty years
they had spread throughout most of Western Europe
and even to Moscow.” Harold L. Peterson, The
Treasury of the Gun 229 (1962). “[T]he two principal
magazine repeaters of the era [were] the Kalthoff and
the Lorenzoni. These were the first guns of their kind
to achieve success . . . .” Id. The Kalthoff repeater
magazines held between six and thirty charges, and
“were undoubtedly the first magazine repeaters ever
to be adopted for military purposes.” Id. at 230. Also
developed during the 17th century, the Lorenzoni was
“a magazine-fed Italian repeating pistol that ‘used
gravity to self-reload’” and held about seven shots.
(Brief of Amici Curiae Professors of Second
Amendment Law, et al. in Support of Appellants and
Reversal (“Amici Professors”) at 12 (quoting Martin
Dougherty, Small Arms Visual Encyclopedia 34
(2011)).) See also Gerald Prenderghast, Repeating and
Multi-Fire Weapons: A History from the Zhuge

App-34
Crossbow Through the AK-47, at 97 (2018) (“The
Lorenzoni is also referred to as the Cookson rifle by
American collectors[.]”); David Westwood, Rifles: an
Illustrated History of Their Impact 71 (2005).
By the mid-17th century, Americans also began
developing repeaters. These repeaters “often
employed a revolving cylinder that was rotated by
hand.” (Amici Professors Br. at 15 (citing 2 Charles
Winthrop Sawyer, Firearms in American History 5
(1939) (six-shot flintlock); Charles Edward Chapel,
Guns of the Old West 202-03 (1961) (revolving
snaphance)).) For example, the Boston Gazette
advertised the American Cookson in 1756 and boasted
that it could “fire 9 Times distinctly, as quick, or as
slow as you please[.]” Peterson, The Treasury of the
Gun 232. In 1777, the Continental Congress ordered
Belton rifles able to discharge sixteen or twenty
rounds, but then later cancelled the order based on the
extraordinary expense. (See Amici Professors Br. at
18.) See also 7 Journals of the Continental Congress
1774-1789, at 324, 361 (1907) (describing the ordering
of Belton rifles and later the cancellation of the same
rifles over Belton’s request for “an extraordinary
allowance”); Peterson, The Treasury of the Gun 197.
All of which documents both the existence and public
knowledge of repeating weapons.
That public knowledge grew into private practice
by at least the early 19th century, when repeaters
began circulating for personal use. For instance, in
1821, the New York Evening Post described the
invention of a new repeater as “importan[t], both for
public and private use,” whose “number of charges
may be extended to fifteen or even twenty.” Newly

App-35
Invented Muskets, N.Y. Evening Post, Apr. 10, 1822,
in 59 Alexander Tilloch, The Philosophical Magazine
and Journal: Comprehending the Various Branches of
Science, the Liberal and Fine Arts, Geology,
Agriculture, Manufactures, and Commerce 467-68
(1822). Technical challenges, however, limited
widespread adoption and “none achieved real
popularity.” Peterson, The Treasury of the Gun 199.
Then, in the 1830s, Samuel Colt introduced the
revolver, which fired repeating rounds using a
rotating cylinder. Peterson, The Treasury of the Gun
202-03, 209-11 (“The real father of the revolver in its
modern sense, however, was Samuel Colt.”). See also
Ian V. Hogg, The Complete Illustrated Encyclopedia
of the World’s Firearms 40 (1978) (“[Colt] had
developed a percussion revolver and patented it in
England in 1835 and in America in 1836.”). By the
mid- to late 19th century, some revolvers could fire up
to twenty-one rounds. David B. Kopel, The History of
Firearm Magazines and Magazine Prohibitions, 78
Alb. L. Rev. 849, 856 (2015) (“Pin-fire revolvers with
capacities of up to twenty or twenty-one entered the
market in the 1850s[.]”). Around this time, repeating
rifles could fire between fifteen and sixty shots per
minute. Id. at 854. In addition, the lever-action
repeating rifle arrived by the 1850s, and could fire
thirty times per minute. Id. at 854-55. The arms
development during this time was “fueled by the Civil
War market.” Robert L. Wilson, Winchester: An
American Legend (1991).

App-36
b.

The
Development
Semiautomatic Firearms
Magazines

of
and

The first commercially successful rifles holding
more than ten rounds of ammunition appeared around
1866, with handguns holding more than ten rounds
following by 1935. See Kopel, The History of Firearm
Magazines and Magazine Prohibitions, 78 Alb. L. Rev.
at 849-50. And “[o]wing to their simplicity and ease of
use, by the mid-twentieth century the use of
detachable magazines loaded through the base of the
grip far exceeded all other loading methods.” Jeff
Kinard, Pistols: An Illustrated History of Their Impact
174 (2003). Given that easy operation, “semiautomatic
handguns grew from 28% of handgun production in
1973 to 80% in 1993.” (NJ Rifle I App. at 1272.) As
they became more readily available, semiautomatic
handguns gradually became more predominant.
“Pistol magazines manufactured before September
1994 commonly [held] five to 17 bullets, and
magazines produced for some models [held] as many
as 30 or more bullets.” (NJ Rifle I App. at 1060.) As for
rifles, the AR-15 semiautomatic rifle appeared in 1963
and sold with a standard twenty-round magazine.
Kopel, The History of Firearm Magazines and
Magazine Prohibitions, 78 Alb. L. Rev. at 859-60.
Since that time it has become “[t]he most popular rifle
in American history.” Id. at 859.
Possession of magazines exceeding ten rounds
grew rapidly “given the growing popularity of semiautomatic rifles and of large-capacity handguns.
Nearly 80 percent of ammunition magazines owned by
gun owners at the time of [a 1994] survey held fewer

App-37
than 10 rounds.” Edward W. Hill, How Many Guns are
in the United States: Americans Own between 262
Million and 310 Million Firearms, Urban Publications
3 (2013). By contrast, a market survey conducted in or
around 2013 “of owners of semi-automatic assault
rifles . . . showed that 63 percent of owners of these
guns had ammunition magazines that held more than
10 rounds.” Id.
Today, “there are at least 58.9 million civilianowned [magazines capable of holding more than ten
rounds] in the United States.” (NJ Rifle I Opening Br.
at 17 (emphasis omitted) (citing Gary Kleck, How
Many Large Capacity Magazines (LCMs) Are
Possessed By Americans?, SSRN (2018)); see also NJ
Rifle I App. at 275 (Tr. 372:14-16 (Kleck)) (percentage
of firearms with capacity to hold eleven or more
rounds); App. at 516-17 (Hill, How Many Guns are in
the United States: Americans Own between 262
Million and 310 Million Firearms, Urban
Publications).) “Magazines capable of holding more
than 10 rounds come standard on some of the most
popular handguns and rifles, including the most
popular rifle in America.” (NJ Rifle I, Opening Br. at
17-18) (emphasis omitted) (citing NJ Rifle I, App. at
696-704 (Gun Digest 2018); App. at 753 (National
Shooting Sports Foundation, Modern Sporting Rifle
Comprehensive Consumer Report 2013 (2013); App. at
500 (Dan Haar, America’s Rifle: Rise of the AR-15,
Hartford Courant (Mar. 9, 2013)); App. at 1239 (Kopel,
The History of Firearm Magazines and Magazine
Prohibitions, 78 Alb. L. Rev. 849).)
The State does not appear to have rebutted the
fact that magazines holding more than ten rounds are

App-38
commonly owned. 7 The commonality of magazines
holding more than ten rounds fits with findings by
other courts as well. See, e.g., Heller II, 670 F.3d at
1261 (“We think it clear enough in the record that
semi-automatic rifles and magazines holding more
than ten rounds are indeed in ‘common use,’ as the
plaintiffs contend” because “fully 18 percent of all
firearms owned by civilians in 1994 were equipped
with magazines holding more than ten rounds, and
approximately 4.7 million more such magazines were
imported into the United States between 1995 and
2000.”).
c.

Regulating Magazine Capacity

With the history of magazines and magazineequipped firearms as a guide, I next consider
traditional regulation. Heller, 554 U.S. at 627;
McDonald, 561 U.S. at 786 (reaffirming that Heller
“did not cast doubt on . . . longstanding regulatory
measures” and “does not imperil every law regulating
firearms”). That analysis first requires answering how
a prohibition can be “traditional” or “longstanding”
when it regulates arms of the modern era. That is
because
Heller
permits
“[s]tate
and
local
experimentation
with
reasonable
firearms
regulations.” McDonald, 561 U.S. at 785 (alteration in
original). Logically, then, “when legislatures seek to
address new weapons that have not traditionally
7 One of the State’s experts also conceded the readily available
nature of “large capacity magazines.” (NJ Rifle I App. at 195
(“Many of the mass shooters did not seek out large capacity
magazines, they just used what was easily available, and it would
have been hard or impossible for many of those mass shooters to
seek out [smaller-capacity] magazines.”).)

App-39
existed or to impose new gun regulations because of
conditions that have not traditionally existed, there
obviously will not be a history or tradition of banning
such weapons or imposing such regulations.” Heller II,
670 F.3d at 1275 (Kavanaugh, J. dissenting).
Instead, I believe “the proper interpretive
approach is to reason by analogy from history and
tradition.” Id. (citing Parker v. District of Columbia,
478 F.3d 370, 398 (D.C. Cir. 2007) (“[J]ust as the First
Amendment free speech clause covers modern
communication devices unknown to the founding
generation, e.g., radio and television, and the Fourth
Amendment protects telephonic conversation from a
‘search,’ the Second Amendment protects the
possession of the modern-day equivalents of the
colonial pistol.”), aff’d sub nom. Heller, 554 U.S. 570;
Tr. of Oral Arg. at 77, Heller, 554 U.S. 570 (Chief
Justice Roberts: “[Y]ou would define ‘reasonable’ in
light of the restrictions that existed at the time the
amendment was adopted. . . . [Y]ou can’t take it into
the marketplace was one restriction. So that would
be—we are talking about lineal descendants of the
arms but presumably there are lineal descendants of
the restrictions as well.”); cf. Kyllo v. United States,
533 U.S. 27, 31-35 (2001) (applying traditional Fourth
Amendment standards to novel thermal imaging
technology); California v. Ciraolo, 476 U.S. 207, 213
(1986) (allowing government to view property from
airplanes based on common-law principle that police
could look at property when passing by homes on
public thoroughfares)). So I turn to historical
regulation of both magazines and other restrictions on
ammunition capacity.

App-40
Limits on ammunition capacity emerged during
the Prohibition Era, when six states adopted
restrictions. 8 See also Kopel, The History of Firearm
Magazines and Magazine Prohibitions, 78 Alb. L. Rev.
at 864-68 (internal footnotes and citations omitted).
But all were repealed over time. Only the District of
Columbia maintained an uninterrupted ban on semiautomatic magazines holding more than twelve
rounds from 1932 until 1975, when it banned all
functional firearms in the home and handguns
altogether. (See Amici Professors Br. at 33 (citing Pub.
L. No. 72-275, §§ 1, 8, 47 Stat. 650, 650, 652).)
New Jersey first limited magazine capacity to
fifteen rounds in 1990. Kopel, The History of Firearm
Magazines and Magazine Prohibitions, 78 Alb. L. Rev.
at 867 (citing Act of May 30, 1990, ch. 32, §§ 2C:391(y), -3(j), 1990 N.J. Laws 217, 221, 235 (codified at
N.J. Stat. Ann. § 2C:39-1(y), -3(j) (West 2014)). Around
the same time, Hawaii enacted a limitation of ten
These states include California, Michigan, Minnesota, Ohio,
Rhode Island, and Virginia. (See Amici Professors Br. at 31-32
(citing 1927 R.I. Pub. Laws 256, §§ 1, 4 (banning sales of guns
able to fire more than twelve shots without reloading); 1927 Mich.
Pub. Acts ch. 372, § 3 (banning sales of firearms “which can be
fired more than sixteen times without reloading”); 1933 Minn.
Laws ch. 190 (banning “machine gun[s],” including semiautomatics “which have been changed, altered or modified to
increase the magazine capacity from the original design as
manufactured by the manufacturers”); 1933 Ohio Laws 189
(requiring a license for semi-automatics with capacity of more
than 18); 1933 Cal. Laws, ch. 450 (requiring license for machine
guns, which were defined to include semi-automatics with
detachable magazines of more than ten rounds); 1934 Va. Acts
ch. 96 s137, §§ 1(a), 4(d) (defining machine guns as anything able
to fire more than sixteen times without reloading).))
8

App-41
rounds. (See NJ Rifle I App. at 9 (citing Haw. Rev.
Stat. Ann. § 134-(8)).) A few years later, Congress
passed the Violent Crime Control and Law
Enforcement Act of 1994 prohibiting the possession or
transfer of magazines holding more than ten rounds.
See Pub. L. 103-322, § 110103 (Sep. 13, 1994). But that
law expired in 2004 and has never been reauthorized.
Since then, states including California, Colorado,
Connecticut, Hawaii, Maryland, Massachusetts, and
New Jersey have enacted or maintained regulations
limiting magazine capacity. See Kopel, The History of
Firearm Magazines and Magazine Prohibitions, 78
Alb. L. Rev. at 867-68.
This history reveals a long gap between the
development and commercial distribution of
magazines, on the one hand, and limiting regulations,
on the other hand. The State reasons, “It is logical that
state limits on such weapons do not predate their
popularity.” (NJ Rifle I Response Br. at 22.) That is
doubtful, as New Jersey has actively regulated
firearms lacking any popular use. See, e.g., N.J. Stat.
Ann. §§ 2C:39-3(m) (prohibiting “[c]overt or
undetectable firearms,” such as 3D printed firearms);
Guidelines Regarding the “Substantially Identical”
Provision in the State’s Assault Firearms Laws, N.J.
Att’y Gen. Op. (August 1996) (prohibiting “bayonet
mounts” on rifles). At any rate, the State concedes that
magazine-equipped rifles first achieved “mass-market
success” in the 1860s and magazine-equipped
handguns achieved similar success in the 1930s. (NJ
Rifle I Response Br. at 22.) Yet regulations did not
grow until the 1990s and 2000s, and even today, only
a handful of states limit magazine capacity. Given
that the “success” of magazine-equipped firearms

App-42
predated these first regulations by at least fifty years,
I do not see evidence of the longstanding tradition
required under Heller to remove magazines from the
protection of the Second Amendment. Cf. Drake v.
Filko, 724 F.3d 426, 432 (3d Cir. 2013) (holding New
Jersey’s permit requirement was longstanding
because its origins dated to 1924). Nor is it clear that
there is a longstanding tradition of regulating
magazines as “dangerous and unusual.” For one thing,
more than eight states would have rushed to regulate
magazine capacity following the end of the federal ban
in 2004.
Some will argue there must be an outer boundary
to this analysis that, when crossed, renders a
magazine dangerous and unusual. If so, it does not
appear in the history and traditions of our Nation. But
in any event that question is not before us. So while
“[t]here may well be some capacity above which
magazines are not in common use . . . the record is
devoid of evidence as to what that capacity is.” Heller
II, 670 F.3d at 1261 (Kavanaugh, J., dissenting). As a
result, and limited to this record, I would hold that
magazines are arms protected by the Second
Amendment and an act limiting magazine capacity to
ten rounds burdens the Appellants’ Second
Amendment rights.
2.

Step Two: Evaluating the Challenged
Law Under Means-End Scrutiny

Although not required by Heller, our precedent
uses some form of means-end scrutiny. See
Marzzarella, 614 F.3d at 96-97. Marzzarella does not
insist on a uniform standard in all cases. Rather, we
observed that if, like the First Amendment, “the

App-43
Second Amendment can trigger more than one
particular standard of scrutiny,” then intermediate
scrutiny should be applied when the challenged law
does not burden the “fundamental interest protected
by the [Second Amendment]—the defense of hearth
and home.” Id. at 97. By extension, strict scrutiny
should be applied when a challenged law does burden
such a fundamental interest. I conclude that the New
Jersey Magazine Act burdens the right to maintain
operable protected arms without regard to location or
circumstances, warranting strict scrutiny. But
regardless of the level of scrutiny applied, the state
does not satisfy its burden on this record.
i.

Strict Scrutiny

As the Supreme Court has not applied the tiers of
scrutiny to gun regulations, see Heller, 554 U.S. at
634, “we look to other constitutional areas for
guidance in evaluating Second Amendment
challenges.” Marzzarella, 614 F.3d at 89 n.4. Using
this rationale, we concluded “the First Amendment is
the natural choice. Heller itself repeatedly invokes the
First Amendment in establishing principles governing
the Second Amendment.” Id.
Cases considering restrictions on speech and
expression hold the appropriate level of scrutiny is a
fact-specific inquiry tied to the type of regulation at
issue. See, e.g., Ward v. Rock Against Racism, 491 U.S.
781, 791 (1989) (applying intermediate scrutiny to
content-neutral time, place, and manner restrictions
in a public forum); Zauderer v. Off. of Disciplinary
Couns. of Sup. Ct. of Oh., 471 U.S. 626, 651 (1985)
(applying rational basis review to disclosure
requirements for commercial speech). Strict scrutiny

App-44
applies to content-based restrictions that infringe on
the First Amendment’s core guarantee. See, e.g.,
Citizens United v. FEC, 558 U.S. 310, 340 (2010)
(applying strict scrutiny in the context of infringement
on “political speech”); United States v. Playboy Ent.
Grp., 529 U.S. 803, 813 (2000) (applying strict scrutiny
in context of content-based speech restriction). So
following the direction of Marzzarella, strict scrutiny
applies to restrictions burdening rights at the core of
the Second Amendment. See NJ Rifle I, 910 F.3d at
134 (Bibas, J., dissenting).
One of the Second Amendment’s core purposes is
to protect the “use [of] arms in defense of hearth and
home.” Heller, 554 U.S. at 591, 636. For that reason,
prohibiting operable firearms in the home violates the
Second Amendment. Id. The same result applies here,
because the New Jersey Magazine Act prohibits the
possession of magazines exceeding ten rounds at all
times, including inside the home for defense. The
State argues that the Act “does not ban magazines; it
imposes a restriction on the capacity of a single
magazine that can be inserted into a firearm” and does
not restrict the number of magazines an individual
may possess. (NJ Rifle I Response Br. at 34-35.) That
is only partially correct, as it leaves owners of a
“noncompliant” magazine without an operating
firearm. But even assuming the Act is not a categorical
ban on all magazines, it still burdens a core Second
Amendment right without exception or limitation,
including the defense of “hearth and home”
specifically noted in Heller. Following our prior
analogy to decisions applying the First Amendment
jurisprudence, this “ban on a class of arms is not an
‘incidental’ regulation. It is equivalent to a ban on a

App-45
category of speech.” See Heller II, 670 F.3d at 1285
(Kavanaugh, J., dissenting); see also NJ Rifle I, 910
F.3d at 127 (Bibas, J., dissenting) (“I would apply
strict scrutiny to any law that impairs the core Second
Amendment right to defend one’s home.”).
New Jersey has not offered record evidence
meeting that test. “Strict scrutiny asks whether the
law is narrowly tailored to serve a compelling
government interest.” Marzzarella, 614 F.3d at 96
n.14. When “a less restrictive alternative would serve
the Government’s purpose, the legislature must use
that alternative.” Playboy Ent. Grp., 529 U.S. at 813.
As Judge Bibas observed, “[h]ere, the government has
offered no concrete evidence that magazine
restrictions have saved or will save potential victims.
Nor has it made any showing of tailoring.” NJ Rifle I,
910 F.3d at 134 (Bibas, J., dissenting). New Jersey
once imposed a fifteen-round limit on magazine
capacity. Now it claims ten is essential for public
safety. The Second Amendment demands more than
back-of-the-envelope math. At a minimum, it asks the
government to explain, to offer but one example, why
eleven rounds is too many while nine remains fine.
Unless competent evidence answers those questions,
New Jersey cannot show why a ten-round limit is the
least restrictive means of achieving public safety. For
this reason, I would hold that the Act fails to satisfy
strict scrutiny.
ii. Intermediate Scrutiny
For largely the same reasons, the New Jersey
Magazine Act does not satisfy intermediate scrutiny
where “the government’s asserted interest must be
more than just legitimate but need not be compelling.

App-46
It must be ‘significant, substantial, or important.’”
Drake, 724 F.3d at 436 (quoting Marzzarella, 614 F.3d
at 98). “‘[T]he fit’ between the asserted interest and
the challenged law need not be ‘perfect,’ but it must be
‘reasonable’ and ‘may not burden more [conduct] than
is reasonably necessary.’” Id. (quoting Marzzarella,
614 F.3d at 98).
Here, the record does not show the State
reasonably tailored the regulation to serve its interest
in public safety without burdening more conduct than
reasonably necessary. First, the State rests on the
ambiguous argument that “when LCM-equipped
firearms are used, more bullets are fired, more victims
are shot, and more people are killed than in other gun
attacks.” (NJ Rifle I Response Br. at 28.) Perhaps, but
“this still begs the question of whether a 10-round
limit on magazine capacity will affect the outcomes of
enough gun attacks to measurably reduce gun injuries
and death.” (NJ Rifle I App. at 1280 (Christopher S.
Koper, An Updated Assessment of the Federal Assault
Weapons Ban 89 (2004)).) In fact, “studies suggest
that state-level [assault-weapon] bans have not
reduced crime[.]” (NJ Rifle I App. at 1272, Koper,
supra at 81 n.95.)
Second, as Judge Bibas observed, “since 1990 New
Jersey has banned magazines that hold more than
fifteen bullets. The ban affects everyone. The
challengers do not contest that ban. And there is no
evidence of its efficacy, one way or the other.” NJ Rifle
I, 910 F.3d at 132 (Bibas, J., dissenting). Third,
statistics in the record report that out of sixty-one

App-47
“mass shootings,” 9 eleven used fifteen-round
magazines, two used fourteen-round magazines, and
two used thirteen-round magazines. That alone casts
doubt on the ten-round tailoring. As does the
declaration of the Commissioner of the Baltimore
Police Department’s stating that the use of a ten round
magazine offers more opportunities to intervene in a
shooting incident than if “30- or 50-round magazines,
or 100-round drums” are used. (NJ Rifle I App. at
865.) (emphasis added). So too, of course, would use of
a magazine holding eleven or twenty-nine rounds.
That is why narrow tailoring requires more than a
ninety-round spread in logic. 10
The term “mass shootings” does not appear to have an
objective definition. See, e.g., NJ Rifle I App. at 1042, Louis
Klarevas, Rampage Nation: Securing America From Mass
Shootings (2016) (defining mass shootings as “attacks that
resulted in six or more people—not including the perpetrator(s)—
dying as a result of gunshot wounds”) (emphasis in original); App.
at 1067, Cong. Rsch. Serv., Mass Murder with Firearms:
Incidents and Victims, 1999-2013 (2015) (defining “mass
shooting” as “a multiple homicide incident in which four or more
victims are murdered with firearms—not including the
offender(s)—within one event, and in one or more locations in
close geographical proximity); App. at 1118, Violence Pol’y Ctr.,
High-Capacity Ammunition Magazines are the Common Thread
Running Through Most Mass Shootings in the United States
(defining “mass shooting” as “3 or more fatalities”).
9

10 Diving deeper, the record evidence casts doubt on the State’s
intervention theory. For example, “it takes two to four seconds
for shooters to eject an expended magazine from a semiautomatic gun, insert a loaded magazine, and make the gun
ready to fire.” (NJ Rifle I App. at 1197, Declaration of Gary Kleck
in Support of Plaintiffs’ Motion for a Preliminary Injunction at
12). Investigations from criminal attacks show “that the killers
typically do not fire at high rates, instead firing deliberately, at

App-48
All of this leads to one conclusion: “the
Government bears the burden of proof on the
appropriateness of the means it employs to further its
interest[,]” but “the Government falls well short of
satisfying its burden—even under intermediate
scrutiny.” Binderup v. Att’y Gen., 836 F.3d 336, 353 (3d
Cir. 2016) (en banc). New Jersey must “present some
meaningful evidence, not mere assertions, to justify its
predictive [and here conclusory] judgments[,]” and it
failed to meet that burden here. Id. at 354 (alteration
in original) (citing Heller II, 670 F.3d at 1259); see also
N.Y. State Rifle & Pistol Ass’n, Inc, 804 F.3d 242, 264
(2d Cir. 2015) (“[O]n intermediate scrutiny review, the
state cannot ‘get away with shoddy data or reasoning.’
To survive intermediate scrutiny, the defendants
must show ‘reasonable inferences based on substantial
evidence’ that the statutes are substantially related to
the governmental interest.”) (emphasis in original)
(internal citations omitted).

rates far below the fastest rates that can be maintained with
semiautomatic weapons.” (NJ Rifle I App. at 1203, Kleck Decl. at
18.) In fact, “[t]he average interval between shots in mass
shootings . . . is nearly always more than two to four seconds,
which means that magazine changes do not even slow the
shooter’s rate of fire.” (NJ Rifle I App. at 1203, Kleck Decl. at 18.)
Shooters can “avoid the necessity of reloading by carrying several
firearms, carry[ing] several magazines which can be exchanged
quickly, or simply tak[ing] the time to reload.” (NJ Rifle I App. at
748, Carlisle E. Moody, Large Capacity Magazines and Homicide,
160 C. Wm. & Mary Working Paper 6, 6 (2015).) Crediting all of
this testimony seems to undermine the State’s theory, and
suggests that reducing magazine does not meaningfully assist
intervention.

App-49
For these reasons, I would hold that the Act
cannot satisfy intermediate, or any applicable level of,
scrutiny.
III. Reconsidering Marzzarella and
Tiered Scrutiny
Decided two years after Heller, our decision in
Marzzarella ushered in a two-part framework for
analyzing the Second Amendment. That test has
proved popular, and is now used by a majority of
circuit courts. But our approach has come into
question, and I have serious doubts that it can be
squared with Heller. See, e.g., Rogers v. Grewal, 140 S.
Ct. 1865, 1867 (2020) (mem.) (Thomas, J., dissenting)
(criticizing the two-part framework as “rais[ing]
numerous concerns” that “yield[] analyses that are
entirely inconsistent with Heller”); N.Y. State Rifle &
Pistol Ass’n, Inc. v. City of New York, 140 S. Ct. 1525,
1540 (2020) (Alito, J., dissenting) (explaining that
Heller is based “on the scope of the right to keep and
bear arms as it was understood at the time of the
adoption of the Second Amendment”); id. at 1527
(Kavanaugh, J., concurring) (“I share Justice Alito’s
concern that some federal and state courts may not be
properly applying Heller and McDonald.”). I reach
that conclusion on two grounds.
First, the widespread popularity of the two-step
balancing test does not address the clear repudiation
of interest-balancing by the Supreme Court in Heller
and McDonald. When twice presented with the
opportunity to import tiered scrutiny from decisions
considering the First Amendment, the Supreme Court
instead focused on text, history, and tradition. See
Heller, 554 U.S. at 634 (declining to apply a specified

App-50
level of scrutiny and observing that “[w]e know of no
other enumerated constitutional right whose core
protection has been subjected to a freestanding
‘interest-balancing’ approach.”); McDonald, 561 U.S.
at 785 (“[W]e expressly rejected the argument that the
scope of the Second Amendment right should be
determined by judicial interest balancing”); Binderup,
836 F.3d at 378 (Hardiman, J., concurring) (“Applying
some form of means-end scrutiny in an as-applied
challenge against an absolute ban—after it has
already been established that the individual has a
right to keep and bear arms—eviscerates that right
via judicial interest balancing in direct contravention
of Heller.”).
Second, this historical approach is significant
because, as Heller explains, “it has always been widely
understood” that “[t]he very text of the Second
Amendment implicitly recognizes the pre-existence of
the right and declares only that it ‘shall not be
infringed.’” Heller, 554 U.S. at 592 (quoting United
States v. Cruikshank, 92 U.S. 542, 553 (1876)) (“This
is not a right granted by the Constitution. Neither is
it in any manner dependent upon that instrument for
its existence.”); see also Robertson v. Baldwin, 165
U.S. 275, 281 (1897) (“The law is perfectly well settled
that
the
first
10
amendments
to
the
constitution . . . were not intended to lay down any
novel principles of government, but simply to embody
certain guaranties and immunities which we had
inherited from our English ancestors[.]”). And rather
than turning to the reservoir of decisions, doctrines,
and debates flowing from generations of First
Amendment cases and tiered tolerance of
governmental speech restraints, Heller “pores over

App-51
early sources to show that while preventing Congress
from eliminating state militias was the ‘purpose that
prompted the [Amendment’s] codification,’” that
purpose did not limit the right’s substance. Wrenn v.
District of Columbia, 864 F.3d 650, 658 (D.C. Cir.
2017) (quoting Heller, 554 U.S. at 600). At its core, the
Second Amendment recognizes the widely accepted
principle at the Founding that the right to self-defense
derived directly from the natural right to life, giving
the people predictable protections for securing the
“Blessings of Liberty.” U.S. Const. pmbl.; see also
Declaration of Independence para. 2. 11 So “[t]he very
enumeration of the right takes out of the hands of
government—even the Third Branch of Government—
the power to decide on a case-by-case basis whether
the right is really worth insisting upon.” Heller, 554
U.S. at 634 (emphasis in original).
For those reasons, I would follow what I believe to
be the direction of the Supreme Court and focus our
Several Founding Era documents reflect this sentiment.
Hamilton wrote in Federalist Paper 28 that the “original right of
self-defense” is “paramount to all positive forms of government.”
The Federalist No. 28, at 146 (Alexander Hamilton) (Colonial
Press, ed., 1901). Similarly, Samuel Adams listed selfpreservation under “Natural Rights of the Colonists as Men”:
“First, a right to life; Secondly, to liberty; Thirdly, to property;
together with the right to support and defend them in the best
manner they can.” Samuel Adams, The Rights of the Colonists:
The Report of the Committee of Correspondence to the Boston
Town Meeting Nov. 20, 1772 reprinted in Old South Leaflets no.
173 (Directors of the Old South Work 1906). Those sentiments, in
turn, echo the classical understanding that “[s]elf-defence,
therefore, as it is justly called the primary law of nature, so it is
not, neither can it be in fact, taken away by the law of society.” 3
William Blackstone, Commentaries *4.
11

App-52
approach “based on text, history, and tradition” rather
“than under an interest-balancing test.” Heller II, 670
F.3d at 1275 (Kavanaugh, J. dissenting).
IV. Conclusion
The law-of-the-case doctrine can serve important,
practical purposes in litigation. But it remains a
prudential rule that “merely expresses the practice of
courts generally to refuse to reopen what has been
decided, not a limit to their power.” Messenger v.
Anderson, 225 U.S. 436, 444 (1912). I would decline to
invoke that discretion here, as I conclude that
determining whether magazines enjoy the guarantees
of the Second Amendment, and whether that
protection varies based on their capacity, would “not
reopen issues decided in earlier stages of the same
litigation.” Agostini v. Felton, 521 U.S. 203, 236 (1997).
Both issues affect the rights of individuals throughout
our Circuit. Likewise, resolving those questions will
allow state governments to design public safety
solutions that respect the freedoms guarded by the
Second Amendment. So I would reverse the order of
the District Court, hold that magazines are arms
under the Constitution, and remand this matter to
permit the State to provide evidence that the Act is
narrowly tailored to advance the State’s interests. For
these reasons, I respectfully dissent.

App-53
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 19-3142
________________
ASSOCIATION OF NEW JERSEY RIFLE AND PISTOL
CLUBS INC.; BLAKE ELLMAN; ALEXANDER DEMBOWSKI,
v.

Appellants,

ATTORNEY GENERAL NEW JERSEY; SUPERINTENDENT
NEW JERSEY STATE POLICE; THOMAS WILLIVER, in
his official capacity as Chief of Police of the Chester
Police Department; JAMES B. O’CONNOR, in his official
capacity as Chief of Police of the Lyndhurst
Police Department,
Appellees.
________________
Filed: Nov. 25, 2020
________________
Before: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPRO, BIBAS, PORTER, MATEY, PHIPPS,
and ROTH, * Circuit Judges.

*

Judge Roth’s vote is limited to panel rehearing only.

App-54
________________
ORDER
________________
The petition for rehearing filed by appellants in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
DENIED. Judges Jordan, Hardiman, Bibas, Porter,
Matey and Phipps would have granted the petition.
BY THE COURT
s/Kent A. Jordan
Circuit Judge

App-55
Appendix C
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF NEW JERSEY
________________
No. 3:18-cv-10507
________________
ASSOCIATION OF NEW JERSEY RIFLE AND PISTOL
CLUBS INC., et al.,
v.

Plaintiffs,

GURBIR GREWAL, et al.,
Defendants.
________________
Filed: July 29, 2019
________________
MEMORANDUM & ORDER
________________
SHERIDAN, U.S.D.J.
This matter comes before the Court on several
motions: three motions for summary judgment filed by
Defendants, (ECF Nos. 84, 85, 86); a cross-motion for
summary judgment filed by Plaintiffs, (ECF No. 92);
and a motion to stay proceedings in this action, filed
by Plaintiffs, pending the outcome of a case, which is
currently pending before the Supreme Court, (ECF
No. 91). This action concerns the constitutionality of a
New Jersey statute regulating the capacity of firearm
magazines. More specifically, on June 13, 2018, New
Jersey enacted a law which, with certain exceptions,
makes it unlawful for any person in the state to

App-56
possess any firearm magazines that are capable of
holding more than ten rounds of ammunition. See L.
2018, c. 39 § 1.
I.
On the same day that New Jersey enacted that
law, Plaintiffs filed the present lawsuit, seeking its
invalidation and sought a preliminary injunction. The
Court held a three-day hearing on August 13, 16, and
17, 2018, during which it heard the testimony of
various expert witnesses. Closing arguments were
made on September 6, 2018. On September 28, 2018,
the Court entered a Memorandum and Order wherein
it denied Plaintiffs’ motion to enjoin enforcement of
the statute.
On December 5, 2018, over a dissent, the Third
Circuit affirmed. See Ass’n of N.J. Rifle and Pistol
Clubs, Inc. v. Attorney General New Jersey, 910 F.3d
106 (3d Cir. 2018). On January 9, 2019, the Third
Circuit denied Plaintiffs’ petition for rehearing en
bane. Ass’n of N.J. Rifle and Pistol Clubs, Inc. v.
Attorney General New Jersey, No. 18-3170 (3d Cir.
Jan. 9, 2019).
II.
As this case was proceeding, another, similar case
was proceeding in a neighboring state. Specifically, a
group of Plaintiffs brought an action in the Southern
District of New York seeking:
to partially invalidate 38 RCNY § 5-23, which
limits transport of a handgun through the
following provision: “To maintain proficiency
in the use of the handgun, the licensee may
transport her/his handgun(s) directly to and

App-57
from
an
unauthorized
small
arms
range/shooting club, unloaded, in a locked
container, the ammunition to be carried
separately.”
N.Y. State Rifle & Pistol Ass’n (NYSRPA) v. City of
New York, 86 F. Supp. 3d 249, 253 (S.D.N.Y. 2015). On
February 5, 2015, the court entered summary
judgment in favor of the City of New York.
On February 23, 2018, the Second Circuit
affirmed the district court opinion. NYSRPA v. City of
New York, 883 F.3d 45 (2d Cir. 2018). On January 22,
2019, the Supreme Court granted the plaintiffs’
petition for a writ of certiorari. NYSRPA v. City of New
York, 139 S. Ct. 939 (2019).
LEGAL ANALYSIS
Stay
“[T]he power to stay proceedings is incidental to
the power inherent in every court to control the
disposition of the causes on its docket with economy of
time and effort for itself, for counsel, and for litigants.”
Landis v. N. American Co., 299 U.S. 248, 254 (1936).
A court considering a motion to stay proceedings
“must weigh competing interests and maintain an
even balance.” Id. at 254-55. The party seeking a stay
“must make out a clear case of hardship or inequity in
being required to go forward, if there is even a fair
possibility that the stay . . . will work damage to
someone else.” Id. at 255.
A multifactor balancing test applies to the
determination:
(1) whether a stay would unduly prejudice or
present a clear tactical disadvantage to the

App-58
non-moving party, (2) whether denial of the
stay would create a clear case of hardship or
inequity for the moving party; (3) whether a
stay would simplify the issues and the trial of
the case, and (4) whether discovery is
complete and/or a trial date has been set.
Akishev v. Kapustin, 23 F. Supp. 3d 440, 446 (D.N.J.
2014) (citation omitted). Additional considerations
also “arise depending upon the circumstances for
which the movant requests a stay.” Id. “Where a stay
is sought pending resolution of purportedly related
litigation, . . . courts consider whether resolution of
the related litigation would substantially impact or
otherwise render moot the present action.” Id.
Applying these factors, the Court finds as follows.
First, Defendants—the nonmoving parties will
suffer prejudice by the issuance of a stay. Although the
statute has already gone into effect, a stay would
create uncertainty with regard to its constitutionality.
The State would be prejudiced by enforcing a law the
constitutionality of which remains in doubt.
Therefore, the first factor weighs against issuing a
stay.
Second, is it unclear how denying a stay would
create a clear hardship or inequity for the moving
party. If the Court were to rule against Plaintiffs, they
would suffer no prejudice, as they have already had to
comply with the requirements of the new law by
divesting themselves of magazines that hold over ten
rounds of ammunition. If the Court were to rule in
favor of Plaintiffs, they would clearly suffer no
prejudice. Therefore, the second factor weighs against
issuing a stay.

App-59
Third, the legal issue before the Supreme Court is
distinct from that before this Court. The NYSRPA
case involves a restriction on the right to carry a
firearm in public. This case involves the possession of
large capacity magazines. Therefore, the Supreme
Court’s decision in NYSRPA is unlikely to simplify the
legal issues presented in this case. The third factor
weighs against issuing a stay. 1
Fourth, the Court has already heard testimony in
a motion for a preliminary injunction, and the Third
Circuit has resolved an appeal of that ruling. Also,
discovery appears to be complete, as both parties have
moved for summary judgment. Therefore, the fourth
factor also weighs against issuing a stay.
In determining whether to issue a stay, the Court
finds that all four factors weigh against doing so.
Therefore, a stay is not warranted pending the
outcome of the Supreme Court’s decision in NYSRPA.
Summary Judgment
Summary judgment is appropriate under Fed. R.
Civ. P. 56(c) when the moving party demonstrates that
there is no genuine issue of material fact and the
evidence establishes the moving party’s entitlement to
judgment as a matter of law. Celotex Corp. v. Catrett,
477 U.S. 317, 322-23 (1986). A factual dispute is
genuine if a reasonable jury could return a verdict for
the non-movant, and it is material if, under the
substantive law, it would affect the outcome of the
1 This analysis also shows that the resolution of NYSRPA by
the Supreme Court would neither render moot nor substantially
impact he present action; another consideration noted in Ashkev,
23 F. Supp. 3d at 446.

App-60
suit. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). In considering a motion for summary
judgment, a district court may not make credibility
determinations or engage in any weighing of the
evidence; instead, the non-moving party’s evidence “is
to be believed and all justifiable inferences are to be
drawn in his favor.” Marino v. Indus. Crating Co., 358
F.3d 241, 247 (3d Cir. 2004) (quoting Anderson, 477
U.S. at 255).
Once the moving party has satisfied its initial
burden, the party opposing the motion must establish
that a genuine issue as to a material fact exists. Jersey
Cent. Power & Light Co. v. Lacey Twp., 772 F.2d 1103,
1109 (3d Cir. 1985). The party opposing the motion for
summary judgment cannot rest on mere allegations
and instead must present actual evidence that creates
a genuine issue as to a material fact for trial.
Anderson, 477 U.S. at 248; Siegel Transfer, Inc. v.
Carrier Express, Inc., 54 F.3d 1125, 1130-31 (3d Cir.
1995). “[U]nsupported allegations . . . and pleadings
are insufficient to repel summary judgment.” Schoch
v. First Fidelity Bancorp., 912 F.2d 654,657 (3d Cir.
1990); see also Fed. R. Civ. P. 56(e) (requiring
nonmoving party to set forth specific facts showing
that there is a genuine issue for trial”). Moreover, only
disputes over facts that might affect the outcome of the
lawsuit under governing law will preclude the entry of
summary judgment. Anderson, 477 U.S. at 247-48. If
a court determines, after drawing all inferences in
favor of [the non-moving party] and making all
credibility determinations in his favor “that no
reasonable jury could find for him, summary judgment
is appropriate.” Alevras v. Tacopina, 226 Fed. App’x
222,227 (3d Cir. 2007).

App-61
The Court recognizes that a different standard
applies here—at the summary judgment stage—than
applied on the petition for preliminary injunction.
However, the Third Circuit has issued a precedential
decision that resolves all legal issues in this case and
there remains no genuine disputes of material fact.
More specifically, the Third Circuit explicitly held that
the New Jersey law “does not” violate “the Second
Amendment, the Fifth Amendment’s Takings Clause,
and the Fourteenth Amendment’s Equal Protection
Clause.” Therefore, because it is binding Third Circuit
precedent that the New Jersey law is constitutional,
the Court shall grant Defendants’ motions for
summary judgment and deny Plaintiffs’ cross-motion.
ORDER
For the reasons stated herein and for good cause
shown,
IT IS on this [handwritten: 24] day of July, 2019
ORDERED that the motion for summary
judgment filed by Defendants Patrick Callahan and
Gurbir Grewal (ECF No. 84) is granted; and it is
further
ORDERED that the motion for summary
judgment filed by Defendant James O’Connor (ECF
No. 85) is granted; and it is further
ORDERED that the motion for summary
judgment filed by Defendant Thomas Williver (ECF
No. 86) is granted;
ORDERED that Plaintiffs’ cross-motion to stay
(ECF No. 91) is denied; and it is further

App-62
ORDERED that Plaintiffs’ cross-motion for
summary judgment (ECF No. 92) is denied.
[handwritten: signature]
PETER G. SHERIDAN,
U.S.D.J.

App-63
Appendix D
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 18-3170
________________
ASSOCIATION OF NEW JERSEY RIFLE AND PISTOL
CLUBS INC.; BLAKE ELLMAN; ALEXANDER DEMBOWSKI,
v.

Appellants,

ATTORNEY GENERAL NEW JERSEY; SUPERINTENDENT
NEW JERSEY STATE POLICE; THOMAS WILLIVER, in
his official capacity as Chief of Police of the Chester
Police Department; JAMES B. O’CONNOR, in his official
capacity as Chief of Police of the Lyndhurst
Police Department,
Appellees.
________________
Argued: Nov. 20, 2018 *
Filed: Dec. 6, 2018
________________
Before: GREENAWAY, JR., SHWARTZ, and BIBAS,
Circuit Judges
________________
AMENDED OPINION
________________
* Because of recording issues on the original date for argument,
the panel convened a second argument session to allow the
parties to re-present their oral arguments.

App-64
SHWARTZ, Circuit Judge.
Today we address whether one of New Jersey’s
responses to the rise in active and mass shooting
incidents in the United States—a law that limits the
amount of ammunition that may be held in a single
firearm magazine to no more than ten rounds—
violates the Second Amendment, the Fifth
Amendment’s Takings Clause, and the Fourteenth
Amendment’s Equal Protection Clause. We conclude
that it does not. New Jersey’s law reasonably fits the
State’s interest in public safety and does not
unconstitutionally burden the Second Amendment’s
right to self-defense in the home. The law also does not
violate the Fifth Amendment’s Takings Clause
because it does not require gun owners to surrender
their magazines but instead allows them to retain
modified magazines or register firearms that have
magazines that cannot be modified. Finally, because
retired law enforcement officers have training and
experience that makes them different from ordinary
citizens, the law’s exemption that permits them to
possess magazines that can hold more than ten rounds
does not violate the Fourteenth Amendment’s Equal
Protection Clause. We will therefore affirm the
District Court’s order denying Plaintiffs’ motion to
preliminarily enjoin enforcement of the law.
I
A
Active shooting and mass shooting incidents have
dramatically increased during recent years. Statistics
from 2006 to 2015 reveal a 160% increase in mass
shootings over the prior decade. App. 1042.
Department of Justice and Federal Bureau of

App-65
Investigation (“FBI”) studies of active shooter
incidents (where an individual is actively engaged in
killing or attempting to kill people with a firearm in a
confined, populated area) reveal an increase from an
average of 6.4 incidents in 2000 to 16.4 incidents in
2013. App. 950, 953. These numbers have continued to
climb, and in 2017, there were thirty incidents. App.
1149, 1133. In addition to becoming more frequent,
these shootings have also become more lethal. App.
906-07 (citing 2018 article noting “it’s the first time [in
American history] we have ever experienced four gun
massacres resulting in double-digit fatalities within a
12-month period”).
In response to this trend, a number of states have
acted. In June 2018, New Jersey became the ninth
state to pass a new law restricting magazine capacity. 1
New Jersey has made it illegal to possess magazine
capable of holding more than ten rounds of
ammunition (“LCM”). 2 N.J. Stat. Ann. 2C:39-1(y),
2C:39-3(j) (“the Act”).
As of spring 2018, eight states and the District of Columbia
had adopted bans on large capacity magazines. Cal. Penal Code
§ 16740 (ten rounds); Conn. Gen. Stat. § 53-202w (ten rounds);
D.C. Code § 7-2506.01(b) (ten rounds); Haw. Rev. Stat. § 134-8(c)
(ten rounds); Md. Code Ann., Crim. Law § 4-305(b) (ten rounds);
Mass. Gen. Laws ch. 140 §§ 121, 131M (ten rounds); N.Y. Penal
Law § 265.00(23) (ten rounds); 13 Vt. Stat. Ann. 4021(e)(1)(A), (B)
(ten rounds for a “long gun” and fifteen rounds for a “hand gun”);
Colo. Rev. Stat. § 18-12-301(2)(a)(I) (fifteen rounds).
1

2 Under the New Jersey statute, a “[l]arge capacity ammunition
magazine” is defined as “a box, drum, tube or other container
which is capable of holding more than 10 rounds of ammunition
to be fed continuously and directly therefrom into a semiautomatic firearm. The term shall not include an attached
tubular device which is capable of holding only .22 caliber rimfire

App-66
Active law enforcement officers and active
military members, who are “authorized to possess and
carry a handgun,” are excluded from the ban. N.J.
Stat. Ann. 2C:39-3(g). Retired law enforcement
officers are also exempt and may possess and carry
semi-automatic handguns with magazines that hold
up to fifteen rounds of ammunition. 3 Id. at 2C:39-17.
The Act provides several ways for those who are
not exempt from the law to comply. Specifically, the
legislation gives LCM owners until December 10,
2018 4 to (1) modify their LCMs “to accept ten rounds
or less,” id. at 2C:39-19(b); (2) render firearms with
LCMs or the LCM itself inoperable, id.; (3) register
firearms with LCMs that cannot be “modified to
accommodate ten or less rounds,” id. at 2C:39-20(a);
(4) transfer the firearm or LCM to an individual or
entity entitled to own or possess it, id. at 2C:39-19(a);
or (5) surrender the firearm or LCM to law
enforcement, id. at 2C:39-19(c).
B
On the day the bill was signed, Plaintiffs
Association of New Jersey Rifle and Pistol Clubs and
members Blake Ellman and Alexander Dembrowski
ammunition.” Id. at 2C:39-1(y). Prior to the 2018 Act, New Jersey
had prohibited LCMs holding more than 15 rounds of
ammunition. See id. (Jan. 16, 2018); id. (1990).
To be exempt from the Act’s prohibition, a retired law
enforcement officer must, among other things, follow certain
procedures, qualify semi-annually in the use of the handgun he
is permitted to carry, and pay costs associated with the semiannual qualifications. Id. at 2C:39-6(1).
3

4 The law gave 180 days from its June 13, 2018 effective date
to comply.

App-67
(collectively, “Plaintiffs”) 5 filed this action under 42
U.S.C. § 1983, alleging that the Act violates the
Second Amendment, the Fifth Amendment’s Takings
Clause, and the Fourteenth Amendment’s Equal
Protection Clause. App. 46-64. Plaintiffs also sought a
preliminary injunction to enjoin Defendants Attorney
General of New Jersey, Superintendent of New Jersey
State Police, and the Chiefs of Police of the Chester
and Lyndhurst Police Departments from enforcing the
law.
The District Court held a three-day evidentiary
hearing on the preliminary injunction request. The
Court considered declarations from witnesses, which
served as their direct testimony, and then these
witnesses were thoroughly examined. 6 The parties
also submitted various documents, including
declarations presented in other cases addressing LCM
bans, books and journal articles on firearm
regulations, reports on the efficacy of the 1994 federal
assault weapons ban, statistics about gun ownership
and use, news articles about shooting incidents, FBI
reports on active shooter incidents, historical
materials on LCMs, and police academy training

Both Ellman and Dembrowski have worked at gun ranges,
and Dembrowski is a Marine Corps veteran. App. 470, 476.
5

Plaintiffs offered expert witness Gary Kleck, Professor
Emeritus at Florida State University. Defendants offered three
expert witnesses: (1) Lucy Allen, Managing Director of NERA
Economic Consulting; (2) Glen Stanton, State Range Master for
the New Jersey Office of the Attorney General Division of
Criminal Justice; and (3) John Donohue, Professor of Law at
Stanford Law School.
6

App-68
materials. 7 The evidence disclosed the purpose of
LCMs, how they are used, and who uses them.
A magazine is an implement that increases the
ammunition capacity of a firearm. App. 128. An LCM
refers to a particular size of magazine. App. 159.
LCMs allow a shooter to fire multiple shots in a matter
of seconds without reloading. App. 225, 865. Millions
of LCMs have been sold since 1994, App. 1266, and
63% of gun owners reported using LCMs in their
modern sporting rifles, App. 516, 753. LCMs often
come factory standard with semi-automatic weapons.
App. 656, 994-95.
Gun owners use LCMs for hunting and pest
control. App. 655. LCMs have also been used for selfdefense. App. 225, 844-51, 915-16, 1024. The record
does not include a reliable estimate of the number of
incidents where more than ten shots were used in selfdefense, 8 but it does show that LCMs “are not
The exhibits include writings from Christopher Koper,
Professor of Criminology, Law, and Society at George Mason
University, see App. 663-67, 768-72, 1047-50, 1051-59, 1060-65,
1247-53, 1254-85, and David Kopel, Research Director at the
Independence Institute, Associate Policy Analyst at the Cato
Institute, and Adjunct Professor at Denver University Sturm
College of Law, App. 654-59, 1233-46.
7

Allen testified that most defensive gun use involves the
discharge of between two and three rounds of ammunition. App.
844-48. Kleck acknowledged that there is no current estimate of
the number of incidents where more than ten shots were used in
self-defense, App. 240, but then relied on data from Allen to
assert that 4,663 incidents of defensive gun use have involved
more than ten rounds. App. 239, 328. This figure is based on an
extrapolation. As Amicus Everytown for Gun Safety explained,
8

That number was reached by taking Kleck’s . . . out-ofdate, 2.5 million defensive-gun-uses number,

App-69
necessary or appropriate for self-defense,” App. 861,
and that use of LCMs in self-defense can result in
“indiscriminate firing,” App. 863, and “severe adverse
consequences for innocent bystanders,” App. 1024.
There is also substantial evidence that LCMs
have been used in numerous mass shootings, 9 App.
851-53, 909-10, 914, 967-88, 1024, 1042, 1057, 111826, 1165-71, and that the use of LCMs results in
multiplying that by his estimate of the percentage of
defensive gun uses in the home, and then multiplying
that by the percentage of such incidents found in the
NRA’s [Armed Citizen] defensive-gun-use database in
which more than ten shots were reportedly fired (2 of
411). [App. 328.] This approach takes 411 of what are
certainly some of the most extreme and newsworthy
cases of defensive gun [use] across a period of more
than six years, [App. 69], and assumes that they are
representative of all defensive gun uses.
Amicus Everytown for Gun Safety Br. at 23-24 (footnote omitted)
(emphasis in original). Plaintiffs attempt to embrace a figure
based on data they themselves challenged because the expert did
not know the data compilation method, the data may not have
been representative, and the search criteria were limited. Ass’n
of N.J. Rifle & Pistol Clubs, Inc. v. Grewal, No. 18-1017, 2018 WL
4688345, at *5, *12 (D.N.J. Sept. 28, 2018). App. 73-81.
As the District Court observed, some of the studies and
articles use different definitions for the term “mass shootings,”
which led it to give less weight to these materials. See Ass’n of
N.J. Rifle & Pistol Clubs, 2018 WL 46888345, at *5, *8. For
instance, Mother Jones has changed its definition of a mass
shooting over time, setting a different minimum number of
fatalities or shooters, and may have omitted a significant number
of mass shooting incidents. App. 90-102, 1037-38 (noting
deficiencies in Mother Jones report). While it questioned the
reliability of the statistics, the District Court did consider the
specific incidents of LCM use described in the record. Id. at *3.
9

App-70
increased fatalities and injuries, App. 562. “[W]hen
you have a high capacity magazine it allows you to fire
off a large number of bullets in a short amount of time,
and that gives individuals much less opportunity to
either escape or to try to fight back or for police to
intervene; and that is very valuable for mass
shooters.” App. 225, 865. The record demonstrates
that when there are pauses in shooting to reload or for
other reasons, opportunities arise for victims to flee,
as evidenced by the 2017 Las Vegas and 2013 D.C.
Navy Yard shootings, App. 114, 914, 1045, or for
bystanders to intervene, as in the 2018 Tennessee
Waffle House shooting and 2011 Arizona shooting
involving Representative Gabrielle Giffords, App. 830,
1113.
While a trained marksman or professional speed
shooter operating in controlled conditions can change
a magazine in two to four seconds, App. 109, 263-67,
656, 1027, an inexperienced shooter may need eight to
ten seconds to do so, App. 114. Therefore, while a ban
on LCMs does not restrict the amount of ammunition
or number of magazines an individual may purchase,
App. 231, without access to LCMs, a shooter must
reload more frequently.
“[S]hooters in at least 71% of mass shootings in
the past 35 years obtained their guns legally,” App.
853, or from a family member or friend (as was the
case with the Newtown shooter who took his mother’s
lawfully-owned guns), App. 190, 195, 486, and gun
owners in lawful possession of firearms are a key
source of arming criminals through loss and theft of
their firearms, App. 221-22, 800-01, 924-25.

App-71
New Jersey law enforcement officers regularly
carry LCMs, App. 116, 1102, and along with their
retired counterparts, are trained and certified in the
use of firearms, App. 143-46, 1101-02. Law
enforcement officers use certain firearms not regularly
used by members of the military and use them in a
civilian, non-combat environment. 10 App. 137, 140,
1103.
After carefully considering all of the evidence and
the parties’ arguments, the District Court denied the
motion to preliminarily enjoin the Act. The Court
found the expert witnesses were credible but
concluded that the testimony of certain experts was “of
little help in its analysis . . . . [because] their
testimony failed to clearly convey the effect this law
will have on reducing mass shootings in New Jersey
or the extent to which the law will impede gun owners
from defending themselves.” Ass’n of N.J. Rifle &
Pistol Clubs, Inc. v. Grewal, No. 18-1017, 2018 WL
4688345, at *8 (D.N.J. Sept. 28, 2018). Specifically, the
Court stated that although it found both Kleck and
Allen credible, their testimony “relied upon
questionable data and conflicting studies,” suggesting
that both of the experts’ methodologies and
conclusions were flawed. 11 Id.
Because their duties require access to LCMs, active military
members and active law enforcement officers are exempt from
the ban. N.J. Stat. Ann. 2C:39-3(g).
10

11 Our dissenting colleague is of the view that the District Court
rejected all of the expert testimony offered during the
preliminary injunction hearing. This does not accurately reflect
the Court’s opinion. The Court’s opinion shows that while it found
the testimony of Kleck and Allen unhelpful, Ass’n of N.J. Rifle &
Pistol Clubs, 2018 WL 4688345, at *5, *7-8, it did not similarly

App-72
The District Court, however, considered other
evidence in the record to reach its conclusion, see, e.g.,
id. at *6, *6 n.7, *12, that the Act was constitutional.
The District Court held that a “ban on magazines
capable of holding more than ten rounds implicates
Second Amendment protections,” id. at *11, but that
it does not violate the Second Amendment.
Specifically, the District Court held that the Act
(1) should be examined under intermediate scrutiny
because it “places a minimal burden on lawful gun
owners,” id. at *13, and (2) “is reasonably tailored to
achieve [New Jersey’s] goal of reducing the number of
casualties and fatalities in a mass shooting,” id., based
in part on evidence showing that “there is some delay
associated with reloading, which may provide an
opportunity for potential victims to escape or for a
bystander to intercede,” id. at *12.
The District Court also held that the Fifth
Amendment Takings and Fourteenth Amendment
Equal Protection claims lacked merit. The Court
concluded that the Takings claim failed because the
modification and registration options “provided
property owners with . . . avenue[s] to comply with the
law without forfeiting their property.” Id. at *16. The
Court also determined that the Act’s exemption for
retired law enforcement officers did not violate
Plaintiffs’ right to equal protection because law
enforcement officers, in light of their “extensive and
stringent training” and experience “confronting
unique circumstances that come with being a police
critique Donohue and Stanton, id. at *5-7. The Court relied upon
evidence from Donohue, Stanton, and a myriad of other sources
to reach its conclusion. Id. at *3.

App-73
officer,” are different from, and hence not similarly
situated to, other residents. Id. at *14.
After concluding that Plaintiffs failed to
demonstrate a likelihood of success on their claims,
the District Court stated that Plaintiffs did not satisfy
the other requirements for a preliminary injunction,
id. at *16, and denied their motion. Plaintiffs appeal.
Plaintiffs do not advocate an absolutist view of the
Second Amendment but believe that the State’s ability
to impose any restriction on magazine capacity is
severely limited. Plaintiffs argue that the Act is
categorically unconstitutional because it bans an
entire class of arms protected by the Second
Amendment, there is no empirical evidence
supporting the State ban, and the rights of law abiding
citizens are infringed and their ability to defend
themselves in the home is reduced.
On the other hand, the State asserts that it is
imperative to the safety of its citizens to take focused
steps to reduce the devastating impact of mass
shootings. The State argues that the Act does not
hamper or infringe the rights of law abiding citizens
who legally possess weapons.
II 12
The decision to grant or deny a preliminary
injunction is within the sound discretion of the district
court. Winter v. Nat. Res. Def. Council, Inc., 555 U.S.
7, 24, 33 (2008). “We employ a tripartite standard of
review for . . . preliminary injunctions. We review the
District Court’s findings of fact for clear error. Legal
12 The District Court had jurisdiction under 28 U.S.C. § 1331.
We have jurisdiction pursuant to 28 U.S.C. § 1292(a)(1).

App-74
conclusions are assessed de novo. The ultimate
decision to grant or deny the injunction is reviewed for
abuse of discretion.” K.A. ex rel. Ayers v. Pocono
Mountain Sch. Dist., 710 F.3d 99, 105 (3d Cir. 2013)
(internal quotation marks and citations omitted). 13
Plaintiffs’ argument that the clear error standard does not
apply to legislative facts and that the Court is not limited to the
record below in adjudicating questions of legislative fact is
unpersuasive.
13

Legislative facts have been described as: (1) general facts or
things “knowable to the industry at all relevant times,” In re
Asbestos Litig., 829 F.2d 1233, 1245, 1248, 1252 n.11 (3d Cir.
1987) (Becker, J., concurring); (2) facts that underlie a policy
decision and “have relevance to legal reasoning and the
lawmaking process, whether in the formulation of a legal
principle or ruling by a judge or court in the enactment of a
legislative body.” Id. at 1248 (quoting Fed. R. Evid. 201, advisory
committee note to subsection (a)); (3) facts not limited to the
activities of the parties themselves that a government body may
rely upon to reach a decision, see Omnipoint Communc’ns Enters.,
LP v. Zoning Hearing Bd. of Easttown Twp., 248 F.3d 101, 106
(3d Cir. 2001); and (4) in the words of one academic, “social facts”
known to society at large related to individual constitutional
rights, Caitlin E. Borgmann, Appellate Review of Social Facts in
Constitutional Rights Cases, 101 Cal. L. Rev. 1185, 1186-87
(1994).
To the extent the record includes legislative facts, Plaintiffs
have not met their burden of showing that the legislative facts
New Jersey relied upon “could not reasonably be conceived to be
true.” In re Asbestos Litig., 829 F.2d at 1252 n.11 (holding that
“[i]n an equal protection case, those challenging state law must
convince the court that the legislative facts on which the
classification is apparently based could not reasonably be
conceived to be true by the governmental decisionmaker.”)
(internal quotation marks and citations omitted)). Moreover,
many of the facts in this record do not fall into the category of
legislative facts as they are not known to the general public. For
example, the amount of time needed to reload a magazine or the

App-75
To obtain a preliminary injunction, the movants
must:
demonstrate (1) that they are reasonably
likely to prevail eventually in the litigation
and (2) that they are likely to suffer
irreparable injury without relief. If these two
threshold showings are made the District
Court then considers, to the extent relevant,
(3) whether an injunction would harm the
[defendants] more than denying relief would
harm the Appellants and (4) whether
granting relief would serve the public
interest.
Id. (alteration in original) (quoting Tenafly Eruv Ass’n
v. Borough of Tenafly, 309 F.3d 144, 157 (3d Cir.
2002)); Fed. R. Civ. P. 65. A plaintiff’s failure to
establish a likelihood of success on the merits
“necessarily result[s] in the denial of a preliminary
injunction.” Am. Express Travel Related Servs., Inc. v.
Sidamon-Eristoff, 669 F.3d 359, 366 (3d Cir. 2012)
(internal quotation marks and citation omitted). On
this factor, “a sufficient degree of success for a strong
showing exists if there is ‘a reasonable chance or
probability, of winning.’” In re Revel AC, Inc., 802 F.3d
558, 568 (3d Cir. 2015) (quoting Singer Mgmt.
details of various active shooter incidents are not facts known to
the general public. Accordingly, clear error review applies.
Even if it were within this Court’s discretion to refrain from
applying the clearly erroneous standard to legislative facts, we
are not compelled to do so. See Lockhart v. McCree, 476 U.S. 162,
168 n.3 (1986) (declining to reach the standard of review issue for
legislative facts at issue). We therefore decline Plaintiffs’
invitation to review the District Court’s factual findings de novo.

App-76
Consultants, Inc. v. Milgram, 650 F.3d 223, 229 (3d
Cir. 2011) (en banc)). Here, we must decide whether
Plaintiffs have a reasonable probability of showing
that the Act violates the Second Amendment, the Fifth
Amendment’s Takings Clause, and the Fourteenth
Amendment’s Equal Protection Clause. We consider
each claim in turn.
III

The Second Amendment provides: “A well
regulated Militia, being necessary to the security of a
free State, the right of the people to keep and bear
Arms, shall not be infringed.” U.S. Const. amend. II.
In District of Columbia v. Heller, 554 U.S. 570 (2008),
the Supreme Court held that the Second Amendment
protects the right of individuals to possess firearms
and recognized that the “core” of the Second
Amendment is to allow “law-abiding, responsible
citizens to use arms in defense of hearth and home.”
Id. at 628-30, 635 (invalidating a statute banning the
possession of handguns in the home). 14
We therefore must first determine whether the
regulated item is an arm under the Second
Amendment. The law challenged here regulates
magazines, and so the question is whether a magazine
is an arm under the Second Amendment. The answer
is yes. A magazine is a device that holds cartridges or
ammunition.
“Magazine,”
Merriam-Webster
Dictionary, https://www.merriam-webster.com/dictionary/magazine (last visited Nov. 21, 2018); App. 128
(describing a magazine as “an implement that goes
14 Heller’s teachings apply beyond the handgun ban at issue
there.

App-77
into the weapon to increase the capacity of the weapon
itself”). Regulations that eliminate “a person’s ability
to obtain or use ammunition could thereby make it
impossible to use firearms for their core purpose.”
Jackson v. City & Cty. of San Francisco, 746 F.3d 953,
967 (9th Cir. 2014). Because magazines feed
ammunition into certain guns, and ammunition is
necessary for such a gun to function as intended,
magazines are “arms” within the meaning of the
Second Amendment. Id.; see also United States v.
Miller, 307 U.S. 174, 180 (1939) (citing 17th century
commentary on gun use in America that “[t]he
possession of arms also implied the possession of
ammunition.”).
Having determined that magazines are arms, we
next apply a two-step framework to resolve the Second
Amendment challenge to a law regulating them.
United States v. Marzzarella, 614 F.3d 85, 89 (3d Cir.
2010). First, we consider whether the regulation of a
specific type of magazine, namely an LCM, “imposes a
burden on conduct falling within the scope of the
Second Amendment’s guarantee.” Id. Second, if the
law burdens conduct that is protected by the Second
Amendment, “we evaluate the law under some form of
means-end scrutiny.” Id. “If the law passes muster
under that standard, it is constitutional. If it fails, it
is invalid.” Id.
A
Under step one, we consider whether the type of
arm at issue is commonly owned, 15 Marzzarella, 614
15 “Common use” is not dispositive since weapons illegal at the
time of a lawsuit would not be (or at least should not be) in

App-78
F.3d at 90-91, and “typically possessed by law-abiding
citizens for lawful purposes,” 16 Heller, 554 U.S. at 625.
The record shows that millions of magazines are
owned, App. 516, 753, often come factory standard
with semi-automatic weapons, App. 656, are typically
possessed by law-abiding citizens for hunting, pestcontrol, and occasionally self-defense, App. 655, 55455, 17 and there is no longstanding history of LCM
regulation. 18 We will nonetheless assume without
common use and yet still may be entitled to protection. Friedman
v. City of Highland Park, 784 F.3d 406, 409 (7th Cir. 2015).
This plain language from Heller makes clear that the Second
Amendment, like all of the amendments in the Bill of Rights, is
not limitless. Aside from requiring consideration of whether the
arm is typically possessed by law-abiders for lawful purposes,
Heller also examines whether the weapon is “dangerous and
unusual.” 554 U.S. at 627; Marzzarella, 614 F.3d at 91; see also
United States v. One (1) Palmetto State Armory Pa-15
Machinegun, 822 F.3d 136, 142 (3d Cir. 2016) (holding machine
guns not protected because they are “exceedingly dangerous
weapons” that are “not in common use for lawful purposes”).
While the record suggests that LCMs are not unusual, they have
“combat-functional ends” given their capacity to inflict “more
wounds, more serious, in more victims,” and because a shooter
can hit “multiple human targets very rapidly,” Kolbe v. Hogan,
849 F.3d 114, 137 (4th Cir. 2017) (en banc) (internal quotation
marks and citation omitted).
16

We are also mindful of Heller’s admonition that
disproportionate criminal use of a particular weapon does not
mean it is not typically possessed for lawful purposes. N.Y. State
Rifle & Pistol Ass’n, Inc. v. Cuomo, 804 F.3d 242, 256 (2d Cir.
2015).
17

18 LCMs were not regulated until the 1920s, but most of those
laws were invalidated by the 1970s. App. 1242-44. The federal
LCM ban was enacted in 1994, but it expired in 2004. App. 1244.
While a lack of longstanding history does not mean that the
regulation is unlawful, see Heller v. District of Columbia, 670

App-79
deciding that LCMs are typically possessed by lawabiding citizens for lawful purposes and that they are
entitled to Second Amendment protection. See N.Y.
State Rifle & Pistol Ass’n, Inc. v. Cuomo, 804 F.3d 242,
257 (2d Cir. 2015); Heller v. District of Columbia, 670
F.3d 1244, 1261 (D.C. Cir. 2011) [hereinafter Heller
II].
B
Assuming that the Act implicates an arm subject
to Second Amendment protection, we next address the
level of means-end scrutiny that must be applied.
Marzzarella, 614 F.3d at 89. The applicable level of
scrutiny is dictated by whether the challenged
regulation burdens the core Second Amendment right.
If the core Second Amendment right is burdened, then
strict scrutiny applies; otherwise, intermediate
scrutiny applies. 19 See Drake v. Filko, 724 F.3d 426,
436 (3d Cir. 2013). “At its core, the Second
Amendment protects the right of law-abiding citizens
to possess non-dangerous weapons for self-defense in
the home.” Marzzarella, 614 F.3d at 92 (citing Heller,
554 U.S. at 635); see Drake, 724 F.3d at 431 (declining
to definitively hold that Second Amendment core
“extends beyond the home”). Thus, laws that severely
burden the core Second Amendment right to selfdefense in the home are subject to strict scrutiny.
Drake, 724 F.3d at 436; Marzzarella, 614 F.3d at 97;
F.3d 1244, 1266 (D.C. Cir. 2011), the lack of such a history
deprives us of reliance on Heller’s presumption that such
regulation is lawful.
19 Rational basis review is not appropriate for laws that burden
the Second Amendment. Heller, 554 U.S. at 628 n.27;
Marzzarella, 614 F.3d at 95-96.

App-80
see also Kolbe v. Hogan, 849 F.3d 114, 138 (4th Cir.
2017) (en banc) (applying intermediate scrutiny where
the law “does not severely burden the core protection
of the Second Amendment”); N.Y. State Rifle & Pistol
Ass’n, 804 F.3d at 260 (applying intermediate scrutiny
where “[t]he burden imposed by the challenged
legislation is real, but it is not ‘severe’” (citation
omitted)); Fyock v. City of Sunnyvale, 779 F.3d 991,
998-99 (9th Cir. 2015) (determining appropriate level
of scrutiny by considering “how severely, if at all, the
law burdens [the Second Amendment] right”); Heller
II, 670 F.3d at 1261 (determining “the appropriate
standard of review by assessing how severely the
prohibitions burden the Second Amendment right”).
1
The Act here does not severely burden the core
Second Amendment right to self-defense in the home
for five reasons. First, the Act, which prohibits
possession of magazines with capacities over ten
rounds, does not categorically ban a class of firearms.
The ban applies only to magazines capable of holding
more than ten rounds and thus restricts “possession of
only a subset of magazines that are over a certain
capacity.” Fyock, 779 F.3d at 999 (describing LCM ban
as a restriction); S.F. Veteran Police Officers Ass’n v.
City & Cty. of San Francisco, 18 F. Supp. 3d 997, 100203 (N.D. Cal. 2014) (emphasizing that the law was not
“a total ban on all magazines” but “a total ban only on
magazines holding more than ten rounds”); see also
App. 159 (testimony explicitly addressing that the law
“does not ban any particular class of gun” because “it
just deals with the size of the magazine”).

App-81
Second, unlike the ban in Heller, the Act is not “a
prohibition of an entire class of ‘arms’ that is
overwhelmingly chosen by American society for [selfdefense in the home].” 544 U.S. at 628. The firearm at
issue in Heller, a handgun, is one that the Court
described as the “quintessential self-defense weapon.”
Id. at 629. The record here demonstrates that LCMs
are not well-suited for self-defense. App. 225, 861, 863,
915, 1024.
Third, also unlike the handgun ban in Heller, a
prohibition on “large-capacity magazines does not
effectively disarm individuals or substantially affect
their ability to defend themselves.” Heller II, 670 F.3d
at 1262 (citing Marzzarella, 614 F.3d at 97). Put
simply, the Act here does not take firearms out of the
hands of law-abiding citizens, which was the result of
the law at issue in Heller. The Act allows law-abiding
citizens to retain magazines, and it has no impact on
the many other firearm options that individuals have
to defend themselves in their home. 20 Marzzarella, 614
F.3d at 97; App. 230-32, 917-18.
Heller stated that “[i]t is no answer to say, as petitioners do,
that it is permissible to ban the possession of handguns so long
as the possession of other firearms (i.e., long guns) is allowed.”
554 U.S. at 629 (emphasis omitted). However, as discussed above,
the handgun ban at issue in Heller, which forbade an entire class
of firearms, differs from the LCM ban here, which does not
prevent law-abiding citizens from using any type of firearm
provided it is used with magazines that hold ten rounds or fewer.
In fact, at oral argument, Plaintiffs were unable to identify a
single model of firearm that could not be brought into compliance
with New Jersey’s magazine capacity restriction, and even if such
firearms exist, they simply need to be registered for owners to
legally retain them. N.J. Stat. Ann. 2C:39-20(a).
20

App-82
Fourth, the Act does not render the arm at issue
here incapable of operating as intended. New Jersey
citizens may still possess and utilize magazines,
simply with five fewer rounds per magazine. Ass’n of
N.J. Rifle & Pistol Clubs, 2018 WL 4688345, at *12;
see also N.Y. State Rifle & Pistol Ass’n, 804 F.3d at 260
(“[W]hile citizens may not acquire high-capacity
magazines, they can purchase any number of
magazines with a capacity of ten or fewer rounds. In
sum, numerous alternatives remain for law-abiding
citizens to acquire a firearm for self-defense.” (internal
quotation marks and citation omitted)).
Fifth, “it cannot be the case that possession of a
firearm in the home for self-defense is a protected form
of possession under all circumstances. By this
rationale, any type of firearm possessed in the home
would be protected merely because it could be used for
self-defense.” Marzzarella, 614 F.3d at 94.
For these reasons, while the Act affects a type of
magazine one may possess, it does not severely
burden, and in fact respects, the core of the Second
Amendment right. See N.Y. State Rifle & Pistol Ass’n,
804 F.3d at 258; Marzzarella, 614 F.3d at 94
(observing that machine guns are not protected by the
Second Amendment even though they may be used in
the home for self-defense). As a result, intermediate
scrutiny applies. 21
21 No court has applied strict scrutiny to LCM bans, reasoning
that the bans do not impose a severe or substantial burden on the
core Second Amendment right. Kolbe, 849 F.3d at 138; N.Y. State
Rifle & Pistol Ass’n, 804 F.3d at 260; Fyock, 779 F.3d at 999;
Heller II, 607 F.3d at 1262; see also Duncan v. Becerra, No. 1756081, 2018 WL 3433828, at *2 (9th Cir. July 17, 2018) (holding

App-83
2
“[U]nder intermediate scrutiny[,] the government
must assert a significant, substantial, or important
interest; there must also be a reasonable fit between
that asserted interest and the challenged law, such
that the law does not burden more conduct than is
reasonably necessary.” Drake, 724 F.3d at 436;
Marzzarella, 614 F.3d at 98 (requiring serial numbers
on guns reasonably fits government interest). The law
need not be the least restrictive means of achieving
that interest. Drake, 614 F.3d at 439. 22

district court did not abuse its discretion in applying
intermediate scrutiny and considering whether the arm was in
common use for lawful purposes). Four courts applied
intermediate scrutiny, and one court upheld an LCM ban without
applying any level of scrutiny. Instead, it considered whether the
banned weapon was “common at the time of the ratification,” had
a relationship to “the preservation or efficiency of a well
regulated militia,” and whether law-abiding citizens retained
adequate means for self-defense. Friedman, 784 F.3d at 410.
Our dissenting colleague seems to misunderstand the
analytical approach that we have adopted and which is consistent
with our precedent. The dissent suggests that we engage in
interest-balancing. Our analysis demonstrates that we do not.
The scrutiny analysis described above is not the interestbalancing approach advocated by Justice Breyer and rejected by
the Heller majority, where a court, focused on proportionality,
weighs the government interest against the burden on the Second
Amendment right. 554 U.S. at 634. At the first step of
Marzzarella, assessing the burden that this Act places on the core
of the Second Amendment does not consider the government
interest. At the second step of Marzzarella, we identify a
substantial government interest and whether the legislation is a
reasonable fit for that interest. There is no balancing at either
step.
22

App-84
“The State of New Jersey has, undoubtedly, a
significant, substantial and important interest in
protecting its citizens’ safety.” Id. at 437. Given the
context out of which the Act was enacted, this clearly
includes reducing the lethality of active shooter and
mass shooting incidents. Thus, the State has asserted
a qualifying interest.
New Jersey’s LCM ban reasonably fits the State’s
interest in promoting public safety. LCMs are used in
mass shootings. App. 1057 (stating that “LCM
firearms are more heavily represented among guns
used in murders of police and mass murders”); see
App. 269 (noting 23 mass shootings using LCMs),
1118-26 (describing weapons used in sixty-one mass
shootings, eleven of which used fifteen-round
magazines, two of which used thirteen, and two of
which used fourteen round magazines). LCMs allow
for more shots to be fired from a single weapon and
thus more casualties to occur when they are used. App.
562 (noting, however, that this does not imply that
LCMs “caused shooters to inflict more casualties”),
865, 895-98. By prohibiting LCMs, the Act reduces the
number of shots that can be fired from one gun,
making numerous injuries less likely.
Not only will the LCM ban reduce the number of
shots fired and the resulting harm, it will present
opportunities for victims to flee and bystanders to
intervene. App. 919-20. Reducing the capacity of the
magazine to which a shooter has access means that
the shooter will have fewer bullets immediately
available and will need to either change weapons or

App-85
reload to continue shooting. 23 Weapon changes and
reloading result in a pause in shooting and provide an
opportunity for bystanders or police to intervene and
victims to flee. As the Commissioner of the Baltimore
Police Department explained, if a shooter uses a tenround magazine, rather than a 30, 50, or 100-round
magazine, the chances to act increase:
[u]se of ten-round magazines would thus offer
six to nine more chances for bystanders or law
enforcement to intervene during a pause in
firing, six to nine more chances for something
to go wrong with a magazine during a change,
six to nine more chances for the shooter to
have problems quickly changing a magazine
under intense pressure, and six to nine more
chances for potential victims to find safety
during a pause in firing. Those six to nine
additional chances can mean the difference
between life and death for many people.
App. 865; see also Kolbe, 849 F.3d at 128 (same).
This view is corroborated by other items in the
record demonstrating that a delay occurs when a
shooter needs to reload, see App. 114 (eight to ten
seconds for inexperienced shooter or two to four
seconds for trained shooter), and that such delay can
be consequential. Videos from the Las Vegas shooting
While it is true that some active shooters carry multiple
weapons, see App. 967-88 (describing active shooter incidents
2000-2013, some of which the shooter had rifles, handguns,
and/or shotguns), 1141-46 (same for 2014-2015), 1156-64 (same
for 2016-2017), when those weapons are equipped with LCMs,
there are more continuously-fired shots from each gun, which
means fewer interruptions in the shooting.
23

App-86
in 2017 show that “concert attendees would use the
pauses in firing when the shooter’s high capacity
magazines were spent to flee.” App. 914. During the
Navy Yard shooting, one victim had a chance to escape
when the shooter was forced to reload. App. 1045
(describing Navy Yard shooting where shooter
attempted to kill a woman, was out of ammunition,
and left to reload, at which time she found a new
hiding spot and ultimately survived); see also App.
658-59, 1027 (describing escape during reloading in
2012 Newtown shooting). There are multiple
instances when individuals have intervened in mass
shootings and active shooter incidents to stop the
shooter. App. 830 (Waffle House shooting), 969
(Florida’s Gold Leaf Nursery shooting where “shooter
was restrained by a citizen while attempting to reload
his gun”), 1113 (Arizona’s Giffords shooting), 1142
(Seattle Pacific University shooting where shooter was
confronted/pepper-sprayed
by
student
while
reloading). While each incident may not have involved
delay due to a need to reload, see App. 282
(distinguishing Waffle House incident on the basis
that the intervener “said he didn’t know one way or
another, and when he was interviewed the first
possibility he offered was the guy’s—the shooter’s gun
jammed”), it was the pause in shooting that allowed
individuals and bystanders to act. See App. 865, 979,
1142. In light of this evidence, the District Court did
not clearly err when it concluded that the evidence
“established that there is some delay associated with
reloading, which may provide an opportunity for
potential victims to escape or for a bystander to
intercede and somehow stop a shooter.” Ass’n of N.J.
Rifle & Pistol Clubs, 2018 WL 4688345, at *12.

App-87
Therefore, the ban reasonably fits New Jersey’s
interest. 24 See Drake, 724 F.3d at 437.
Our dissenting colleague says that our analysis has placed
the burden of proof on Plaintiffs. That is incorrect. The State
bears the burden of proving that the Act is constitutional under
heightened scrutiny. Hassan v. City of New York, 804 F.3d 227,
301 (3d Cir. 2015). It has done so with appropriate evidence. The
record demonstrates concrete examples of intervention and
escape permitted by pauses in reloading, including the episodes
in Tennessee, Las Vegas, Florida, Newtown, D.C., Arizona, and
Seattle. App. 830, 914, 969, 1027, 1045, 1113, 1142.
24

The dissent prefers, and in fact insists, on a particular type of
evidence, namely empirical studies demonstrating a causal link
between the LCM ban and a reduction in mass shooting deaths.
This is not required. First, intermediate scrutiny requires not a
causal link but a reasonable fit between the ban and the State’s
goal, and the record supports this reasonable fit. As explained
above, the LCM ban provides the circumstance that will enable
victims to flee and bystanders to intervene, and thereby reduce
harm. Second, while in some contexts empirical evidence may be
useful to examine whether a law furthers a significant
government interest, Fisher v. Univ. of Tex. at Austin, 136 S. Ct.
2198, 2212 (2016) (examining both statistical and anecdotal data
in support of the University’s position), this is not the only type
of evidence that can be used or is even necessary for a state to
justify its legislation. To take the dissent’s suggestion concerning
the need for empirical studies to its logical conclusion, the State
would have to wait for studies analyzing a statistically significant
number of active and mass shooting incidents before taking
action to protect the public. The law does not impose such a
stringent requirement.
Moreover, the dissent criticizes us for reviewing the entire
record to determine whether the District Court clearly erred in
its factual determinations, but clear error review requires it. See
In re Lansdale Family Rests., Inc., 977 F.2d 826, 828 (3d Cir.
1992) (holding that clear error review “requires us to determine
whether, although there is evidence to support it, we are left with
the definite and firm conviction from the entire record” that the

App-88
Plaintiffs attempt to discount the need for the
LCM ban by describing mass shootings as rare
incidents, and asserting that the LCM ban burdens
the rights of law-abiding gun owners to address an
infrequent occurrence. 25 The evidence adduced before
court “committed a mistake of fact”). When reviewing for clear
error, we examine the record to determine if there is factual
support for the District Court’s conclusion. Marxe v. Jackson, 833
F.2d 1121, 1125 (3d Cir. 1987) (stating that “if a study of the
record suggests the district court did not completely miss the
mark in its conclusion that [the movant] is likely to succeed on
the merits of her case, we must uphold the court’s finding on that
criterion.”). Because we are tasked with reviewing the record, we
are not limited to the facts the Court specifically mentioned to
determine if the factual finding is erroneous. Indeed, it is often
the case that a factual finding can be supported by various pieces
of evidence, some of which may be mentioned and some of which
may not. For example, the factual finding that pauses in shooting
permit escape and intervention is borne out in the record by
various eyewitness accounts, the declarations of law enforcement
officers, and the twelve-minute video of the Las Vegas shooting,
which has images of individuals fleeing the area during breaks
in the shooting. These are real events that provide real evidence
that allow us to conclude that the District Court’s factual findings
were not clear error.
Plaintiffs also argue that the LCM ban burdens the rights of
law-abiding gun owners by depriving them of the tactical
advantage that LCMs provide to criminals and law enforcement
officers. Transcript of Oral Argument at 11:17-23, 13:3-19, 16:717:2, Ass’n of N.J. Rifle & Pistol Clubs, Inc. v. Grewal, et al., No.
18-3170 (Nov. 20, 2018). Plaintiffs’ expert testified that, given the
average citizen’s poor shooting accuracy and the potential for
multiple assailants, LCMs are important for self-defense. App.
555, 655-56.
25

We recognize that Heller instructs that the Second Amendment
“elevates above all other interests the right of law-abiding,
responsible citizens to use arms in defense of hearth and home.”
554 U.S. at 635. The Act here does not undermine this interest.

App-89
the District Court shows that this statement
downplays the significant increase in the frequency
and lethality of these incidents. See, e.g., App. 906,
1133-34; see also App. 1042-43 (noting that pre-2015,
there was never a year with more than five gun
massacres, and 2015 had seven “massacres” as defined
by Mother Jones, but acknowledging discrepancies
with Mother Jones’ definition of massacre or mass
shooting). Despite Plaintiffs’ assertion to the contrary,
New Jersey has not been spared from a mass shooting.
Just days after the Act was passed, a mass shooter
injured twenty-two individuals and killed one at an
arts festival in Trenton. Ass’n of N.J. Rifle & Pistol
Clubs, 2018 WL 4688345, at *3; App. 1288-95. Even if
this event had not occurred, “New Jersey need not
wait for its own high-fatality gun massacre before
curtailing access to LCMs.” Giffords Law Ctr. Amicus
Br. at 3; App. 247.
Lastly, the Act does not burden more conduct than
reasonably necessary. As we have already discussed,
the prohibition on LCMs does not disarm an
individual. While the Act does limit access to one
tool—magazines that hold over ten rounds—it
imposes no limit on the number of firearms or
magazines or amount of ammunition a person may
lawfully possess. 26 In any event, the record does not
The record reflects that most homeowners only use two to three
rounds of ammunition in self-defense. App. 626. Furthermore,
homeowners acting in self-defense are unlike law enforcement
officers who use LCMs to protect the public, particularly in
gunfights, App. 1103-04, or active and mass shooters who use
their weapons to inflict maximum damage.
26 The dissent incorrectly asserts that our analysis lacks a
limiting principle. We have a limiting principle and have applied

App-90
show that LCMs are well-suited or safe for selfdefense. 27 App. 844-51, 861, 863, 923, 1024. Thus, the
Act is designed to “remove these especially lethal
items from circulation so that they will be unavailable,
or at least less available, to mass murderers,” S.F.
Veteran Police Officers Ass’n, 18 F. Supp. 3d at 1004;
see also Friedman v. City of Highland Park, 784 F.3d
406, 412 (7th Cir. 2015); App. 195, 221-22, 846, 80001, 853, and it does not burden a gun owner’s right to
self-defense, Drake, 724 F.3d at 439 (upholding a gun
law that “takes into account the individual’s right to
protect himself from violence as well as the
community at large’s interest in self-protection” and
general public safety).
For these reasons, the Act survives intermediate
scrutiny, and like our sister circuits, we hold that laws
restricting magazine capacity to ten rounds of
ammunition do not violate the Second Amendment. 28
it, namely whether the law severely and substantially burdens
the core right to self-defense in the home. See Drake, 724 F.3d at
436; Marzzarella, 614 F.3d at 97; see also Kolbe, 849 F.3d at 138.
Moreover, the only issue we are deciding is whether New Jersey’s
limit on the capacity of magazines to no more than ten rounds is
constitutional. We rule on no other issue.
Plaintiffs rely on evidence from Kleck to support their
assertion that LCMs are needed for self-defense. He asserts that
attacks by multiple offenders are common, postulates the number
of shots an average citizen, as compared to a proficient police
officer, needs to shoot an offender, and then multiplies that by
four to conclude that average persons need more than ten rounds
of ammunition to act in self-defense. App. 555. This calculation
is speculative.
27

28 Plaintiffs argue that three First Amendment standards
should be used to evaluate a Second Amendment challenge to a
gun law, namely that: (1) the Act cannot regulate the secondary

App-91

effects of gun violence by suppressing the right to possess
firearms; (2) the Act must alleviate the harm it seeks to address;
and (3) New Jersey was required to consider other less restrictive
alternatives. The dissent also applies First Amendment, as well
as Equal Protection, articulations of the intermediate scrutiny
test to the case before us. The controlling case law, however, sets
forth the governing law for evaluating Second Amendment
challenges.
While our Court has consulted First Amendment jurisprudence
concerning the appropriate level of scrutiny to apply to a gun
regulation, see Binderup v. Att’y Gen., 836 F.3d 336, 345 (3d Cir.
2016) (en banc); Marzzarella, 614 F.3d at 89 n.4, we have not
wholesale incorporated it into the Second Amendment. This is for
good reason: “[t]he risk inherent in firearms and other weapons
distinguishes the Second Amendment right from other
fundamental rights . . . .” Bonidy v. U.S. Postal Serv., 790 F.3d
1121, 1126 (10th Cir. 2015). We said in Marzzarella that the First
Amendment “is a useful tool in interpreting the Second
Amendment,” but we are also “cognizant that the precise
standards of scrutiny and how they apply may differ under the
Second Amendment.” 614 F.3d at 96 n.15. The Court of Appeals
for the Second Circuit has also noted that there are “salient
differences between the state’s ability to regulate” First and
Second Amendment rights, and therefore, “it would be as
imprudent to assume that the principles and doctrines developed
in connection with the First Amendment apply equally to the
Second, as to assume that rules developed in the Second
Amendment context could be transferred without modification to
the First.” Kachalsky v. County of Westchester, 701 F.3d 81, 92
(2d Cir. 2012) (declining to adopt First Amendment prior
restraint doctrine for public carriage restrictions). For the same
reasons, the articulation of intermediate scrutiny for equal
protection purposes is not appropriate here. Accordingly, we
decline to deviate from the standards set forth in Drake and
Marzzarella for considering a Second Amendment challenge.
Even if we evaluated the First Amendment considerations
Plaintiffs advocate, they do not change the outcome. First,
Plaintiffs rely on Justice Kennedy’s concurring opinion in City of
Los Angeles v. Alameda Books, Inc., 535 U.S. 425, 445 (2002)

App-92

(Kennedy, J., concurring) (“[A] city may not regulate the
secondary effects of speech by suppressing the speech itself.”), to
assert that the State impermissibly seeks to regulate secondary
effects of gun violence by banning LCMs. Unlike the zoning
ordinance in Alameda Books, the Act has the “purpose and effect”
of enhancing public safety and reducing the lethality of mass
shootings, it does not suppress the Second Amendment right. Id.
at 445.
Second, Plaintiffs argue that the Act must “in fact alleviate the
problem meant to be addressed,” Turner Broad. Sys., Inc. v. FCC,
512 U.S. 622, 664 (1994), and may not simply be a predictive
judgment to survive intermediate scrutiny. The record here
provides a basis to conclude that the Act would achieve New
Jersey’s goal to protect public safety and reduce the lethality of
active and mass shootings. As we have already explained, the
evidence shows that pauses in shooting, which would occur if a
shooter needs to reload because he lacks an LCM, save lives.
Third, Plaintiffs claim that New Jersey failed to consider any
less restrictive alternatives in passing the Act and that this is
fatal to the law’s survival. In Bruni v. City of Pittsburgh, 824 F.3d
353 (3d Cir. 2016), we examined a content-neutral speech
regulation under intermediate scrutiny and considered whether
the state “show[ed] either that substantially less-restrictive
alternatives were tried and failed, or that the alternatives were
closely examined and ruled out for good reason.” Id. at 369; see
also McCullen v. Coakley, 134 S. Ct. 2518, 2540 (2014). To the
extent we must examine whether the legislature considered less
restrictive means, we can take into account that New Jersey has
historically used gun regulations to address public safety. At the
same time New Jersey enacted the LCM ban, it passed five other
regulations, which focused on background checks, set mental
health limitations, amended requirements for concealed carry,
and prohibited armor piercing ammunition. See N.J. Stat. Ann.
2A:62A-16, 2C:39-1, 2C:39-3, 2C:58-3, 2C:58-4, 2C:58-20. A state
is not required to choose a single avenue to achieve a goal and
wait to see whether it is effective. Further, one of the alternatives
Plaintiffs suggest, limiting magazines to the home, is already
addressed by New Jersey’s concealed carry law. See N.J. Stat.
Ann. 2C:58-4. The other alternatives that Plaintiffs claim that

App-93
See Kolbe, 849 F.3d 114 (upholding Maryland ten
round limit); N.Y. State Rifle & Pistol Ass’n, 804 F.3d
at 263-64 (upholding New York and Connecticut’s tenround limit); Friedman, 784 F.3d at 411-12 (upholding
city’s ten-round limit); Fyock, 779 F.3d at 1000
same) 29; Heller II, 670 F.3d at 1262-64 (upholding
D.C.’s ten-round limit). 30
IV
Plaintiffs’ Fifth Amendment Takings claim also
fails. The Takings Clause provides that “private
property [shall not] be taken for public use, without
New Jersey should have pursued, namely background checks and
registration, Oral Argument Transcript at 9:7-19, would not
address the fact that 71% of active and mass shooters were in
lawful possession of the firearms that they used and thus these
alternatives would have had no impact on them.
In a more recent non-precedential opinion, a separate panel
of the Court of Appeals for the Ninth Circuit affirmed the United
States District Court for the Southern District of California’s
order preliminarily enjoining California’s LCM ban, relying on
the district court’s fact findings, which it properly recognized it
could not reweigh. See Duncan, 2018 WL 3433828, at *1-2. The
district court had distinguished the evidentiary record before the
Fyock panel, which issued a precedential opinion upholding
analogous ban, as “credible, reliable, and on point.” Duncan v.
Becerra, 265 F. Supp. 3d 1106, 1120 (S.D. Cal. 2017) (quoting
Fyock, 779 F.3d at 1000). Thus, Duncan seems to reflect a ruling
based upon the evidence presented and not a general
pronouncement about whether LCM bans violate the Second
Amendment.
29

30 The United States District Court for the District of
Massachusetts also rejected a Second Amendment challenge to
Massachusetts’s LCM ban. Worman v. Healey, 293 F. Supp. 3d
251, 264-66 (D. Mass. 2018), appeal docketed, Worman v. Baker,
No. 18-1545 (1st Cir. June 19, 2018).

App-94
just compensation.” 31 U.S. Const. amend. V. “The
paradigmatic taking requiring just compensation is a
direct government appropriation or physical invasion
of private property.” Lingle v. Chevron U.S.A., Inc.,
544 U.S. 528, 537 (2005). In addition, a government
regulation “may, in some instances, be so onerous that
its effect is tantamount to a direct appropriation or
ouster,” and “such ‘regulatory takings’ may be
compensable under the Fifth Amendment.” Id.
Here, the compliance measures in the Act do not
result in either an actual or regulatory taking. 32 There
is no actual taking because owners have the option to
transfer or sell their LCMs to an individual or entity
who can lawfully possess LCMs, modify their LCMs to
The Takings Clause applies to the states through the
Fourteenth Amendment. Chicago, B. & Q.R. Co. v. City of
Chicago, 166 U.S. 226, 241 (1897).
31

New Jersey’s LCM ban seeks to protect public safety and
therefore it is not a taking at all. A compensable taking does not
occur when the state prohibits the use of property as an exercise
of its police powers rather than for public use. See Lucas v. S.C.
Coastal Council, 505 U.S. 1003, 1027-28, 1027 n.14 (1992);
Mugler v. Kansas, 123 U.S. 623, 668-69 (1887); Nat’l Amusements
Inc. v. Borough of Palmyra, 716 F.3d 57, 63 (3d Cir. 2013). We,
however, need not rest on this ground to conclude that the Act
does not violate the Takings Clause because it does not result in
either an actual or regulatory taking.
32

Plaintiffs assert that Horne v. Department of Agriculture, 135
S. Ct. 2419 (2015), dictates that the Act constitutes a taking. We
disagree. Horne dealt with a taking involving property for
government use. Id. at 2425 (addressing constitutionality of a
reserve requirement that grape growers set aside a certain
percentage of their crop for the government to sell in
noncompetitive markets). The Act here does not involve a taking
for government use in any way.

App-95
accept fewer than ten rounds, or register those LCMs
that cannot be modified. See N.J. Stat. Ann. 2C:39-19,
2C:39-20. With these alternatives, “[t]he ban does not
require that owners turn over their magazines to law
enforcement.” Wiese v. Becerra, 306 F. Supp. 3d 1190,
1198 (E.D. Cal. 2018); see Rupp v. Becerra, No. 8:17cv-00746, 2018 WL 2138452, at *8 (C.D. Cal. May 9,
2018) (dismissing takings claim where “[t]he law
offers a number of options to lawful gun owners that
do not result in the weapon begin surrendered to the
government”).
The Act also does not result in a regulatory taking
because it does not deprive the gun owners of all
economically beneficial or productive uses of their
magazines. See Murr v. Wisconsin, 137 S. Ct. 1933,
1942 (2017) (stating that “a regulation which denies
all economically beneficial or productive use of land
will require compensation under the Takings Clause”
(internal quotation marks and citation omitted)); see
also Lucas v. S.C. Coastal Council, 505 U.S. 1003,
1030 (1992) (describing a “total taking” where a
regulation “declares ‘off-limits’ all economically
productive or beneficial uses of land”). Simply
modifying the magazine to hold fewer rounds of
ammunition than before does not “destroy[] the
functionality of the magazine.” Wiese, 306 F. Supp. 3d
at 1198 (internal quotation marks omitted). Indeed,
there is no assertion that a gun owner cannot use a
modified magazine for its intended purpose. A gun
owner may also retain a firearm with a fixed magazine
that is “incapable of being modified to accommodate
10 or less rounds” or one that only “accepts a
detachable magazine with a capacity of up to 15
rounds which is incapable of being modified to

App-96
accommodate 10 or less rounds” so long as the firearm
is registered. N.J. Stat. Ann. 2C:39-20(a). Thus,
owners may keep their unmodifiable LCMs and
modified versions. These magazines may be used in
the same way expected: to hold multiple rounds of
ammunition in a single magazine. In short, the Act
does not result in a taking.
V

Finally, Plaintiffs’ Equal Protection claim fails.
The Equal Protection Clause provides that no state
shall “deny to any person within its jurisdiction the
equal protection of the laws.” U.S. Const. amend. XIV,
§ 1. “This is essentially a direction that all persons
similarly situated should be treated alike.” Shuman ex
rel. Shertzer v. Penn Manor Sch. Dist., 422 F.3d 141,
151 (3d Cir. 2005) (citing City of Cleburne v. Cleburne
Living Ctr., 473 U.S. 432, 439 (1985)). Thus, to
establish an equal protection claim, Plaintiffs “must
demonstrate that they received different treatment
from that received by other individuals similarly
situated.” Id. (citations omitted).
Plaintiffs assert that the Act violates the
Fourteenth Amendment’s Equal Protection Clause
because it allows retired law enforcement officers to
possess LCMs while prohibiting retired military
members and ordinary citizens from doing so. N.J.
Stat. Ann. 2C:39-3(g), 2C:39-17. Plaintiffs have not
shown that retired law enforcement officers are
similarly situated to other New Jersey residents.
Retired law enforcement officers have training and
experience not possessed by the general public. Kolbe,
849 F.3d at 147 (holding that retired law enforcement
officers “are not similarly situated to the general

App-97
public with respect to the assault weapons and largecapacity magazines banned”). Police officers in New
Jersey must participate in firearms and defensive
tactics training, including mandatory range and
classroom training, under a variety of simulated
conditions. App. 144; see, e.g., App. 1361, 1369, 1368,
1383. Law enforcement officers are also tested on a
periodic basis after initial qualification and must requalify twice a year and meet certain shooting
proficiency requirements. App. 144-45; see App. 1322410 (describing standards, requirements, and full
courses for law enforcement firearms qualification).
Retired law enforcement officers must also satisfy
firearms qualification requirements. N.J. Stat. Ann.
2C:39-6(l). Moreover, because the standard-issue
weapon for many New Jersey law enforcement officers
is a Glock 19 with a loaded fifteen round magazine,
App. 116-17, these officers have experience carrying
and using LCMs. Thus, law enforcement officers, both
active and retired, have training and experience that
distinguishes them from the general public.
Law enforcement officers are also different from
members of the military. Unlike military personnel
trained for the battlefield, law enforcement officers
are trained for and have experience in addressing
volatile situations in both public streets and closed
spaces, and they operate in noncombat zones where
the Constitution and other rules apply. App. 148-49.
Even if some military members receive firearms
training comparable to the training law enforcement
officers receive, App. 140-41, the scope and nature of
their training and experience are different, App. 141,
147-49.

App-98
For these reasons, retired law enforcement
officers are not similarly situated to retired military
personnel and ordinary citizens, and therefore their
exemption from the LCM ban does not violate the
Equal Protection Clause.
VI
For the foregoing reasons, we will affirm the order
denying Plaintiffs’ motion for a preliminary
injunction.

App-99
BIBAS, Circuit Judge, dissenting.
The Second Amendment is an equal part of the
Bill of Rights. We must treat the right to keep and
bear arms like other enumerated rights, as the
Supreme Court insisted in Heller. We may not water
it down and balance it away based on our own sense of
wise policy. 554 U.S. at 634-35.
Yet the majority treats the Second Amendment
differently in two ways. First, it weighs the merits of
the case to pick a tier of scrutiny. That puts the cart
before the horse. For all other rights, we pick a tier of
scrutiny based only on whether the law impairs the
core right. The Second Amendment’s core is the right
to keep weapons for defending oneself and one’s family
in one’s home. The majority agrees that this is the
core. So whenever a law impairs that core right, we
should apply strict scrutiny, period. That is the case
here.
Second, though the majority purports to use
intermediate scrutiny, it actually recreates the
rational-basis test forbidden by Heller. It suggests
that this record favors the government, but make no
mistake—that is not what the District Court found.
The majority repeatedly relies on evidence that the
District Court did not rely on and expert testimony
that the District Court said was “of little help.” 2018
WL 4688345, at *8. It effectively flips the burden of
proof onto the challengers, treating both contested
evidence and the lack of evidence as conclusively
favoring the government.
Whether strict or intermediate scrutiny applies,
we should require real evidence that the law furthers
the government’s aim and is tailored to that aim. But

App-100
at key points, the majority substitutes anecdotes and
armchair reasoning for the concrete proof that we
demand for heightened scrutiny anywhere else. New
Jersey has introduced no expert study of how similar
magazine restrictions have worked elsewhere. Nor did
the District Court identify any other evidence, as
opposed to armchair reasoning, that illuminated how
this law will reduce the harm from mass shootings. Id.
at *12-13. So New Jersey cannot win unless the
burden of proof lies with the challengers. It does not.
The majority also guts heightened scrutiny’s
requirement of tailoring. Alternatives to this ban may
be less burdensome and as effective. New Jersey has
already gone further than most states. It has a
preexisting fifteen-round magazine limit and a
restrictive permitting system. These laws may already
do much to allay its public-safety concerns. New
Jersey needs to show that these and other measures
will not suffice.
The majority stands in good company: five other
circuits have upheld limits on magazine sizes. These
courts, like the New Jersey legislature, rightly worry
about how best to reduce gun violence. But they err in
subjecting the Second Amendment to different,
watered-down rules and demanding little if any proof.
So I would enjoin this Act until New Jersey provides
real evidence to satisfy its burden of proving the Act
constitutional.
I.

Strict Scrutiny Applies to Laws That
Impair Self-Defense in the Home

Unlike the majority, I would apply strict scrutiny
to any law that impairs the core Second Amendment

App-101
right to defend one’s home. This law does so. And it
fails strict scrutiny.
A. Other core constitutional rights get
strict scrutiny
The Supreme Court has not set up tiers of
scrutiny for gun regulations. Heller, 554 U.S. at 634.
That may be intentional: many rights do not have tiers
of scrutiny. E.g., Duncan v. Louisiana, 391 U.S. 145
(1968) (jury trial); Crawford v. Washington, 541 U.S.
36 (2004) (Confrontation Clause). But our precedent
mandates them for the Second Amendment, at least
for laws that do not categorically ban commonly used
weapons. See Marzzarella, 614 F.3d at 96-97.
As the majority recognizes, if we apply tiers of
scrutiny, we apply strict scrutiny to the right’s core.
Maj. Op. at 22. For other rights, that is the end of the
question. The “bedrock principle” of the Free Speech
Clause forbids limiting speech just because it is
“offensive or disagreeable.” Texas v. Johnson, 491 U.S.
397, 414 (1989). So content-based speech restrictions
get strict scrutiny. Id. at 412. The Free Exercise
Clause was designed as a bulwark against “religious
persecution and intolerance.” Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 532
(1993) (internal quotation marks omitted). So laws
that target religion or religious conduct get strict
scrutiny. Id. at 533. And the Equal Protection Clause
targets classifications that historically were used to
discriminate. See Adarand Constructors, Inc. v. Peña,
515 U.S. 200, 236 (1995). So laws that classify based
on race get strict scrutiny. Id. at 235.

App-102
B. The Second Amendment’s core is selfdefense in the home
The Second Amendment merits the same level of
scrutiny. As Heller and McDonald confirm, and the
majority acknowledges, its core turns on the weapon’s
function and its location: self-defense and the home.
Maj. Op. 18-19, 22. Laws that tread on both warrant
strict scrutiny.
Self-defense is the quintessential protected
function of weapons. As Heller stressed, “it [i]s the
central component of the right itself.” 554 U.S. at 599
(emphasis in original); accord id. at 628. Heller thus
focused on laws that deprive people of weapons
commonly used for self-defense. Id. at 624, 629. And
McDonald focused on the history of colonists’ and
freedmen’s defending themselves, whether from King
George’s troops or the Ku Klux Klan. 561 U.S. at 768,
772 (majority opinion); id. at 857 (Thomas, J.,
concurring in part and concurring in the judgment).
Not every gun law impairs self-defense. Our
precedent applies intermediate scrutiny to laws that
do not affect weapons’ function, like serial-number
requirements. Marzzarella, 614 F.3d at 97. But for
laws that do impair self-defense, strict scrutiny is apt.
And the home is the quintessential place
protected by the Second Amendment. In the home,
“the need for defense of self, family, and property is
most acute.” McDonald, 561 U.S. at 767 (quoting
Heller, 554 U.S. at 628). So the core is about using
weapons in common use for self-defense in the home.

App-103
C. This Act burdens the core right
A ban on large magazines burdens that core right.
Large magazines, unlike machineguns, are in common
use. The ban extends to the home. Indeed, that is the
main if not only locale of the law, as New Jersey can
already deny most people permits to carry large
magazines publicly. See N.J. Stat. Ann. § 2C:58-4(c).
And the ban impairs using guns for self-defense. The
government’s entire case is that smaller magazines
mean more reloading. That may make guns less
effective for ill—but so too for good. The government’s
own police detective testified that he carries large
magazines because they give him a tactical
“advantage[],” since users must reload smaller
magazines more often. App. 116-18. And he admitted
that “law-abiding citizens in a gunfight” would also
find them “advantageous.” App. 119. So the ban
impairs both criminal uses and self-defense.
The law does not ban all magazines, so it is not
per se unconstitutional. But it does impair the core
Second Amendment right. We usually would stop
there. How much the law impairs the core or how
many people use the core right that way does not affect
the tier of scrutiny. So like any other law that burdens
a constitutional right’s core, this law warrants strict
scrutiny.
D. The
majority’s
unconvincing

responses

are

The majority tries to justify using intermediate
scrutiny. But it errs twice over.
1. Forbidden interest-balancing. First and most
fundamentally, the majority weighs the merits of the
right to possess large magazines. It extends a passing

App-104
phrase from Marzzarella into a requirement that a
burden “severely burden the core Second Amendment
right to self-defense in the home” before it will receive
strict scrutiny. Maj. Op. at 22 (emphasis added) (citing
Marzzarella, 614 F.3d at 97); accord id. at 25. It
demands evidence that people commonly fire large
magazines in self-defense. The challengers offer some
data, and the government offers different data. The
majority observes that the record is unclear on how
many people fire more than ten rounds in self-defense.
Maj. Op. at 10 & n.8. And it argues that people can use
smaller magazines and “many other firearm options”
anyway. Id. at 23-24; accord id. at 25, 33.
But the Second Amendment provides a right to
“keep and bear Arms.” U.S. Const. amend. II
(emphasis added). It protects possessing arms, not just
firing them. So the majority misses a key part of the
Second Amendment. The analysis cannot turn on how
many bullets are fired.
And we never demand evidence of how severely a
law burdens or how many people it hinders before
picking a tier of scrutiny. That demand is backwards
and explicitly forbidden by Heller. We should read our
precedent in keeping with the Supreme Court’s
instructions. Polling defensive gun uses and
alternatives to set a level of scrutiny, as the majority
does, boils down to forbidden interest-balancing. Any
gun regulation limits gun use for both crime and selfdefense. And any gun restriction other than a flat ban
on guns will leave alternative weapons. So the
majority’s test amounts to weighing benefits against
burdens.

App-105
That balancing approach is a variant of the
position of Justice Breyer’s dissent in Heller; the
Heller majority rejected it. Compare 554 U.S. at 63435 (majority), with id. at 689-90 (Breyer, J.,
dissenting). It makes no difference whether we break
out the balancing into two steps or one. Maj. Op. at 26
n.22. And looking to smaller magazines and other
options is the same argument, adapted to magazines,
that the Court dismissed in Heller: “It is no answer to
say . . . that it is permissible to ban the possession of
[large magazines] so long as the possession of other
[]arms [like small magazines] is allowed.” Id. at 629.
In picking a tier of scrutiny, our job is to ask only
whether the ban extends to the home and impairs the
gun’s self-defense function.
Otherwise, we put the cart before the horse.
Deciding the severity of the burden before picking a
tier of scrutiny is deciding the merits first. It is
backwards. That upends Heller’s careful approach.
The Supreme Court insisted that the Second
Amendment has already made the basic policy choice
for us. Id. at 634-36. By enacting it, the Framers
decided that the right to keep and bear arms is “really
worth insisting upon.” Id. at 634 (emphasis in
original). So the Court needed no data on how many
people wield handguns defensively. It did not evaluate
alternatives. It was enough that banning handguns
impaired self-defense in the home. Id. at 628.
That is how we approach other constitutional
rights. The level of scrutiny for speech restrictions
does not change if speech is unpopular or hateful. See
Snyder v. Phelps, 562 U.S. 443, 458 (2011). Nor does it
change if a content-based burden is modest. See Reed

App-106
v. Town of Gilbert, 135 S. Ct. 2218, 2224-27 (2015).
Our scrutiny of classifications does not depend on how
many people the law burdens. See United States v.
Virginia, 518 U.S. 515, 531-34, 542 (1996) (VMI)
(noting that “most women would not choose VMI”). So
it should not change our scrutiny of gun laws, no
matter how unclear the record is on how many times
“more than ten shots were used in self-defense.” Maj.
Op. at 10 & n.8.
Nor does the availability of alternatives lower our
tier of scrutiny. Bans on flag-burning get strict
scrutiny even though there are other ways to express
one’s views. See Johnson, 491 U.S. at 412. Racial
preferences for college applicants face the toughest
scrutiny even though applicants can always go to
other colleges. See Gratz v. Bollinger, 539 U.S. 244,
270 (2003). The availability of alternatives bears on
whether the government satisfies strict scrutiny, not
on whether strict scrutiny applies in the first place.
We focus on whether the government can achieve its
compelling goal by using other restrictions, not on
whether the rights-holder still has other avenues to
exercise the right.
So the only question is whether a law impairs the
core of a constitutional right, whatever the right may
be. Any other approach puts the cart before the horse
by weighing the merits of the case to pick a tier of
scrutiny.
2. Limiting Heller’s core to handgun bans. Second,
though it denies it, the majority effectively cabins
Heller’s core to bans on handguns. Compare Maj. Op.
at 19 n.14 (denying that Heller is so limited), with id.
at 23-24 (stressing that this law, unlike the law in

App-107
Heller, “does not take firearms out of the hands of lawabiding citizens” and leaves them with “many other
firearm options”). But that is like cabining VMI to
military institutes. Heller never limited its reasoning
to handguns or complete bans, and for good reason. No
other right works that way. Strict scrutiny applies to
laws that burden speech or religion even if they do not
nearly eliminate the right to speak or believe. E.g.,
Trinity Lutheran Church of Columbia, Inc. v. Comer,
137 S. Ct. 2012, 2021 (2017); Reed, 135 S. Ct. at 222527.
People commonly possess large magazines to
defend themselves and their families in their homes.
That is exactly why banning them burdens the core
Second Amendment right. For any other right, that
would be the end of our analysis; for the Second
Amendment, the majority demands something much
more severe.
So I would apply strict scrutiny to this Act, at
least insofar as it limits keeping magazines to defend
one’s home. But as discussed below, the government
has not shown that this Act can survive even
intermediate scrutiny.
II. Even Under Intermediate Scrutiny, on This
Record, The Law Fails
Our precedent holds that intermediate scrutiny
governs limits on weapons outside the home. Drake v.
Filko, 724 F.3d 426, 436 (3d Cir. 2013). The majority
purports to apply that test. But its version is watered
down—searching in theory but feeble in fact. It takes
a record on which the District Court did not rely and
construes everything in favor of the government,
effectively flipping the burden onto the challengers.

App-108
Even then, its analysis boils down to anecdotes and
armchair reasoning. And the majority overlooks
tailoring. None of that would be enough for other
rights. I would apply true intermediate scrutiny,
demanding evidence for the government’s assertions
and some showing of tailoring. Under either strict or
true intermediate scrutiny, the law fails.
A. Intermediate
scrutiny
searching, not feeble

must

be

Though the Supreme Court has yet to specify a
tier of scrutiny for gun laws, it forbade rational-basis
review. Heller, 554 U.S. at 628 n.27. So our scrutiny
must not be so deferential that it boils down to a
rational-basis test.
Intermediate scrutiny requires much more. As the
majority concedes, the government bears the burden
of proof. Maj. Op. at 30 n.24; Binderup, 836 F.3d at
353 (Ambro, J., controlling opinion). This is true even
for preliminary injunctions. Gonzales v. O Centro
Espirita Beneficente Uniao do Vegetal, 546 U.S. 418,
429 (2006). It must prove that the Act advances a
substantial governmental interest. Marzzarella, 614
F.3d at 98. And though we may give some deference to
the legislature’s predictive judgments, those
judgments must rest on real, hard evidence. Compare
Drake, 724 F.3d at 436-37 (“accord[ing] substantial
deference to the [legislature’s] predictive judgments”)
(internal quotation marks omitted), with Frontiero v.
Richardson, 411 U.S. 677, 689-90 (1973) (castigating
government’s
armchair,
supposedly
empirical
reasoning unsupported by “concrete evidence”).
It is not enough to base sex classifications on
armchair reasoning. Frontiero, 411 U.S. at 689-90

App-109
(applying intermediate scrutiny); see VMI, 518 U.S. at
541-43 (same). So that should not be enough for gun
laws either. Almost any gun law would survive an
armchair approach; there are always plausible
reasons to think that limiting guns will hinder
criminals. That starts to look like rational-basis
review.
The government must also prove that its law does
not “burden more [conduct] than is reasonably
necessary.” Marzzarella, 614 F.3d at 98. To be sure,
intermediate scrutiny does not demand the least
restrictive means possible. But the government may
not impair a constitutional right simply because doing
so is convenient. McCullen v. Coakley, 134 S. Ct. 2518,
2534 (2014). It must make some showing that
alternatives will not work. Id. at 2540. True
intermediate scrutiny thus requires proof of tailoring.
So we must require that the government
introduce substantial proof. We may not reflexively
defer to its justifications. And we must look for
tailoring. None of these requirements is met here.
B. The government has not met its burden
of proof
New Jersey has not met its burden to overcome
intermediate scrutiny, let alone strict scrutiny. True,
the government has a compelling interest in reducing
the harm from mass shootings. No one disputes that.
But New Jersey has failed to show how the ban
advances its interest. Nor does it provide evidence of
tailoring.
1. The record lacks evidence that magazine
restrictions reduce mass-shooting deaths. This record
lacks any evidence tying that interest to banning large

App-110
magazines. The reader could be forgiven for any
surprise at that statement: the majority acts as if the
record abounds in this evidence. But that is not what
the District Court found. That Court offered three
rationales for upholding the ban. None of them
withstands scrutiny.
First, the District Court, like the majority here,
reasoned that people can still own many, smaller
magazines. 2018 WL 4688345, at *13. But Heller
rejected that very argument. See 554 U.S. at 629.
Second, the District Court stressed its deference
to the legislature’s judgment about the local needs of
densely populated urban states. 2018 WL 4688345, at
*13. In doing so, it relied not on the majority opinion
in Heller but on Justice Breyer’s dissent. Id. (quoting
554 U.S. at 705 (Breyer, J., dissenting)). That citation
alone shows how the deferential decision below
conflicts with our governing instructions from above.
Third, the District Court detailed the testimony
and evidence of all four expert witnesses. But it then
“f[ou]nd the expert testimony is of little help in its
analysis.” Id. at *8. It found that evidence “of little
help” in figuring out how the law would impair selfdefense and how it would reduce the harm from mass
shootings. Id. So none of this satisfied the
government’s burden of proof.
The only expert finding on which the District
Court could rely was a vague and general one: “[T]he
expert testimony established that there is some delay
associated with reloading, which may provide an
opportunity for potential victims to escape or for a
bystander to intercede and somehow stop a shooter.”
Id. at *12. In other words, it rested on the armchair

App-111
proposition that smaller magazines force shooters to
pause more often to reload. When shooters must
reload, potential victims should have more chances to
escape or tackle the shooter. This speculation is
plausible. But the Court cited no concrete causal link
between that plausible speculation and its effect on
mass-shooting deaths.
So with no support from the District Court, the
majority digs through the record to link large
magazines with the harm from mass shootings. By
construing a record that the District Court found
unhelpful in favor of the government, the majority
effectively flips the burden of proof onto the
challengers. It cites many portions of the record never
mentioned by the District Court. It details the rise of
mass shootings. It cites reports of mass shootings to
show that people can escape when the shooter stops
shooting. And it quotes a police chief as evidence that
smaller magazines require more reloading.
The District Court was admirably clear about the
state of the record. It did not rely on any of this
“anecdotal evidence.” Compare 2018 WL 4688345, at
*3 (noting “anecdotal evidence”), with id. at *12 (not
relying on it). And rightly so. The majority cannot tell
us how many mass shooters use large magazines. It
cannot tell us how often mass shooters use magazines
with ten to fifteen rounds. And it cannot tell us any
specifics about the increase in reload time. In short,
the majority has no record citation, let alone evidence
relied on by the District Court, that specifically links
large magazines to mass-shooting deaths.
It has no citation because there isn’t one. The
government’s own experts never examined the causal

App-112
link between these magazines and crime. Its best
evidence came from a lone CNN article that mentioned
a study linking large magazines to mass shootings.
But the government never introduced the actual
study, the expert, or the underlying data. Nor was the
study ever peer-reviewed. Without examination or
cross-examination of the study, we cannot rely on it.
So to link reports of mass shootings to generalities
about reload times, the majority resorts to saying:
“[T]here is some delay associated with reloading,
which may provide an opportunity for potential
victims to escape or for a bystander to intercede.” Maj.
Op. at 29-30 (quoting 2018 WL 4688345, at *12). With
no support for this analysis, the majority’s case thus
boils down to the same armchair reasoning that the
District Court relied on, plus some “anecdotal
evidence.” 2018 WL 4688345, at *3. Though the
majority insists otherwise, finding for the government
on this basis alone effectively flips the burden of proof.
Maj. Op. at 30 n.24. And the majority offers no limiting
principle: its logic would equally justify a one-round
magazine limit.
This reasoning would be enough for rational-basis
review. And it could be enough for intermediate
scrutiny too. But the government has produced no
substantial evidence of this link. It could compile that
evidence by, for example, studying other jurisdictions
that have restricted magazine size. Until it does so, we
should grant the preliminary injunction.
2. There is no evidence of tailoring. The majority
does not even demand evidence of tailoring. But
tailoring is not limited to the First Amendment, as our
precedent makes clear. Marzzarella, 614 F.3d at 98.

App-113
Tailoring is fundamental to intermediate scrutiny,
wherever applied. McCullen, 134 S. Ct. at 2534; Caban
v. Mohammed, 441 U.S. 380, 392 & n.13 (1979)
(illegitimacy).
If anything, the evidence shows that other
effective laws are already on the books. In a footnote,
the majority suggests that these other laws prove
tailoring. Maj. Op. at 36-37 n.28. But far from it. If
other laws already restrict guns, New Jersey has to
show that the laws already on the books will not
suffice. See McCullen, 134 S. Ct. at 2538-39. It has not
done so.
To start, since 1990 New Jersey has banned
magazines that hold more than fifteen bullets. The
ban affects everyone. The challengers do not contest
that ban. And there is no evidence of its efficacy, one
way or the other. Though the government cites mass
shootings involving large magazines, these shooters
often used magazines with thirty or more rounds. So
we do not know if a ten-round limit is tailored.
New Jersey also has a may-issue permitting law,
requiring people to show a “justifiable need” before
they may carry handguns outside the home. Drake,
724 F.3d at 428. We have upheld that law. Id. at 440.
So the only people who can carry large magazines
outside the home are those who face “specific threats
or previous attacks which demonstrate a special
danger” to their lives. Id. at 428 (quoting N.J. Admin.
Code § 13:54-2.4(d)(1)). This limited universe of people
includes abused women, those being stalked, and
those fleeing gangs. Banning large magazines thus
harms those who need the Second Amendment most.

App-114
Given its may-issue law, the government offers
nothing to explain why this added ban is necessary, let
alone tailored to its interests. If only those with a
justifiable need can carry these magazines, why is
New Jersey’s law not tailored enough already? The
government’s only answer is that the may-issue
requirement does not currently extend to the home.
And the majority’s only response is that many
previously law-abiding citizens commit crime. But
these arguments run up against strict scrutiny in the
home. At most, they would warrant extending a mayissue permit requirement to the home, rather than
banning large magazines entirely. And once again, the
majority lacks a limiting principle: since anyone could
commit crime, the government could forbid anyone to
have a gun.
3. The majority muddles defensive gun uses.
Instead of a real tailoring analysis, the majority again
demands evidence of how often people use large
magazines for self-defense. But tailoring does not
depend on how many times a right is impaired.
The majority cannot even decide what the
evidence shows. In places, it concedes that large
magazines “have also been used for self-defense.” Maj.
Op. at 10; accord id. at 21. If so, this undercuts the
ban. Elsewhere, it notes that the record is unclear on
how often people shoot more than ten rounds in selfdefense. Maj. Op. at 10 & n.8; accord id. at 33-34 n.27.
If so, then New Jersey has not borne its burden of
proof. Relying on unclearness amounts to flipping the
burden of proof onto the challengers. Lastly, the
majority most often concludes—even in the same
breath—that large magazines are not appropriate for

App-115
self-defense. Maj. Op. at 10-11, 23. But that is not
what the District Court found. That Court specifically
observed that the evidence “failed to clearly
convey . . . the extent to which the law will impede gun
owners from defending themselves.” 2018 WL
4688345, at *8. These contradictory assertions cannot
bolster the law, nor satisfy the government’s burden of
proof.
4. The majority’s watered-down “intermediate
scrutiny” is really rational-basis review. This law
would never survive the intermediate scrutiny applied
by the Supreme Court in speech or sex-discrimination
cases. Those cases demand compelling evidence and
tailoring. See McCullen, 134 S. Ct. at 2534; VMI, 518
U.S. at 524.
In a footnote, the majority candidly admits that it
is not applying intermediate scrutiny as we know it. It
concedes that its approach does not come from the
First Amendment or the Fourteenth Amendment (or
any other constitutional provision, for that matter).
Maj. Op. at 34-35 n.28. It offers only one reason: guns
are dangerous. Id. (quoting and relying on the Tenth
Circuit’s decision in Bonidy, 790 F.3d at 1126). But as
Heller explained, other rights affect public safety too.
The Fourth, Fifth, and Sixth Amendments often set
dangerous criminals free. The First Amendment
protects hate speech and advocating violence. The
Supreme Court does not treat any other right
differently when it creates a risk of harm. And it has
repeatedly rejected treating the Second Amendment
differently from other enumerated rights. Heller, 554
U.S. at 634-35; McDonald, 561 U.S. at 787-91. The
Framers made that choice for us. We must treat the

App-116
Second Amendment the same as the rest of the Bill of
Rights.
So the majority’s version of intermediate scrutiny
is too lax. It cannot fairly be called intermediate
scrutiny at all. Intermediate scrutiny requires more
concrete and specific proof before the government may
restrict any constitutional right, period.
*****
I realize that the majority’s opinion aligns with
those of five other circuits. But Heller overruled nine,
underscoring our independent duty to evaluate the
law ourselves. And unlike most other states, New
Jersey has layered its law on top of not only a previous
magazine restriction, but also a may-issue permit law
that greatly limits public carrying. Those laws may
have prevented or limited gun violence. That cuts
against the law’s necessity and its tailoring.
The majority’s concerns are understandable.
Guns kill people. States should be able to experiment
with reasonable gun laws to promote public safety.
And they need not wait for mass shootings before
acting. The government’s and the majority’s position
may thus be wise policy. But that is not for us to
decide. The Second Amendment is an equal part of the
Bill of Rights. And the Supreme Court has repeatedly
told us not to treat it differently.
So we must apply strict scrutiny to protect
people’s core right to defend themselves and their
families in their homes. That means holding the
government to a demanding burden of proof. Here, the
government has offered no concrete evidence that
magazine restrictions have saved or will save

App-117
potential victims. Nor has it made any showing of
tailoring.
I would thus enjoin the law and remand to let the
government provide evidence that the Act will
advance its interests and is tailored to do so. On
remand, the government would be free to introduce
real studies of any causal evidence that largemagazine limits prevent harm from mass shootings or
gun violence in general. It could also introduce proof
of tailoring and discuss its existing laws and
alternatives. The challengers could try to rebut those
studies. And we could then find whether the
government has met its burden to justify this law. But
it has not yet done that. So the law may well
irreparably harm the challengers by infringing their
constitutional rights. I respectfully dissent.

App-118
Appendix E
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF NEW JERSEY
________________
No. 3:18-cv-10507
________________
ASSOCIATION OF NEW JERSEY RIFLE AND PISTOL
CLUBS INC., et al.,
v.

Plaintiffs,

GURBIR GREWAL, et al.,
Defendants.
________________
Filed: Sept. 28, 2018
________________
MEMORANDUM & ORDER
________________
SHERIDAN, U.S.D.J.
Presently before the Court is Plaintiffs’ Motion for
a Preliminary Injunction, (ECF No. 7), seeking to
enjoin the enforcement of a recently enacted New
Jersey statute, L. 2018, c. 39 § 1, which reduces large
capacity magazines from fifteen rounds of
ammunition to ten. (hereinafter, “Large Capacity
Magazine [LCM]” law). Specifically, Plaintiffs contend
the LCM law is unconstitutional, under the Second,
Fifth, and Fourteenth Amendments. New Jersey
contends that because large capacity magazines do not
fall within the Second Amendment’s protections, the
LCM law is lawful, and alternatively that the LCM

App-119
law nevertheless reasonably fits to accomplish a
significant governmental interest. The government
also contends that the law does not constitute an
unconstitutional taking without compensation. For
the reasons set forth herein, Plaintiffs’ motion is
denied.
BACKGROUND
Our country is facing a significant and
widespread problem concerning the prevalence of
mass shootings and it pits the rights of gun owners
against the governmental objective of ensuring public
safety. Various state and federal legislatures have
proposed solutions, including expanding mental
health services, increasing security in public places,
banning certain types of guns and restricting
ammunition, and others; but no one solution itself will
ends mass shootings. The question before this Court
concerns the constitutionality of New Jersey’s
restriction on the legal capacity of a magazine. New
Jersey contends this law will mitigate death tolls
during mass shootings by requiring shooters to
reload more often, creating additional opportunities
for escape and for bystanders or law enforcement to
stop the shooter. See Brief of Defendants in
Opposition to Preliminary Injunction, at 2, 22.
On June 13, 2018, New Jersey strengthened its
already robust gun laws by enacting the LCM law,
which makes it unlawful for any person in New Jersey,
with certain exceptions, 1 to possess any firearm
magazines that are capable of holding more than ten
rounds of ammunition. In doing so, New Jersey joins
1

The most notable exception applies to retired police officers.

App-120
California,
Connecticut,
Hawaii,
Maryland,
Massachusetts, and New York, which have all enacted
similar statutes restricting the possession and sale of
firearm magazines to ten rounds. 2
A subsection of the New Jersey Criminal Code,
which preexists the law at issue, provides, with some
exceptions, “Any person who knowingly has in his
possession a large capacity ammunition magazine is
guilty of a crime of the fourth degree.” N.J.S.A. 2C:393(j). The new law defines “[l]arge capacity ammunition
magazine” as ‘‘a box, drum, tube or other container
which is capable of holding more than 10 rounds of
ammunition to be fed continuously and directly
therefrom into a semi-automatic firearm,” N.J.S.A.
§ 2C:39-1(y), a reduction from the 15-round-restriction
under the pre-amendment definition, N.J.S.A.
§ 2C:39-1(y) (1990). 3
The law also provides a six-month grace period for
owners of the now-banned magazines to come into
compliance, providing them with one of three options:
(1) “[t]ransfer the semi-automatic rifle or magazine to
any person or firm lawfully entitled to own or possess
that firearm or magazine”; (2) “[r]ender the semiautomatic rifle or magazine inoperable or
permanently modify a large capacity ammunition
magazine to accept 10 rounds or less”; or
See Cal. Penal Code §§ 16740, 32310; Conn. Gen. Stat. § 53202w; Haw. Rev. Stat. Ann. § 134-8(c); Md. Code Ann., Crim. Law
§ 4-305(b); Mass. Gen. Laws ch. 140, §§ 121, 131; N.Y. Penal Law
§§ 265.00(23), 265.02(8), 265.11.
2

3 The definition does not apply to “an attached tubular devise
which is capable of holding only .22 caliber rimfire ammunition.”
N.J.S.A. § 2C:39-1(y).

App-121
(3) “[v]oluntarily surrender the semi-automatic rifle or
magazine.” Id. at § 5. The law exempts firearms “with
a fixed magazine capacity holding up to 15 rounds
which [are] incapable of being modified to
accommodate 10 or less rounds” and firearms ‘‘which
only accept[] a detachable magazine with a capacity of
up to 15 rounds which [are] incapable of being
modified to accommodate 10 rounds or less.” N.J.S.A.
2C:39-20(a). Owners of such a firearm may lawfully
retain the high-capacity magazine if they “register
that firearm within one year from the effective date.”
Id. Individuals who fail to timely dispossess or modify
the LCM potentially face a maximum sentence of 18
months’ imprisonment and a fine of $10,000. See
N.J.S.A.
§ 2C:39-3(j);
N.J.S.A.
§ 2C:43-3(b)(2);
N.J.S.A. § 2C:43-6(a)(4).
As noted above, the LCM law also sets forth
several statutory exceptions for individuals who may
possess a magazine holding more than 10 rounds.
First, active and retired law enforcement officers are
entitled to possess and carry magazines capable of
holding up to fifteen rounds of ammunition. See L.
2018, c. 39 §§ 2-3. In addition, actors may possess
these magazines as movie or television props, so long
as “the large capacity ammunition magazine has been
reconfigured to fire blank ammunition and remains
under the control of a federal firearms license holder.”
Id. at § 4. While the law also recognizes exceptions for
licensed retail and wholesale firearms dealers,
N.J.S.A. 2C:39-3(g)(3), no exceptions exist for active or
former servicemen; security guards and armored
vehicle employees; or firearms instructors.

App-122
Notably, New Jersey’s LCM law does not prevent
ownership of any type of gun and does not restrict the
quantity of ammunition a gun owner may possess. It
merely restricts the quantity of bullets a magazine
may hold. To illustrate, a citizen who owns a gun,
thirty rounds of ammunition, and two fifteen-round
magazines prior to the LCM law’s enactment will be
permitted to retain his gun, ammunition, and three
ten-round magazines. The LCM law restricts the
amount of ammunition one magazine can hold.
On the same day that New Jersey enacted the
LCM law, Plaintiffs filed the present lawsuit, seeking
its invalidation. Plaintiff New Jersey Rifle and Pistol
Clubs, Inc. (“NJRPC”) is an eighty-year old
membership organization, representing tens of
thousands of members, many of whom possess large
capacity magazines for self-defense. (Complaint at
¶¶ 9, 45). Plaintiff Blake Ellman is a law-abiding
citizen of New Jersey and member of the NJRPC;
however, he is not a retired law enforcement officer
and, therefore, does not fall within the LCM law’s
limited exceptions. (Id. at ¶ 36). Ellman is a firearms
instructor, range safety officer, armorer, and
competitive shooter and currently possesses
magazines that would qualify as “large capacity
ammunition magazines” under the new law. (Id. at
¶¶ 36-37). Plaintiff Alexander Dembowski is also a
law-abiding citizen of New Jersey and member of the
NJRPC; he is not a retired law enforcement officer, but
did serve in the United States Marine Corps for four
years, before retiring from service. (Id. at ¶¶ 39-40).
While in the Marines, Dembowski received annual
training on firearms and magazines and served as a
Combat Marksmanship Instructor. (Id. at ¶ 40).

App-123
Presently, Dembowski serves as a Chief Range Safety
Officer at a gun range in New Jersey, where he
routinely trains individuals using a fifteen-round
magazine. (Id. at ¶ 41). Like Ellman, Dembowski
currently possesses “large capacity ammunition
magazines” for defense of his home. (Id. at ¶ 42).
Plaintiffs bring this present action as a facial
challenge under 42 U.S.C. § 1983, seeking a
declaratory judgment that New Jersey’s LCM law
violates New Jersey citizens’ constitutional right to
keep and bear arms under the Second and Fourteenth
Amendment and nevertheless constitutes an unlawful
taking of property, contrary to the Fifth and
Fourteenth Amendments.
Mass Shootings in the United States
There is anecdotal evidence that some mass
shootings reveal clear examples in which lives may
have been saved because a shooter needed to reload.
Between
1984
and
1993,
LCM-equipped
semiautomatic weapons were used in 40 percent of
mass shootings where six or more people were killed
or a total of 12 or more people were wounded. (Joint
Exhibit 14, at 14). In 1994, the year the federal LCM
ban 4 went into effect, LCM-equipped guns were
estimated to have been used in between 31 percent
and 41 percent of gun murders of police officers. (Id. at
18).
During a January 8, 2011 mass shooting, a
gunman wielding a Glock G19 semiautomatic pistol,
two thirty-one-round magazines, and two fifteenround magazines shot and killed six individuals,
4

See infra, p. 8

App-124
including United States District Judge John Roll, and
wounded thirteen individuals, including United
States
Representative
Gabrielle
Giffords.
(Defendants’ Exhibit 83, at 3; Defendants’ Proposed
Findings of Fact, at ¶ 52). The thirteenth shot fired
from one of the gunman’s thirty-one-round magazines
killed Christina-Taylor Green, a nine-year-old girl.
(Defendants’ Exhibit 23, Donohue Declaration, at
¶ 50). When the shooter paused to reload, several
bystanders subdued him. (Id.).
In 2011, an individual purchased various firearms
in Texas, which does not limit magazine capacity, and
specifically requested the highest capacity magazines
available. Defendants’ Exhibit 23, Donohue
Declaration, at ¶ 37). That year, in Fort Hood, he used
LCM-equipped semiautomatic pistols to kill thirteen
people and wound thirty-two in a mass shooting. Id.
Also, during a September 16, 2013 mass shooting
at the District of Columbia’s Navy Yard, a shooter
used a seven-round shotgun to kill twelve people and
injure several more. (Defendants’ Exhibit 83, at 2).
Although that shooter did not use a high-capacity
magazine, there is evidence that he spotted a woman
hiding next to a filing cabinet, approached her, and
pulled the trigger. (Defendants’ Exhibit 63 at 7). The
gun—out of ammunition—did not fire and the shooter
retreated, permitting the woman to escape. Id.
The Court also notes that a declaration provided
by Baltimore County Police Chief Jim Johnson
claimed that during the mass shooting at Sandy Hook
Elementary School in Connecticut in 2012, multiple
potential victims escaped harm while the shooter

App-125
paused to reload. (Defendants’ Exhibit 59, Jim
Johnson Declaration, at ¶ 55).
New Jersey was also the site of a recent mass
shooting at a June 10, 2018 art festival in Trenton.
The shooting—suspected to be gang-related—caused
seventeen gunshot injuries and one death. Sophie
Nieto-Munoz & Paige Gross, Trenton Shooting:
Suspected Gunman Killed at Art All Night was Gang
Member with Violent Past, NJ.com, June 17, 2018,
www.nj.com/index.ssf/2018/06/art_ all_ night_ trenton
shooting.html. According to news stories, law
enforcement seized multiple weapons from the scene
including a handgun with a high capacity magazine.
Luis Ferre-Sadurni & Mihir Zaveti, Mass Shooting at
New Jersey Arts Festival Leaves 22 Injured and 1
Dead, The New York Times, June 17, 2018,
www.njtimes.com/2018/06/17/nyregion/trenton-massshooting.html; Kristine Phillips, Gang Fistfight
Escalated into a Mass Shooting at New Jersey Arts
Festival, Prosecutor Says, The Washington Post, June
18, 2018, www.washingtonpost.com/news/post-nation/
wp/2018/06/17/suspect-killed-at-least-20-injured-inshooting-at-new-jersey-arts-festival.
History and Tradition of LCM Restrictions
Much of the legal history and tradition of LCM
restrictions in the United States is relatively recent
and evolving. The first rifle to achieve mass-market
success in the United States was in 1866. (Joint
Exhibit 12, at 1-2). The popularity of such firearms
expanded in the twentieth century, and the first
handgun to achieve mass-market success did so in
1935. (Id. at 9). State-law restrictions on the
possession, use, sale, and purchase of weapons based

App-126
on the number of rounds they could fire without
needing to reload corresponded with the increased
use. See 1927 R.I. Pub. Laws 256 §§ l, 4 (banning
firearms “which shoot[] more than twelve shots semiautomatically without reloading; 1933 Cal. Stat. 1170,
§ 3 (banning “all firearms which are automatically fed
after each discharge from or by means of clips, discs,
drums, belts or other separable mechanical device
having a capacity of greater than ten cartridges”);
1927 Mich. Pub. Acts 887, § 3 (prohibiting possession
of “any machine gun or firearm which can be fired
sixteen times without reloading”); 47 Stat. 650,
ch. 465, §§ 1, 14 (1932) (prohibiting weapons capable
of firing twelve or more times without reloading
(including semiautomatic firearms) from the District
of Columbia); 1933 S.D. Sess. Laws 245 § 1 (banning
machine guns that could fire more than five rounds
without reloading); 1933 Tex. Gen. Laws 219 § 1
(same); 1931 Ill. Laws 452 § 1 (banning machine guns
that could fire more than eight rounds without
reloading); 1932 La. Acts 336 § 1 (same); 1934 S.C.
Acts 1288 § 1 (same).
For the majority of the twentieth century, the
handgun most commonly owned by Americans was the
revolver, which can hold six rounds of ammunition.
(Defendant’s Exhibit 103). Between 1980 and 1991,
semiautomatic pistols became the dominant handgun.
Defendants’ (Exhibit 69). Two states—New Jersey and
Hawaii—responded to this trend by restricting
magazine capacity to fifteen and ten rounds
respectively. See L. 1990, c. 32; Haw. Rev. Stat. Ann.
§ 134-(8). In 1994, the federal government enacted a
ban on the possession of certain assault weapons and,
in doing so, prohibited the possession or transfer of

App-127
LCMs capable of holding more than ten rounds of
ammunition. Pub. L. 103-322, § 110103 (Sep. 13,
1994). The law however did not apply to “the
possession or transfer of any large capacity
ammunition feeding device otherwise lawfully
possessed on or before the date of the enactment of”
the federal ban. P.L. 103-322, § 110103(a). In 2004, in
accordance with the statute’s sunset provision, the law
expired after Congress declined to reauthorize it.
Additionally,
nine
states
have
enacted
restrictions on magazine capacity; seven of those
restricting magazines to ten rounds or less. See Cal.
Penal Code §§ 16740 (ten rounds); Conn. Gen. Stat.
§ 53-202w (ten rounds); D.C. Code Ann. § 7-2506.01(b)
(ten rounds); Haw. Rev. Stat. Ann. § 134-8(c) (ten
rounds); Md. Code Ann., Crim. Law § 4-305(b) (ten
rounds); Mass. Gen. Laws ch. 140 §§ 121; 131M (ten
rounds); N.J. Stat. Ann. § 2C:39-1(y) (ten rounds);
N.Y. Penal Law §§ 265.00(23) (ten rounds); 13 Vt.
Stat. Ann. § 4021(e)(1)(A), (B) (ten rounds for a “long
gun” and fifteen rounds for a “hand gun”); Colo. Rev.
Stat. § 18-12-301(2)(a)(I) (fifteen rounds). And, several
localities across the country have enacted restrictions
on magazine capacity. San Francisco (Cal.) Ord. § 24913 (ten rounds); Sunnyvale (Cal.) Municipal Code
§ 9.44.030-60 (ten rounds); Highland Park (Ill.)
Municipal Code § 136.001 (ten rounds); Oak Park (Ill.)
Village Code Ch. 27 § 1 (ten rounds).
Expert Evidence

To better assess the credibility of the evidence
presented by the parties, the Court held a three-day
hearing on August 13, 16, and 17, 2018. Defendants
presented Lucy Allen, Glenn Stanton, and John

App-128
Donohue as expert witnesses; Plaintiffs presented
Gary Kleck. 5 Thereafter, the parties submitted findings
of facts and conclusions of law on September 4, 2018;
closing arguments were made on September 6, 2018.
a.

Lucy P. Allen

Lucy Allen is an economist and the Managing
Director of NERQA Economic Consulting, Inc., which
provides economic advice for complex business and
legal issues arising from competition, regulation,
public policy, strategy, finance, and litigation.
(Defendants’ Exhibit 3, “Allen Declaration” at ¶ 2).
Allen holds an A.B. from Stanford University, and an
M.B.A., M.A., and M. Phil. Degrees in Economics from
Yale University. (Id. at ¶ 4). Allen has provided expert
reports in several other cases involving the reduction
of large capacity magazines.
In her declaration, Allen stated that it is rare for
an individual, in self-defense, to fire more than ten
rounds. (Id. at ¶ 10). Relying on data from the NRA
Armed Citizen database, from January 2011 to May
2017, Allen concluded that “[self-]defenders fired 2.2
shots on average.” (Id.). Notably, out of the 736
reported incidents—411 of which occurred in the
home—there were only two incidents where the selfdefender was reported to have fired more than 10
bullets. (Id.). In another study, Allen used Factiva, an
online news reporting service that aggregates news
content from nearly 33,000 sources, to compare her
findings from the NRA Armed Citizen database. (Id.
5 It should be noted that the parties stipulated that the experts’
respective declarations were deemed admitted as direct
examination testimony, as such; only cross- and re-direct
examinations were conducted at the hearing.

App-129
at ¶ 13). Using specific string searches, Allen searched
the database for stories that reported the number of
rounds fired by self-defenders. (Id.). 6 Consistent with
the NRA Armed Citizen database, Allen’s Factiva
analysis reported that “the average number of shots
fired per incident covered is 2.34.” (Id. at ¶ 17). In
addition, “[i]n 97.3% of incidents the defender fired 5
or fewer shots. There were no incidents where the
defender was reported to have fired more than 10
bullets.” (Id. at ¶ 18).
Lastly, Allen performed an analysis on the use of
LCMs in mass shootings, relying on data from a
Mother Jones investigation, which covered mass
shootings from 1982 to 2017, and a study by the
Citizens Crime Commission of New York City, which
covered mass shootings from 1984 to 2012. (Id. at
¶ 20). Based on the combined data from these two
sources, Allen concluded that LCMs, which she
defined as magazines capable of holding more than ten
rounds, were known to have been used in 54 out of 83
mass shootings, where the magazine capacity was
reported. (Id. at ¶ 22). In addition, when comparing
the number of casualties involved in mass shootings
where LCMs are used with those without, the number
of casualties was significantly higher in shootings
where LCMs were used. (Id. at ¶ 24). Specifically, the
average number of fatalities or injuries per mass
shooting involving an LCM was 31, as compared to 9
without LCMs. (Id.).
6 The precise string searches used were: “(gun* or shot* or
shoot* or fire* or arm*) and (‘broke in’ or ‘break in’ or ‘broken into’
or ‘breaking into’ or burglar* or intrud* or inva*) and (home* or
‘apartment’ or ‘property’).” (Id. at ¶ 13 n.5).

App-130
On
cross-examination,
Plaintiffs
focused
primarily on the reliability, or lack thereof, of the data
Allen used in preparing this declaration. Allen
conceded that the NRA Armed Citizen Database is not
a scientific study and is not representative of overall
statistics on the use of arms in self-defense. (P.I.
Hearing at 1T20:19 to 21). She also conceded that her
analysis of Factiva data could have excluded defensive
gun use incidents among residents of the same home
and that her search criteria omitted some important
terms. (Id. at 32:19 to 33:10). She admitted there were
problems with the Mother Jones study relating to the
definition of mass shooting. For example, the study
claimed to rely on only mass shootings involving a lone
gunman but included various mass shootings that
involved multiple shooters, including Columbine High
School, San Bernardino, and Westside Middle School.
(Id. at 1T43:24 to 46:19; 52:15 to 53:19). Plaintiff’s
counsel showed Allen an exhibit showing that the
Mother Jones study omitted over 40% of mass
shooting cases. (Id. at 1T54:25 to 55:24). Finally, Allen
admitted that none of the studies she relied upon set
forth any evidence that LCMs caused mass shootings
or that mass shootings would not have occurred if
smaller magazines were required. (Id. at 1T60:17 to
20).
b.

Glenn L. Stanton

Glenn Stanton is an expert in the use of firearms
and is currently a State Range Master for the New
Jersey Office of the Attorney General, Division of
Criminal Justice. (Defendants’ Exhibit 98, “Stanton
Declaration” at ¶ 3). Prior to working for the State,
Stanton was the Principal Firearms Instructor for the

App-131
Federal Bureau of Investigations’ New York Office,
from 1992 until 2011. (Id. at ¶ 6). From 1978 to 1982,
Stanton was a police officer for the Princeton, New
Jersey Police Department. (Id. at ¶ 7).
Stanton’s declaration provides a police officer’s
perspective on the use of LCMs. According to Stanton,
both active and retired police officers are required to
pass the Handgun Qualification Course and the Night
Handgun Qualification Course bi-annually. (Id. at
¶¶ 17-18). In performing these tests, officers use their
standard issued weapon, which is a 9-millimeter Glock
19, equipped with a 15-round magazine. (Id. at ¶ 19).
According to Stanton, the firearms training required
in New Jersey is enforced upon all individuals; as
such, “[i]ndividuals with military backgrounds are not
exempted from the firearms training . . . because the
firearms training military recruits receive is vastly
different than what is required of recruits in the police
academy.” (Id. at ¶ 22). In fact, unlike military
recruits, who receive little, if any, handgun training,
law enforcement officers are required to undergo
extensive handgun training. (Id. at ¶ 23). Moreover,
Stanton discussed the advantages of law enforcement
using LCMs: “gunfights are highly stressful
situations. Accordingly, officers go through rounds
quickly. [LCMs] are advantageous and necessary for
law enforcement officers because it reduces their need
to reload.” (Id. at ¶ 25). These advantages are lost,
however, when these same LCMs are possessed by
individuals that are committing crimes. (Id. at ¶ 26).
In addition, given that gunfights are unpredictable,
and at the discretion of the aggressor, Stanton
stressed that “law enforcement officers need every
advantage they can get.” (Id. at ¶ 27).

App-132
Stanton testified on cross-examination that a
civilian is less likely than a law enforcement officer to
possess more than one magazine and that civilians
have “lower hit rates,” which suggests that law
abiding citizens would benefit from large capacity
magazines. (P.I. Hearing, at 2T78:16 to 79:5; 83:2 to
6). He nonetheless maintained that he was unaware of
a situation in which someone used greater than ten
rounds of ammunition in self-defense.
Stanton also testified that military servicepersons
do not receive handgun training, likely because the
military serves a different role than law enforcement.
However, he admitted he was unfamiliar with current
statistics regarding military training and that there is
no difference in training based on magazine size. (Id.
at 75:11 to 15).
c.

John J. Donohue

Professor Donohue is an expert in empirical
research and currently teaches courses on empirical
law and economics at Stanford Law School.
(Defendants’ Exhibit 23, “Donohue Declaration” at
¶ 3). Professor Donohue received his J.D. from
Harvard Law School and holds a Ph.D. in economics
from Yale University. (Id.). In addition to teaching at
Stanford, Professor Donohue is a member of the
Committee on Law and Justice of the National
Research Council, which “reviews, synthesizes, and
proposes research related to crime, law enforcement,
and the administration of justice, and provides an
intellectual resource for federal agencies and private
groups.” (Id. at ¶ 6). Like Allen, Professor Donohue
has provided expert declarations in several cases

App-133
involving Second Amendment challenges to laws
restricting the possession of LCMs.
According to Professor Donohue, LCM bans have
little to no effect on an individual’s ability to possess
weapons for self-defense purposes but would “have a
restraining impact on the effectiveness of those who
have the criminal intent to kill as many individuals as
possible.” (Id. at ¶ 12). Moreover, having reviewed
mass shootings involving LCMs, Professor Donohue
concluded, “bans on [LCMs] can help save lives by
forcing mass shooters to pause and reload
ammunition.” (Id. at ¶ 30). In fact, since 1991, at least
twenty shooting attempts were stopped, or the harm
was curtailed, when bystanders were able to subdue
the perpetrator while he reloaded his weapon. (Id.).
For instance, during the tragic Newtown shooting,
nine children were able to escape gunfire, while the
assailant reloaded his gun. (Id. at ¶¶ 30, 50). More
recently, in April 2018, in Nashville, Tennessee, a man
opened fire into a Waffle House, killing four and
wounding another seven. (Id. at ¶ 31). However, the
shooting was cut short when a customer apprehended
the assailant while he tried to reload his weapon.
(Id.). 7 As such, Professor Donohue reasoned, “[w]hen
shooters stop to reload, they are overtaken by citizens,
shot by police, or provide opportunities for escape, all
of which government policy should seek to facilitate.

7 It should be noted that the parties dispute whether the
shooter was apprehended while reloading his gun or, as Plaintiffs
contend, the shooter’s gun jammed. In any event, the point—as
the Court sees it—is that the LCM law invites more opportunities
to hinder mass shooting events.

App-134
The lower the size of the magazine, the more reloading
must take place in mass shooting situations.” (Id.).
Professor Donohue also noted that the use of
LCMs for self-defense purposes is “extremely rare.”
(Id. at ¶ 43). According to Donohue, “the vast majority
of the time that an individual in the United States is
confronted by violent crime, they do not use a gun for
self-defense.’’ (Id.). Specifically, based on data
collected from the National Crime Victimization
Survey,
from
2007
through
2011—when
approximately 6 million violent crimes were
committed each year—99.2% of victims were unable to
defend themselves with a gun. (Id.). Even when guns
are used for self- defense purposes, the defender rarely
fires any rounds. (Id. at ¶ 44). In fact, in 98% of
defensive gun use cases, people simply brandish the
weapon to stop the attack. (Id.).
On cross-examination, Donohue conceded that
there is no empirical data scrutinizing the efficacy of
LCM bans and that none of the studies upon which he
relied considered magazine restrictions. P.I. Hearing,
at 2T167:25 to 168:20. He stated he could “not clearly
credit the [federal LCM] ban with any of the nation’s
recent drop in gun violence.” (Id. at 2T171:16 to 172:1).
He also admitted that the LCM ban will not stop mass
shootings. (Id. at 2T181:17 to 22).
On redirect, Plaintiffs’ counsel showed Donohue a
study, which claimed that during an average mass
shooting “the time it takes to reload a detachable
magazine is no greater than the average time between
shots that the shooter takes anyway when not
reloading.” Id. at 2T220:23 to 221:1 (quoting Joint
Exhibit 10, at 17 (A study conducted by Gary Kleck)).

App-135
Donohue dismissed this claim as “terribly flawed,” and
noted there are several examples that undermined the
claim. (Id. at 2T221:9 to 224:3).
d.

Gary Kleck

Professor Kleck is an expert on violence and gun
control and teaches criminology and criminal justice
at Florida State University. (Joint Exhibit 9, “Kleck
Declaration” at ¶ 9). He holds three degrees from the
University of Illinois and frequently writes about gun
control, gun violence, and mass shootings. (Id. at ¶ 2).
Kleck’s has written six books on the subject and
published several articles, book chapters, book
reviews, and letters. (Id. at p.28 to 37). Like Allen and
Professor Donohue, Kleck las provided expert
testimony in other cases involving LCM bans.
In his declaration, Kleck concluded that New
Jersey’s LCM law “is unlikely to have any detectable
effect on the number of homicides or violent acts
committed with firearms, or the number of persons
killed or injured in violent crimes,” (Id. at ¶ 10); but it
will significantly impair “a crime victim’s ability to
successfully defend against a criminal attack.” (Id. at
¶ 11). Citing the 2008 National Crime Victimization
Survey, Kleck noted that almost 800,000 violent crime
incidents involved multiple offenders (about 25% of all
violent crime incidents). (Id. at ¶ 13). As such, given
the risk of facing multiple offenders, as well as the fact
that defenders tend to miss more shots while firing
under duress, Kleck contended that the LCM law
places law abiding citizens at a distinct disadvantage
in defending themselves. (Id. at ¶¶ 12-13).
Kleck claimed that the LCM law would have an
“inconsequential effect,” since “[m]ass murderers are

App-136
not going to balk at violating laws banning LCMs and
can easily obtain LCMs out of state and illegally bring
them back to New Jersey.” (Id. at ¶ 22). However, “one
of the most important sources of arming criminals in
the United States is ‘law-abiding citizens’ whose guns
are lost and stolen each year”; on an annual basis,
“roughly 400,000 guns move into the hands of
criminals.” (Donahue Declaration at ¶ 61). As such, it
follows that “[t]he more large-capacity magazines in
the hand of law-abiding citizens means the more
large-capacity magazines in the hands of criminals.”
(Id.). More significantly, the majority of shootings that
have taken place in America were perpetuated by
previously law-abiding citizens. (Id.).
Kleck also dismissed the possibility of a mass
shooting assailant being apprehended while
reloading, since “the window of opportunity for such
heroic intervention closes rapidly; it takes two to four
seconds for shooters” to reload. (Kleck Declaration at
¶ 22). However, on cross-examination, Kleck conceded
that he based this assertion on his review of several
Youtube videos and a practical demonstration he
personally conducted. (P.I. Hearing at 3T327:16-24).
Specifically, Kleck relied on demonstrations prepared
by Doug Koenig, an eighteen-time world champion
professional speed shooter. (Id. at 3T325:1-4). In this
video, Koenig performs his magazine reloads in
clinical conditions: alone, perfect weather, and no
distractions. National Shooting Sports Foundation,
Speed Reload: Handgun Technique - Competitive
Shooting
Tips
with
Doug
Koenig
(2011),
https://www.youtube.com/watch?v=ZRCjY-GtROY
(last visited Aug. 28, 2018). In addition, Koenig is seen
wearing a speed shooting gun holster, substantially

App-137
easing his ability to reload his gun. (Id.) In no way
does Koenig’s video accurately depict the type of
conditions that are common during a mass shooting,
where there is chaos, moving targets, and panic. In
fact, Kleck acknowledged that it could take a shooter
as long as twenty seconds to change an LCM under
certain circumstances. (P.I. Hearing at 3T338:17 to
20).
Kleck estimated that around 1993, 2.5 million
annual defensive gun-use incidents occur each year.
(Id. at 3T268:10 to 14). Kleck himself, however,
admitted that his current estimate of annual
defensive gun use events was approximately half of
that 1993 estimate but characterized it as a “guess for
which I had no data at all.” (Id. at 269:10 to 25). Kleck
was unable to explain this inconsistency. He
estimated that approximately thirty percent of
defensive gun use incidents involve only brandishing
the firearm. (Id. at 309:9 to 313:22).
Findings
The Court finds the expert testimony is of little
help in its analysis. Both Allen and Kleck relied upon
questionable data and conflicting studies. For
example; they relied on different definitions of “mass
shooting”; Allen considered a mass shooting to be an
incident in which four or more people were shot,
fatally or non-fatally, while Kleck’s definition included
those with more than six killed or injured victims. See
Kleck Decl., at ¶ 24. Although the Court finds these
witnesses credible, their testimony failed to clearly
convey the effect this law will have on reducing mass
shootings in New Jersey or the extent to which the law
will impede gun owners from defending themselves.

App-138
LEGAL STANDARD
“A preliminary injunction ‘is an extraordinary
remedy . . . which should be granted only in limited
circumstances.”‘ Holland v. Rosen, 277 F. Supp. 3d
707, 724 (D.N.J. 2017) (quoting Am. Tel. & Tel Co. v.
Winback & Conserve Program, Inc., 42 F.3d 1421,
1427 (3d Cir. 1994)). In order to obtain preliminary
injunctive relief, the moving party must demonstrate:
(1) a reasonable probability of success on the merits;
(2) irreparable injury if the requested relief is not
granted; (3) the granting of preliminary injunction will
not result in greater harm to nonmoving party; and (4)
the public interest weighs in favor of granting the
injunction. Reilly v. City of Harrisburg, 858 F.3d 173,
176 (3d Cir. 2017). The Third Circuit recently clarified
the standard for preliminary injunction, “a movant for
preliminary equitable relief must meet the threshold
for the first two ‘most critical’ factors: it must
demonstrate that it can win on the merits (which
requires a showing significantly better than negligible
but not necessarily more likely than not) and that it is
more likely than not to suffer irreparable harm in the
absence of preliminary relief.” Id. at 179. If the moving
party satisfies the first two factors, “a court then
considers the remaining two factors and determines in
its sound discretion if all four factors, taken together,
balance in favor of granting the requested preliminary
relief.” Id.
DISCUSSION
I.

Likelihood of Success on the Merits

Plaintiffs present three separate theories to
support their contention that New Jersey’s LCM law
is unconstitutional. First, Plaintiffs contend that the

App-139
LCM law violates the Second Amendment, since it
unlawfully infringes on their constitutional right to
keep and bear arms. Second, Plaintiffs argue the law
violates the Equal Protection Clause of the Fourteenth
Amendment, since it treats similarly situated people
differently. Finally, Plaintiffs aver that the LCM law
constitutes an Unconstitutional Taking, contrary to
the Fifth and Fourteenth Amendments. The Court
shall address each theory in turn.
1.

Second Amendment

The Second Amendment of the United States
Constitution provides, “A well regulated Militia, being
necessary to the security of a free State, the right of
the people to keep and bear Arms, shall not be
infringed.” U.S. Const. amend. II. In District of
Columbia v. Heller, 554 U.S. 570, 634-35 (2008), the
Supreme Court recognized that the Second
Amendment’s “core protection”· is the “right of lawabiding, responsible citizens to use arms in defense of
hearth and home.” By virtue of the Fourteenth
Amendment, this fundamental right is incorporated
against the states. McDonald v. City of Chicago, 561
U.S. 742, 791 (2010). The Heller Court also noted that
Second Amendment protections are not absolute and
extend only to the sorts of weapons that are in
“common use at the time.” Heller, 554 U.S. at 627
(quoting United States v. Miller, 307 U.S. 174, 179
(1939)). Put differently, “the Second Amendment does
not protect those weapons not typically possessed by
law-abiding citizens for lawful purposes.” Id. at 625.
In addition, these rights are to be tempered with the
“historical tradition of prohibiting the carrying of

App-140
‘dangerous and unusual weapons.”‘ Id. (quoting 4
Blackstone 148-49 (1769)).
In assessing Second Amendment challenges, the
Third Circuit has set forth a two-pronged approach.
See United States v. Marzzarella, 614 F.3d 85, 89
(2010). First, the Court must consider whether “the
challenged law imposes a burden on conduct falling
within the scope of the Second Amendment’s
guarantee.” Id. Second, if the law falls within the
scope of the Second Amendment, the Court must
“evaluate the law under some form of means-end
scrutiny.” Id. The Court considers each prong in turn.
Prong One: Whether Magazines Are Protected Under
the Second Amendment
Here, the threshold inquiry is whether New
Jersey’s LCM law affects conduct that falls within the
scope of the Second Amendment; that is, whether the
magazines are entitled to Second Amendment
protection. Plaintiffs contend that because magazines
constitute “arms,” any laws regulating the size or
capacity of ammunition, including magazines, would,
by necessity, trigger Second Amendment protections.
The government responds, arguing that because
magazines having a capacity of more than ten bullets
constitute “dangerous and unusual weapons,” they are
afforded no protection under the Second Amendment.
As explained in Heller, the Second Amendment
“guarantee[s] the individual right to possess and carry
weapons in case of confrontation.” Heller, 554 U.S. at
592. These protections extend to the “sorts of weapons”
that are “in common use at the time for lawful
purposes like self-defense.” Id at 624 (internal
quotation marks omitted). As such, the Heller Court

App-141
explained that “dangerous and unusual weapons;” as
well as “weapons not typically possessed by lawabiding citizens for lawful purposes” find no protection
under the Second Amendment. Id. at 624-25.
Determining the scope of the Second Amendment
requires a “textual and historical inquiry; if the
government can establish that the challenged law
regulates activity falling outside the scope of the right
as originally understood, then ‘the regulated activity
is categorically unprotected, and the law is not subject
to further Second Amendment review.”‘ Ezell v. City of
Chicago (Ezell II), 846 F.3d 888, 892 (7th Cir. 2011)
(quoting Ezell v. City of Chicago (Ezell I), 651 F.3d 684,
703 (7th Cir. 2011)).
At the outset, the Court notes that “[t]he Second
Amendment protects firearms and the ammunition
and magazines that enable arms to fire.” Duncan v.
Becerra (Duncan I), 265 F. Supp. 3d 1106, 1116-17
(S.D. Cal. 2017), aff’d, Duncan v. Becerra (Duncan II),
2018 WL 3433828 (9th Cir. July 17, 2018); see also
Fyock v. City of Sunnyvale (Fyock II), 779 F.3d 991,
997-98 (9th Cir. 2015); Heller v. District of Columbia
(Heller II), 670 F.3d 1244, 1264 (D.C. Cir. 2014).
“[W]ithout bullets, the right to bear arms would be
meaningless,” and a “regulation eliminating a person’s
ability to obtain or use ammunition could thereby
make it impossible to use firearms for their core
purpose.” Jacton v. City & Cnty. of San Francisco, 746
F.3d 953, 967 (9th Cir. 2014). As such, since
magazines are considered “integral components to the
vast categories of guns,” they ought to be treated as
“arms” for purposes of Second Amendment protection.
Fyock v. City of Sunnyvale (Fyock I), 25 F. Supp. 3d

App-142
1267, 1277 (N.D. Cal. 2014) (citing Heller, 554 U.S. at
581), aff’d, 779 F.3d 991 (9th Cir. 2015).
The government next contends that large capacity
magazines are nevertheless beyond protection by the
Second Amendment since: (1) they are considered
dangerous and unusual weapons and (2) New Jersey
has a longstanding history of regulating such
weapons.
“To measure whether a weapon is dangerous and
unusual, the court looks at whether it is ‘in common
use,’ or whether such weapons are ‘typically possessed
by law-abiding citizens for lawful purposes.”‘ Fyock, 25
F. Supp. 3d at 1275 (quoting Miller, 307 U.S. at 179;
Heller, 554 U.S. at 625). Here, Plaintiffs contend that
magazines holding more than ten rounds are
commonly possessed for self-defense and lawful
purposes and, as such, the prohibition of the same
would impose a substantial burden. In support of their
contention, Plaintiffs note that such magazines are
lawful in 43 States and that there are approximately
133 million such magazines owned throughout the
United States, representing almost half of all
magazines. Plaintiffs also note that two-thirds of
semiautomatic rifles currently listed in Gun Digest, a
popular gun magazine, hold more than ten rounds of
ammunition. Plaintiff’s Ex. 48.
The government, in response, argues that because
these large-capacity magazines are both “dangerous
and unusual” they are not entitled to Second
Amendment protection. The government cites
statistics which represent that the vast majority of
mass shootings involve the use of large capacity
magazines and semi-automatic weapons. (ECF No. 31-

App-143
2, “Allen Declaration” at ¶ 22). In addition, the
government relies principally on the Fourth Circuit’s
decision in Kolbe v. Hogan, 849 F.3d 114, 135 (4th Cir.
2017), which deviates from the Second, Ninth, and
District of Columbia Circuits, by holding that large
capacity magazines are “among the arms that the
Second Amendment does not shield.” In doing so, the
Fourth Circuit disregarded the “common use” test set
forth in Heller and its progeny and created a new test:
“Are the banned assault weapons and large-capacity
magazines ‘like’ ‘M-16 rifles,’ i.e., ‘weapons that are
most useful in military service,’ and thus outside the
ambit of the Second Amendment?” Id. at 136 (quoting
Heller, at 554 U.S. at 627). Framing the inquiry this
way, the Fourth Circuit concluded, “[b]ecause the
banned assault weapons and large-capacity
magazines are clearly most useful in military service,
we are compelled by Heller to recognize that those
weapons and magazines are not constitutionally
protected.” Id. at 137.
Contrary to the government’s assertion, the Court
finds Kolbe’s inquiry to be at odds with Heller’s
“common use” test, which explained that if a weapon
is “typically possessed by law-abiding citizens for
lawful purposes,” it cannot be a “dangerous or unusual
weapon.” Heller, 554 U.S. at 625, 627. In fact, other
circuits that have addressed this issue employ the
“common use” test and conclude that large-capacity
magazines are protected by the Second Amendment.
See, e.g., New York State Rifle & Pistol Ass’n v. Cuomo,
804 F.3d 242, 255-56 (2d Cir. 2015); Fyock II, 779 F.3d
at 998; Heller II, 670 F.3d at 1260-61. Guided by these
decisions, the Court sees no reason to deviate from
employing the “common use” standard. In addition,

App-144
under this standard, the Court is satisfied, based on
the record presented, that magazines holding more
than ten rounds are in common use and, therefore,
entitled to Second Amendment protection. See Heller
II, 670 F.3d at 1261; Duncan, 265 F. Supp. 3d at 111617; Fyock I, 25 F. Supp. 3d at 1276.
The government contends that there is no
evidence suggesting that large capacity magazines are
possessed by law abiding citizens for lawful purposes.
However, this argument fails for several reasons.
First, courts are reluctant to engage in a “typical use”
analysis, since “empirical evidence of lawful
possession for lawful purposes [is] ‘elusive.” New York
State Rifle & Pistol Ass’n, 804 F.3d at 257 (citation
omitted); see also Heller II, 670 F.3d at 1260-61.
Instead, these circuits deem it more appropriate to
assume common use and proceed to the second step of
the analysis, level of scrutiny. See New York State
Rifle & Pistol Ass’n, 804 F.3d at 257; Heller II, 670
F.3d at 1260-61. Second, the government fails to
acknowledge that it bears the burden of
demonstrating that the banned magazines are not in
common use; noting the absence of evidence does not
suffice. See Fyock I, 25 F. Supp. 3d at 1276.
The LCM law is also consistent with this country’s
history and tradition of ‘‘imposing conditions and
qualifications on the commercial sale of arms.” Heller
I, 554 U.S. at 626-27. Several states began to “impose
restrictions on the capacity of magazines shortly after
they became commercially available in the early part
of the century. 8 Further, until the 1980s and 1990s the
8 Although Plaintiffs correctly note that some of these early
20th century laws regulated automatic weapons, rather than

App-145
most commonly owned handgun in the United States
was the revolver, which generally held six rounds of
ammunition. (Defendants’ Exhibit 103). Once
production—and ownership—of handguns with
magazines holding more than ten rounds increased,
two states and the federal government soon
responded.
The prohibition-era limitations on the number of
rounds a gun could fire without reloading ranged from
five to sixteen; five state laws restricted that number
to ten rounds or fewer. Of the states that currently
regulate magazine capacity, the majority of
restrictions limit capacity to ten rounds. See Heller II,
670 F.3d at 1296 n.20 (Kavanaugh, J., dissenting)
(noting that he would remand to the District Court for
analysis of “whether magazines with more than 10
rounds have traditionally been banned and are not in
common use”).
In sum, based on the record presented, New
Jersey’s ban on magazines capable of holding more
than ten rounds implicates Second Amendment
protections. As such, the Court proceeds to step two,
as outlined in Marzarrella, and considers whether the
LCM law passes constitutional muster.
Prong Two: Constitutional Scrutiny
Having concluded that magazines fall within the
purview of Second Amendment protections, the Court
next assesses the LCM law under the appropriate
semiautomatic weapons, those statutes nonetheless inform the
Court’s analysis in that they focused on the number of bullets
that could be fired without reloading, not the number of times the
shooter needed to pull the trigger.

App-146
standard of constitutional scrutiny. Marzzarella, 614
F.3d at 95. Neither Heller nor McDonald explicitly
prescribed the appropriate standard of scrutiny to
review Second Amendment challenges. As such, the
parties predictably offer conflicting standards of
scrutiny upon which to review the present matter. The
government contends that intermediate scrutiny is
appropriate since the law does not severely burden the
core right to bear arms. Plaintiffs, on the other hand,
contend that strict scrutiny must be applied, since the
right to bear arms is a fundamental constitutional
right. Likening New Jersey’s LCM law to the District
of Columbia handgun ban in Heller, Plaintiffs argue
that strict scrutiny should apply, since they contend
that the law would prohibit an entire class of arms.
In Marzzarella, the Third Circuit faced a similar
challenge in determining the appropriate level of
scrutiny to use, in reviewing the constitutionality of a
statute that generally prohibits possession of a
firearm with an obliterated serial number. 614 F.3d at
96-97. Like the First Amendment right to free speech,
the Third Circuit explained that Second Amendment
challenges are susceptible to varying levels of
scrutiny, depending on the severity of the burden the
law places on the Second Amendment right. Id. at 97.
Where the law in question severely limits the
possession of firearms, as was the case in Heller, strict
scrutiny should apply. Id. Ultimately, the Marzzarella
court concluded that because the statute nevertheless
“le[ft] a person free to possess any otherwise lawful
firearm he chooses—so long as it bears its original
serial
number,”
intermediate
scrutiny
was
appropriate. Id. at 97.

App-147
Here, the Court sees no reason to stray from
Marzzarella’s reasoning. Contrary to Plaintiffs’
assertion, New Jersey’s LCM law does not prohibit the
possession of “the quintessential self-defense weapon,”
the handgun, as was the case in Heller. 554 U.S. at
629. Nor does the prohibition of large capacity
magazines “effectively disarm individuals or
substantially affect their ability to defend
themselves.” Heller II, 670 F.3d at 1262. As such, since
the LCM law nevertheless leaves law abiding citizens
free to possess lawful firearms, albeit with five less
rounds per magazine, intermediate scrutiny is
appropriate. See Marzzarella, 614 F.3d at 97. This is
also consistent with the majority of Circuit Courts
that have considered similar restrictions on magazine
capacities and have, likewise, utilized intermediate
scrutiny. See New York State Rifle & Pistol Ass’n, 804
F.3d at 260-61; Fyock II, 779 F.3d at 998-99; Heller II,
670 F.3d at 1261-62; see also Kolbe, 849 F.3d at 138
(assuming that large capacity magazines were
protected by the Second Amendment, the Fourth
Circuit would apply intermediate scrutiny).
To survive intermediate scrutiny, the government
must demonstrate: (1) ‘‘a significant, substantial, or
important interest;” and (2) ‘‘a reasonable fit between
that asserted interest and the challenged law, such
that the law does not burden more conduct than is
reasonably necessary.” Drake v. Filko, 724 F.3d 426,
436 (3d Cir. 2013) (citing Marzzarella, 614 F.3d at 98).
Put differently, ‘‘a regulation that burdens a plaintiffs
Second Amendment rights ‘passes constitutional
muster if it is substantially related to the achievement
of an important governmental interest.”‘ Kwong v.
Bloomberg, 723 F.3d 160, 168 (2d Cir. 2013) (quoting

App-148
Kachalsky v. Cnty. of Westchester, 701 F.3d 81, 96 (2d
Cir. 2012)). ‘‘When reviewing the constitutionality of
statutes, courts ‘accord substantial deference to the
[legislature’s] predictive judgments.”‘ Drake, 724 F.3d
at 436-37 (quoting Turner Broad. Sys., Inc. v. FCC,
520 U.S. 180, 195 (1997)).
It is well-established that “[t]he State of New
Jersey has, undoubtedly, a significant, substantial
and important interest in protecting its citizens’
safety.” Id. at 437 (quoting United States v. Salerno,
481 U.S. 739, 745 (1987)). Here, the parties dispute
whether New Jersey’s LCM law reasonably fits within
this interest in safety. The government defends the
constitutionality of the LCM law, contending it seeks
to prevent mass shootings, which is likely to advance
public safety interests. Plaintiffs respond, contending
that the proposed law would not be fruitful and, in
enforcing the law, would place law abiding citizens at
a greater risk of danger.
The Court finds neither Allen nor Kleck provided
a clear analysis based on the various studies. Allen’s
analysis, based on an NRA report, does not support
with statistical reliability her claim that individuals
only use an average of 2.2 or 2.3 bullets when using
handguns in self- defense. Similarly, the report relied
on by Kleck used a poor sample, and he failed to
explain why the defensive gun use events in his report
were cut in half one year later. However, the expert
testimony established that there is some delay
associated with reloading, which may provide an
opportunity for potential victims to escape or for a
bystander to intercede and somehow stop a shooter.

App-149
The LCM law places a minimal burden on lawful
gun owners. The new law imposes no new restrictions
on the quantity of firearms, magazines or bullets an
individual may possess. It merely limits the lawful
capacity of a single magazine. A gun owner preparing
to fire more than ten bullets in self-defense can legally
purchase multiple magazines and fill them with ten
bullets each. The Court therefore finds the new law
imposes no significant burden, if any, on Plaintiffs’
second amendment right.
The Court also notes that New Jersey, a densely
populated urban state, has a particularly strong local
interest in regulating firearms. New Jersey, like other
states with densely populated areas (Massachusetts,
New York, California, Connecticut, the District of
Columbia), has concluded that this restriction on
magazine capacity is necessary for public safety and
this Court will defer to that legislative finding. See
City of Los Angeles v. Alameda Books, Inc., 535 U.S.
425, 438 (2002) (recognizing that “the Los Angeles
City Council is in a better position than the Judiciary
to gather and evaluate data on local problems”); Heller
I, 554 U.S. at 705 (Breyer, J., dissenting) (noting that
“deference to legislative judgment seems particularly
appropriate [with regard to firearm legislation], where
the judgment has been made by a local legislature
with particular knowledge of local problems and
insight into appropriate local solutions”).
Conclusion
In sum, the Court finds that the government has
enacted the LCM law in response to a growing concern
over mass shootings and the law, based on the
evidence presented, is reasonably tailored to

App-150
accomplish that objective. Plaintiffs challenge the ban
since it will have “an inconsequential effect on
reducing the number of killed or injured victims in
mass shootings.” (Kleck Declaration at ¶ 22).
However, this contention fails to recognize that, under
intermediate scrutiny, a regulation need not be
perfect, but fit within the government’s purpose. See
Woollard v. Gallagher, 712 F.3d 865, 881-82 (4th Cir.
2013); see also Kachalsky, 701 F.3d at 100. As such,
simply because the challenged ban does not
completely solve a problem, here being mass shooting,
does not render it unconstitutional. See id. Because
the Court is satisfied that the state has presented
sufficient evidence that demonstrates that the LCM
law is reasonably tailored to achieve their goal of
reducing the number of casualties and fatalities in a
mass shooting, and that it leaves several options open
for current LCM owners to retain their magazines and
for purchasers to buy large amounts of ammunition, it
passes constitutional muster. Therefore, Plaintiffs
have failed to prove that they are likely to succeed on
the merits on their Second Amendment claim. This is
consistent with nearly every Circuit Court to examine
laws that reduce large magazine capacity to hold no
more than ten rounds, all of which have found these
laws constitutional. See Kolbe, 849 F.3d at 140-41;
Friedman v. City of Highland Park, 784 F.3d 406, 41112 (7th Cir. 2015); New York State Rifle & Pistol Ass’n,
804 F.3d at 264; Fyock II, 779 F.3d at 1000-01; Heller
II, 670 F.3d at 1262-64. But see Duncan II, 2018 WL
3433828.

App-151
2.

Equal Protection

Plaintiffs next argue that the LCM law violates
the Equal Protection Clause of the Fourteenth
Amendment, since it treats active and retired law
enforcement
officers
differently
than
other
individuals. The Equal Protection Clause guarantees
that “[n]o State shall . . . deny to any person within its
jurisdiction the equal protection of the laws.” U.S.
Const. amend. XIV § 1. “This is essentially a direction
that all persons similarly situated should be treated
alike.” Shuman v. Penn Manor Sch. Dist., 422 F.3d
141, 151 (3d Cir. 2005) (City of Cleburne v. Cleburne
Living Ctr., 473 U.S. 432, 439 (1985)). “The general
rule is that legislation is presumed to be valid and will
be sustained if the classification drawn by the statute
is rationally related to a legitimate state interest.”
City of Cleburne, 473 U.S. at 440. 9
Here, Plaintiffs challenge the validity of New
Jersey’s LCM law and bring this equal protection
claim on a “class of one” theory. Under a “class of one”
claim, the plaintiff must demonstrate that: “1) it ‘has
been intentionally treated differently from others
similarly situated,’ and 2) ‘there is no rational basis
for the difference in treatment.”‘ Highway Materials,
It should be noted that Plaintiffs argue that the Court should
apply a heightened level of scrutiny, since the LCM law
implicates fundamental rights protected under the Second
Amendment. However, because the Court has already
determined that the Plaintiffs’ Second Amendment claim fails,
their equal protection claim is subject to rational basis review.
See Kwong v. Bloomberg, 723 F.3d 160, 169-70 (2d Cir. 2013);
Hightower v. City of Boston, 693 F.3d 61, 83 (1st Cir. 2012)
(“Given that the Second Amendment challenge fails, the equal
protection claim is subject to rational basis review”).
9

App-152
Inc. v. Whitemarsh Twp., 386 F. App’x 251,259 (3d Cir.
2010) (quoting Vill. of Willowbrook v. Olech, 528 U.S.
562, 564 (2000)). As such, the Court first considers
whether the Plaintiffs have been treated differently
from similarly situated individuals and, if so, whether
there is a rational basis for the differential treatment.
Turning to the first issue, the Court finds that
Plaintiffs have not be not been treated differently from
others similarly situated. “[R]etired police officers
possess a unique combination of training and
experience related to firearms[,]” not commonly
possessed by the general public. Kolbe, 813 F.3d at 185
(citing Shew v. Malloy, 994 F. Supp. 2d 234, 252 (D.
Conn. 2014); Pineiro v. Gemme, 937 F. Supp. 2d 161,
176 (D. Mass. 2013)). In New Jersey, the Attorney
General has issued guidelines dictating the semiannual firearms requalification standards for state
law enforcement officers, “to ensure the safety of law
enforcement officers as well as promote the public
safety and ensure a high level of public confidence in
the competence and integrity of our law enforcement
personnel in the performance of their official
functions.” Semi-Annual Firearms Qualification and
Requalification Standards for N.J. Law Enforcement
(June 2003), available at http://www.state.nj.us/
lps/dcj/pdfs/dcj-firearms.pdf. These qualifications
apply to both active and retired law enforcement
officers. Id.; see also Stanton Declaration at ¶¶ 17-18.
However, no similar requirements are imposed on
regular law abiding individuals. Second, as the Kolbe
court recognized, “police officers are instilled with
what might be called an unusual ethos of public
service,” and are expected to act in the public’s
interest, which does not apply to the public at large.

App-153
813 F.3d at 186-87. Finally, “retired police officers face
special threats that private citizens do not,” such as
from past criminals that they have arrested.” Id. at
187 (citing H.R. Rep. 108-560, at 4 (2004)). In addition,
to the extent Plaintiffs complain of the disparate
treatment between retired officers and military
veterans, there is no evidence to suggest that military
veterans receive equivalent training. In fact, the
government notes that “the firearms training military
recruits receive is vastly different than what is
required of recruits in the police academy” and
“military recruits generally receive very little, if any
handgun training.” (Stanton Declaration at ¶¶ 22-23).
In sum, given the extensive and stringent training
that law enforcement officers receive, in addition to
the unique circumstances that come with being a
police officer, they are not similarly situated to other
New Jersey citizens. As such, Plaintiffs’ equal
protection claim fails. See Plyler v. Doe, 457 U.S. 202,
216 (1982) (“Dissimilar treatment of dissimilarly
situated persons does not violate equal protection.”).
Therefore, since Plaintiffs’ fail to establish a prima
facie Fourteenth Amendment claim, they are unlikely
to succeed on the merits of this claim.
3.

Unconstitutional Taking

Finally, Plaintiffs challenge the LCM law on the
basis that it constitutes a unconstitutional
governmental taking, under the Fifth and Fourteenth
Amendments, since they are required to dispossess
themselves of these magazines or modify them to
accept no more than ten rounds. In either case,
Plaintiffs claim the LCM law deprives them of the

App-154
beneficial use of their fifteen round magazines,
without receiving just compensation.
The Takings Clause, as incorporated against the
states by the Fourteenth Amendment, guarantees
that no “private property shall be taken for public use,
without just compensation.” U.S. Const. amend. V. A
physical taking occurs “[w]hen the government
physically takes possession of an interest in property
for some public purpose.” Tahoe-Sierra Pres. Council,
Inc. v. Tahoe Reg’l Planning Agency, 535 U.S. 302, 322
(2002). Where no physical dispossession of property
occurs, a regulation may nevertheless be deemed a
“regulatory taking” if considered overly burdensome.
Pennsylvania Coal Co. v. Mahon, 260 U.S. 393, 415
(1922).
“[T]wo guidelines” inform the Supreme Court’s
regulatory takings jurisprudence.” Murr v. Wisconsin,
137 S. Ct. 1933, 1942 (2017). “First, ‘with certain
qualifications . . . a regulation which “denies all
economically beneficial or productive use of land” will
require compensation under the Takings Clause.”‘ Id.
(quoting Palazzolo v. Rhode Island, 533 U.S. 606, 617
(2001)). Additionally, where a regulation does not
deprive the owner of all economically beneficial use,
courts assess ‘“complex of factors,’ including (1) the
economic impact of the regulation on the claimant;
(2) the extend to which the regulation has interfered
with distinct investment-backed expectations; and
(3) the character of the governmental action.” Id. at
1943 (quoting Palazzolo, 533 U.S. at 617).
Under the police power doctrine, the government
may pass regulations to “protect the general health,
safety and welfare of its citizens[,]” without having to

App-155
recompense the aggrieved. Akins v. United States, 82
Fed. Cl. 619, 622 (2008) (quoting Amerisource Corp. v.
United States, 75 Fed. Cl. 743, 747 (2007)). This is
because,
A prohibition simply upon the use of property
for purposes that are declared, by valid
legislation, to be injurious to the health,
morals, or safety of the community, cannot, in
any just sense, be deemed a taking or an
appropriation of property for the public
benefit. Such legislation does not disturb the
owner in the control or use of his property for
lawful purposes, nor restrict his right to
dispose of it, but is only a declaration by the
state that its use by any one, for certain
forbidden purposes, is prejudicial to the
public interests
Mugler v. Kansas, 123 U.S. 623, 668-69 (1887). A
state’s power to legislate that which is injurious to the
health, morals, or safety of the community, however,
“cannot serve as a touchstone to distinguish
regulatory ‘takings’—which require compensation—
from regulatory deprivations that do not require
compensation.” Lucas v. South Carolina Coastal
Council, 505 U.S. 1003, 1026 (1992).
The Court notes a recent case from the Southern
District of California, which declined to apply the
police power doctrine to a similar regulation, finding
the state’s classification of LCMs as a nuisance to be
“dubious” because “[g]uns in general are not
‘deleterious devices or products or obnoxious waste
materials.’” Duncan I, 265 F. Supp. 3d at 1137
(quoting Staples v. United States, 511 U.S. 600, 610

App-156
(1994)). That decision held “the Takings Clause
prevents [California] from compelling the physical
dispossession of . . . lawfully acquired private property
[(magazines over 10 rounds)] without just
compensation.” Id. at 1138.
There are clear distinctions between the statute
considered in Duncan and the one at issue here. As the
court recognized,
Section 32310(d) provides three options for
dispossession. First, a person may “remove
the large-capacity magazine from the State”
§ 32310(d)(1). Second, a person may “sell the
large-capacity magazine to a licensed firearm
dealer.” § 32310(d)(2). Third, a person may
“surrender the large-capacity magazine to a
law enforcement agency for destruction.
Id. at 1110. This the court found deprived gun owners
“not just of the use of their property, but of possession,
one of the most essential sticks in the bundle of
property rights.”
Two provisions of the New Jersey law at issue
here remedy the Duncan court’s concern. First, section
five permits gun owners to permanently modify their
magazines “to accept 10 rounds or less.” L. 2018,
ch. 39, § 5. Second, section seven—which applies to
magazines that cannot be modified and to guns which
do not accept the smaller magazines—permits gun
owners to register their firearms. L. 2018, c. 39, § 7.
These avenues, unlike the California statute, ensure
that gun owners who wish to keep their magazines
may do so, provided they bring them into compliance
with the new law. As such, New Jersey is not imposing
a regulation that goes “too far,” nor is it permanently

App-157
depriving anyone of their property. The Court finds
Plaintiffs’ Taking Clause fails because the statute
provides property owners with an avenue to comply
with the law without forfeiting their property.
For the reasons discussed above, Plaintiffs have
failed to demonstrate a likelihood of success regarding
their takings claim.
II. Irreparable Injury, Balance of Hardships,
Public Interest
Having concluded that New Jersey’s restriction on
magazine capacity is not unconstitutional and thus
that Plaintiffs have failed to demonstrate a likelihood
of success on the merits, the Court concludes that
Plaintiffs cannot establish the other three
requirements for a preliminary injunction: (1) that
they will suffer irreparable harm absent injunction; 10
(2) that granting preliminary relief will not result in
even greater harm to the non-moving party; and
(3) that the public interest favors injunctive relief.
ORDER
Having carefully reviewed and taken into
consideration the submissions of the parties, as well
as the arguments and exhibits therein presented, and
the testimony adduced; for good cause I shown, and for
all of the foregoing reasons,
Although there is no need to address the irreparable harm
prong, it is noteworthy that the Court does not find same, the gun
owners still possess the right to own a weapon without any
numerical limit on the quantity of bullets and magazines one can
own. There is no evidence this regulation on the capacity of the
magazine places any burden on Plaintiffs’ Second Amendment
right.
10

App-158
IT IS on this [handwritten: 28] day of September,
2018,
ORDERED that Plaintiffs’ Motion for Preliminary
Injunction be and hereby is DENIED.
[handwritten: signature]
PETER G.
U.S.D.J.

SHERIDAN,

App-159
Appendix F
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 18-3170
________________
ASSOCIATION OF NEW JERSEY RIFLE AND PISTOL
CLUBS INC.; BLAKE ELLMAN; ALEXANDER DEMBOWSKI,
v.

Appellants,

ATTORNEY GENERAL NEW JERSEY; SUPERINTENDENT
NEW JERSEY STATE POLICE; THOMAS WILLIVER, in
his official capacity as Chief of Police of the Chester
Police Department; JAMES B. O’CONNOR, in his official
capacity as Chief of Police of the Lyndhurst
Police Department,
Appellees.
________________
Filed: Jan. 9, 2019
________________
Before: SMITH, Circuit Judge, McKEE, AMBRO,
CHAGARES, JORDAN, *HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, and PORTER Circuit Judges
________________
ORDER
________________

*

Hon. Thomas M. Hardiman would have granted the petition.

App-160
The petition for rehearing filed by appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/Patty Shwartz
Circuit Judge

App-161
Appendix G
RELEVANT STATUTORY PROVISIONS
N.J. Stat. Ann. § 2C:39-1(w)(4), (y)
w. “Assault firearm” means:
...
(4) A semi-automatic rifle with a fixed magazine
capacity exceeding 10 rounds. “Assault firearm”
shall not include a semiautomatic rifle which has
an attached tubular device and which is capable
of operating only with .22 caliber rimfire
ammunition.
...
y. “Large capacity ammunition magazine” means a
box, drum, tube or other container which is capable of
holding more than 10 rounds of ammunition to be fed
continuously and directly therefrom into a semiautomatic firearm. The term shall not include an
attached tubular device which is capable of holding
only .22 caliber rimfire ammunition.
N.J. Stat. Ann. § 2C:39-3(j)
j. Any person who knowingly has in his possession
a large capacity ammunition magazine is guilty of a
crime of the fourth degree unless the person has
registered:
(1) an assault firearm pursuant to section 11 of
P.L.1990, c. 32 (C.2C:58-12) and the magazine is
maintained and used in connection with
participation in competitive shooting matches
sanctioned by the Director of Civilian
Marksmanship of the United States Department
of the Army; or

App-162
(2) a firearm with a fixed magazine capacity or
detachable magazine capable of holding up to 15
rounds pursuant to section 7 of P.L.2018, c. 39
(C.2C:39-20).
N.J. Stat. Ann. § 2C:39-5(b), (f)
b. Handguns. (1) Any person who knowingly has in
his possession any handgun, including any antique
handgun, without first having obtained a permit to
carry the same as provided in N.J.S.2C:58-4, is guilty
of a crime of the second degree. (2) If the handgun is
in the nature of an air gun, spring gun or pistol or
other weapon of a similar nature in which the
propelling force is a spring, elastic band, carbon
dioxide, compressed or other gas or vapor, air or
compressed air, or is ignited by compressed air, and
ejecting a bullet or missile smaller than three-eighths
of an inch in diameter, with sufficient force to injure a
person it is a crime of the third degree.
...
f. Assault firearms. Any person who knowingly has
in his possession an assault firearm is guilty of a crime
of the second degree except if the assault firearm is
licensed pursuant to N.J.S.2C:58-5; registered
pursuant to section 11 of P.L.1990, c. 32 (C.2C:58-12);
or rendered inoperable pursuant to section 12 of
P.L.1990, c. 32 (C.2C:58-13).
N.J. Stat. Ann. § 2C:39-19
Except as provided in section 7 of P.L.2018, c. 39
(C.2C:39-20), a person who legally owns a semiautomatic rifle with a fixed magazine capacity
exceeding 10 rounds or a large capacity ammunition
magazine as defined under subsection y. of

App-163
N.J.S.2C:39-1 which is capable of holding more than
10 rounds of ammunition on the effective date of
P.L.2018, c. 39 (C.2C:39-17 et al.) may retain
possession of that rifle or magazine for a period not to
exceed 180 days after the effective date of this act.
During this time period, the owner of the semiautomatic rifle or magazine shall:
a. Transfer the semi-automatic rifle or magazine to
any person or firm lawfully entitled to own or possess
that firearm or magazine;
b. Render the semi-automatic rifle or magazine
inoperable or permanently modify a large capacity
ammunition magazine to accept 10 rounds or less; or
c. Voluntarily surrender the semi-automatic rifle or
magazine pursuant to the provisions of N.J.S.2C:3912.
N.J. Stat. Ann. § 2C:39-20(a)
a. A person who legally owns a firearm as set forth
in paragraph (1) or (2) of this subsection prior to the
effective date of P.L.2018, c. 39 (C.2C:39-17 et al.) 1
shall register that firearm within one year from the
effective date:
(1) a firearm with a fixed magazine capacity
holding up to 15 rounds which is incapable of
being modified to accommodate 10 or less rounds;
or
(2) a firearm which only accepts a detachable
magazine with a capacity of up to 15 rounds which
is incapable of being modified to accommodate 10
or less rounds.
1

L.2018, c. 39, approved June 13, 2018, effective June 13, 2018.

